<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




                 INTERIOR, ENVIRONMENT, AND RELATED 
                  AGENCIES APPROPRIATIONS FOR 2016 
__________________________________________________________
__________________________________________________________



                           HEARINGS 

                           BEFORE A 
                           
                     SUBCOMMITTEE OF THE 
                     
                 COMMITTEE ON APPROPRIATIONS 
                 
                  HOUSE OF REPRESENTATIVES 

              ONE HUNDRED FOURTEENTH CONGRESS 

                        FIRST SESSION 

          SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND 
                      RELATED AGENCIES 

                 KEN CALVERT, California, Chairman 
MICHAEL K. SIMPSON, Idaho        BETTY MCCOLLUM, Minnesota 
TOM COLE, Oklahoma               CHELLIE PINGREE, Maine 
DAVID P. JOYCE, Ohio             DEREK KILMER, Washington 
CHRIS STEWART, Utah              STEVE ISRAEL, New York 
MARK E. AMODEI, Nevada 
EVAN H. JENKINS, West Virginia 

NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the 
Full Committee, and Mrs. Lowey, as Ranking Minority Member 
of the Full Committee, are authorized to sit as Members of 
all Subcommittees. 

           DAVE LESSTRANG, DARREN BENJAMIN, JASON GRAY, 
                 BETSY BINA, and KRISTIN RICHMOND, 
                         Staff Assistants 
                               ________

                                PART 6 
                                                       Page 
                                                       

Indian Health Service Budget Oversight Hearing ......     1 
Department of the Interior Budget Oversight Hearing..    63 
Environmental Protection Agency Budget Oversight 
  Hearing ...........................................   205 
Bureau of Indian Affairs/Bureau of Indian Education 
  Budget Oversight Hearing ..........................   295 
                                 ________
 
Printed for the use of the Committee on Appropriations 
                                 ________ 

                  U.S. GOVERNMENT PUBLISHING OFFICE 
                  
94-523                      WASHINGTON : 2015 







                  COMMITTEE ON APPROPRIATIONS 
              HAROLD ROGERS, Kentucky, Chairman 

RODNEY P. FRELINGHUYSEN, New Jersey       NITA M. LOWEY, New York
ROBERT B. ADERHOLT, Alabama               MARCY KAPTUR, Ohio
KAY GRANGER, Texas                        PETER J. VISCLOSKY, Indiana
MICHAEL K. SIMPSON, Idaho                 JOSE E. SERRANO, New York
JOHN ABNEY CULBERSON, Texas               ROSA L. DELAURO, Connecticut
ANDER CRENSHAW, Florida                   DAVID E. PRICE, North Carolina
JOHN R. CARTER, Texas                     LUCILLE ROYBAL-ALLARD, California   
KEN CALVERT, California                   SAM FARR, California 
TOM COLE, Oklahoma                        CHAKA FATTAH, Pennsylvania  
MARIO DIAZ-BALART, Florida                SANFORD D. BISHOP, JR., Georgia  
CHARLES W. DENT, Pennsylvania             BARBARA LEE, California     
TOM GRAVES, Georgia                       MICHAEL M. HONDA, California
KEVIN YODER, Kansas                       BETTY MCCOLLUM, Minnesota 
STEVE WOMACK, Arkansas                    STEVE ISRAEL, New York           
JEFF FORTENBERRY, Nebraska                TIM RYAN, Ohio
THOMAS J. ROONEY, Florida                 C.A. DUTCH RUPPERSBERGER, Maryland
CHARLES J. FLEISCHMANN, Tennessee         DEBBIE WASSERMAN SCHULTZ, Florida
JAIME HERRERA BEUTLER, Washington         HENRY CUELLAR, Texas
DAVID P. JOYCE, Ohio                      CHELLIE PINGREE, Maine
DAVID G. VALADAO, California              MIKE QUIGLEY, Illinois
ANDY HARRIS, Maryland                     DEREK KILMER, Washington 
MARTHA ROBY, Alabama 
MARK E. AMODEI, Nevada 
CHRIS STEWART, Utah 
E. SCOTT RIGELL, Virginia 
DAVID W. JOLLY, Florida 
DAVID YOUNG, Iowa 
EVAN H. JENKINS, West Virginia 
STEVEN M. PALAZZO, Mississippi 

               WILLIAM E. SMITH, Clerk and Staff Director 
               
                                (II) 








 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2016
__________________________________________________________________
__________________________________________________________________


                                      Wednesday, February 11, 2015.

                         INDIAN HEALTH SERVICE

                               WITNESSES

DR. YVETTE ROUBIDEAUX, SENIOR ADVISOR TO THE SECRETARY FOR AMERICAN 
    INDIANS AND ALASKA NATIVES
ROBERT McSWAIN, ACTING DIRECTOR, DEPARTMENT OF HEALTH AND HUMAN 
    SERVICES, INDIAN HEALTH SERVICE

                  Opening Remarks of Chairman Calvert

    Mr. Calvert. Good morning. The Committee will come to 
order.
    Good morning. Welcome to the oversight hearing on fiscal 
year 2016 budget for Indian Health Service. Since this is the 
first hearing of this Subcommittee in the 114th Congress, let 
me take a moment to congratulate the new Ranking Minority 
Member of this Subcommittee, Representative Betty McCollum of 
Minnesota. Betty, you have been a respected leader on this 
Subcommittee for some time, and I am very much looking forward 
to continuing to work with you in this Congress, particularly 
on the many nonpartisan issues under this Subcommittee's 
jurisdiction such as Indian Health.
    Let me also take a moment to congratulate and welcome the 
newest members of our Subcommittee--not all of them are here--
Representative Mark Amodei of Nevada, I guess we will forget 
about the sage grouse since he is not here today. 
Representative Steve Israel of New York, Representative Evan 
Jenkins of West Virginia, Representative Derek Kilmer of 
Washington. As many of your know, Mr. Kilmer's predecessor, 
Norm Dicks, was the cornerstone of this Subcommittee for more 
than 30 years and his leadership can still be felt today. For 
example, in fiscal year 2009, Chairman Dicks placed a renewed 
emphasis on Indian health in this Subcommittee that has 
continued through the three successive chairmen. In fact, since 
2010, the Indian Health Service budget as a percentage of the 
Subcommittee total budget has grown from 13 percent to over 15 
percent today.
    The President's 2016 proposal would push this ratio to 16 
percent by increasing the Indian Health Service's discretionary 
budget by $461 million, of which $147 million is to keep pace 
with medical inflation, population growth, salary and benefit 
costs in order to maintain current levels of service. Fifty-
five million is to keep pace with the rising contract support 
costs, $18 million is to keep pace with the additional staffing 
costs from new expanded facilities, $35 million is to reduce a 
critical maintenance backlog that currently stands at $460 
million, $100 million is to keep up efforts to complete the $2 
billion Health Care Facilities Priority Construction List, and 
another $35 million is to address the $1.9 billion sanitation 
facilities backlog.
    Two years ago, then-Chairman Simpson convened an oversight 
hearing to determine whether funding increases in recent years 
for the Indian Health Service were making a difference. The 
answer was a resounding yes, but that more needed to be done. 
Clearly, the 2016 budget proposes to do just that.
    However, like the majority of my colleagues in Congress, I 
am disappointed that the increases proposed in fiscal year 2016 
for Indian Health Service and many other agencies are not 
offset by responsible cuts to lower-priority spending elsewhere 
on both the discretionary and mandatory sides of the budget. 
For the majority of us in Congress, the goal here is to reduce 
the national debt, not add to it.
    Nevertheless, there is no doubt that most of us, if not all 
of us on this subcommittee, agree that funding for Indian 
Health Service remains a priority in this bill, and we will 
continue to work with our Subcommittee's allocation to balance 
funding for Indian Health with other programs in this bill in 
order to pass an appropriations bill that fairly reflects the 
priorities of the Congress.
    We are pleased to be joined today by Dr. Yvette Roubideaux, 
now the Senior Advisor to the Secretary of American Indians and 
Alaska Natives, who had previously been at the helm of Indian 
Health Service for several years and now patiently awaits re-
nomination by the President and confirmation by the Senate.
    We are also joined today by Mr. Robert McSwain, now Acting 
Director of the IHS, and formerly the Deputy Director. Mr. 
McSwain also served as Director of the IHS from 2007 to 2009.
    We thank you both for being here this morning and look 
forward to working with you today and the coming months to 
review this budget request and to determine which of your 
priorities can be met in light of the Subcommittee's more 
limited allocation.
    Before we turn to Dr. Roubideaux, let me first ask our 
distinguished Ranking Member, Ms. McCollum, for any opening 
remarks she may wish to make.

                    Opening Remarks of Ms. McCollum

    Ms. McCollum. Thank you, Mr. Chair. I am looking forward to 
serving in this capacity. Our colleagues, I want to make sure 
that the colleague who made this possible for me by his 
retirement, Mr. Moran, remains in retirement, and one of the 
things he said is you have to keep the quote up. So gentlemen, 
I will not do this all the time but here is the quote for the 
day. It is short and sweet.
    Mr. Simpson. I expect one at every hearing.
    Ms. McCollum. I do not think you are going to get it every 
one, and we will see how you like this one.
    ``It is an old error of man to forget to put quotation 
marks when he borrows from a woman's brain.'' That is from Anna 
Spencer, who was an American educator, feminist, Unitarian 
minister--oh, you got it. It is sinking in. We are a band of 
brothers and sisters on this Committee, so thank you, Mr. 
Chairman, for your kind words, and I look forward to working 
with you and all the members of this Committee because this 
bill does fund things that are so vital to our communities, our 
Nation and to its people. It is our moral and legal 
responsibility to provide for the health care for Native 
Americans, and this is something that we all take very 
seriously. So I would really like to join Chairman Calvert in 
welcoming Dr. Roubideaux and Mr. McSwain to the Subcommittee 
this morning.
    As we kick off our hearings for fiscal year 2016 budget 
request, I would also like to extend a warm welcome to the new 
members who are here and the returning members. I am very glad 
to have Ms. Pingree here to fill in when I cannot be here 
because of other duty assignments as part of this Congress.
    So as you point out, Mr. Chairman, it is the history of 
this subcommittee to seek an approach on issues in a bipartisan 
fashion. Indian Health is an area where we have been 
tremendously successful and I am confident we will work 
together in the years to come as we face the challenges in 
Indian Country. These truly are our greatest successes.
    Our support for federal treaty obligations in the past has 
allowed us to make considerable progress in addressing health, 
social, and educational needs throughout Indian Country. But we 
know as a Committee and as an Administration and as Americans, 
there is much more work to be done.
    The fiscal year 2016 Indian Health Service budget request 
includes $5.1 billion in discretionary funding. That is an 
increase of $460.6 million over last year's levels. Within the 
proposed increase, $146.3 million would pay for additional 
funds to simply maintain the current levels of medical care. 
The remaining $313.3 million would allow us to expand services 
and pay for some of the health care needs that are currently 
unmet.
    This is an ambitious proposal, and I am encouraged by the 
support of the Administration and my colleagues on this 
Committee for addressing the needs within Indian Country.
    This budget request contains $55 million for contract 
support costs, an area of great concern for tribal leaders, for 
me and many of the people on this Committee. My partner on the 
Native American Caucus, Mr. Cole, has been a great champion on 
this.
    While I am pleased that the Administration is no longer 
proposing caps to contract support, I am concerned that unless 
we also provide mandatory funding for direct services, there 
will be an inequity among tribes within their health care 
needs, so I hope to discuss this issue with you more later.
    I first want to focus on the disparities in mental health 
outcomes and available care in Native American communities, and 
this is something that we heard firsthand again when we were in 
Navajo and Hopi country. Native Americans experience post-
traumatic stress disorder at more than twice the rate of the 
general population. Native Americans are more likely to serve 
as veterans. They experience domestic violence at a higher rate 
than the general population, and they carry the historical 
trauma of the Native American experience in this country. 
Access to mental health and chemical dependency services 
remains a critical issue I intend to focus on with this 
Committee.
    A study of the Substance Abuse and Mental Health Services 
Administration indicates 11.5 percent of Native Americans have 
unmet needs for mental health treatment, and suicide is the 
second leading cause of death for Native American youth ages 10 
to 34.
    So I was pleased to see that the budget included $25 
million for the Tribal Behavioral Health Initiative for Native 
Youth, and I am interested in hearing more about that.
    I was also happy to see that the request made strategic 
investments in information technology implementation, to fully 
integrate electronic medical records. There is a lot of work 
IHS needs to do with that, working with insurance companies and 
third-party reimbursements. I'll want to hear more on the 
Defense Committee, on which many of us sit, about how you are 
integrating with the Department of Defense and Veterans Affairs 
with your mental health records.
    So Mr. Chairman, I want to thank you for holding this 
hearing. I look forward to working with you and all the members 
on this Committee, and as we build healthy tribal nations and 
Native communities, we build a healthier America. Thank you.
    Mr. Calvert. Thank you, and Doctor, you are recognized for 
your opening statement.

                   Opening Remarks of Dr. Roubideaux

    Dr. Roubideaux. Great. Thank you so much, Chairman Calvert 
and Ranking Member McCollum and members of the Committee, I am 
Dr. Yvette Roubideaux, Senior Advisor to the Secretary for 
American Indians and Alaska Natives, and with me today is Mr. 
Robert McSwain, Acting Director of the Indian Health Service, 
and we are pleased to provide testimony on the President's 
proposed fiscal year 2016 budget for the Indian Health Service.
    Since 2008, IHS appropriations have increased by 39 
percent, thanks in part due to the efforts of your Committee, 
and these investments are making substantial impact on the 
quantity and the quality of health care we are able to provide 
to American Indians and Alaska Natives.
    This budget proposes to continue that progress by 
increasing the budget by $461 million to a level of $5.1 
billion, which if appropriated would increase the IHS budget to 
53 percent since 2008.
    This budget continues the Administration's commitment to 
improving health care for American Indians and Alaska Natives, 
and I know you share that commitment as well.
    The fiscal year 2016 President's budget proposes a number 
of increases, first, a $147 million increase to help address 
medical inflation, population growth and pay costs to help 
maintain current services. It also addresses a top tribal 
priority by proposing an overall $70 million increase to the 
Purchase and Referred Care program, formerly known as Contract 
Health Services--so thank you for helping us change the name--
which will help us fund more referrals for patients and result 
in more programs funding more than Priority I or life-or-limb 
services. My testimony mentioned that we have gone from four 
programs funding more than life-or-limb to now 41 of 69 
programs funding more than life-or-limb referrals.
    The recent increases in PRC has also enabled the 
Catastrophic Health Emergency Fund, or CHEF fund, to reimburse 
high-cost cases submitted through mid-September rather than 
only through June, as in the past.
    The budget proposes an additional $25 million for the IHS 
to expand its successful Methamphetamine and Suicide Prevention 
Initiative to increase the number of child and adolescent 
behavioral health professionals who will provide direct 
services and implement youth-based programming as a part of the 
President's Generation Indigenous Initiative. The budget also 
includes other increases focusing on improving access to 
affordable health care with improving third-party collections 
and helping IHS continue to achieve Meaningful Use of its 
Electronic Health record.
    The budget proposes to reauthorize the successful Special 
Diabetes Program for Indians, or SDPI, for another 3 years at 
the current $150 million funding level to continue progress 
because it has demonstrated that we can prevent and treat 
diabetes in the American Indian and Alaska Native population.
    The budget also includes significant investments in IHS 
facilities including increases for maintenance and improvement, 
sanitation facility construction, and health care facility 
construction, which will help us make significant progress on 
our priority list.
    The budget also proposes $18 million to fund additional 
staffing for all three of the newly constructed facilities that 
are planned to be opened prior to or in fiscal year 2016.
    A top priority for the Indian Health Service is to 
strengthen our partnership with tribes. I truly believe that 
the only way that we are going to improve the health of our 
communities is to work in partnership with them, and this 
includes honoring and supporting tribal self-determination and 
tribal self-governance. That is why I am pleased to inform you 
that the budget includes a two-part, long term approach to 
funding contract support costs, which is the result of our 
tribal consultation that you requested last year on a long-term 
solution for contract support cost appropriations.
    The first part of the budget is full funding of the 
estimated CSC need in fiscal year 2016, for which the budget 
requests an increase of $55 million. The second part of the 
approach is a proposal to reclassify CSC as mandatory, rather 
than discretionary, starting in fiscal year 2017, after we do 
tribal consultation in fiscal year 2016 and in work with you in 
Congress. The proposal is significant because it is the top 
recommendation from the tribes to fully fund contract support 
costs separately from the services budget, and that was a top 
recommendation that all tribes agreed that they want full 
funding of contract support costs but not at the expense of the 
rest of the budget, and so that is why this accomplishes that 
separation. IHS has also worked in partnership with tribes to 
improve estimates of contract support cost needs and the 
agency's business practices related to CSC funding. The 
proposal to reclassify CSC as a mandatory appropriation helps 
us continue progress on this issue, and we look forward to 
working with you on this proposed approach.
    IHS has also made progress on past contract support cost 
claims with offers extended on 1,219 claims and settlements on 
883 claims for a total value of $679 million.
    So in summary, this fiscal year 2016 President's budget 
helps continue progress on improving quality and access to 
health care, changing and improving the Indian Health Service, 
and strengthens our partnership with tribes.
    I appreciate all your efforts to helping ensure a healthier 
future for American Indians and Alaska Natives.
    Thank you, and we are happy to answer questions you may 
have.
    [The statement of Yvette Roubideaux follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                            
    
    Mr. Calvert. Thank you, Doctor, we appreciate your 
testimony.

                         CONTRACT SUPPORT COSTS

    You mentioned in your testimony contract support costs, and 
the budget proposes to fully fund contract support costs in 
this bill for 2016 and move the funding to the mandatory side 
of the ledger for 2017. How does moving the contract support 
costs to mandatory funding help solve the Committee's concerns 
about, one, the difficulty of accurately estimating support 
costs before the start of each fiscal year, and B, 
inconsistencies in contract support cost policies between the 
Indian Health Service and the Bureau of Indian Affairs?
    Dr. Roubideaux. Well, we really appreciate your work with 
us on contract support costs and understanding how the costs 
can be variable over time, and we actually have worked with our 
IHS tribal CSC work group. Actually tribal and federal members 
have been working together over the past year. They have 
developed a more accurate way to calculate contract support 
costs. They call it the annual CSC calculation tool. It is a 
tool that helps make the estimates more reliable, more 
accurate, and verifiable based on actual data that the tribes 
give us. And so moving the contract support costs to mandatory 
is a part of sort of the process to make contract support costs 
a better business operation within the Indian Health Service, 
and by combining with the Bureau of Indian Affairs, it helps us 
work on, you know, finding other ways to streamline the 
operations, finding other ways to work together.
    The challenge we have is that the Bureau of Indian Affairs 
funding is a little different than the Indian Health Service 
funding. The magnitude of programs available for contracting 
and the magnitude of the increases that tribes can assume is 
much different than the Bureau of Indian Affairs. Fortunately, 
there are members of our CSC work group on the BIA CSC work 
group, and they are already talking about ways that we can make 
that there.
    The other thing that helps us in mandatory is flexibility 
to move--we would like to see it be no-year funds so that if we 
do not spend all our funds in one year, we could move it to the 
next year.
    Mr. Calvert. Well, I understand your desire to get over to 
the mandatory side of the budget. It seems like everybody is 
trying to get to the mandatory side of the budget, and that is 
probably why it is that about 63 percent of total outlays right 
now is mandatory spending. So it is a challenge, but I 
understand, where you are coming from. We have shortchanged 
Indian health for a long time and this is a way to help fix 
that problem, but we will certainly take a serious look at it.
    Your testimony states that the top tribal recommendation is 
to fully fund contract support costs separately from the 
services budget. Short of shifting the funding to mandatory 
spending, which is your desire, and which is outside of our 
jurisdiction, of course. We will have to have others work on 
that. Would it make sense to move contract support costs to a 
standalone account within discretionary spending so that any 
future shortfalls are not paid for by direct services?
    Dr. Roubideaux. Well, certainly the tribes have agreed that 
they want full funding but not at the expense of the rest of 
the budget, and a part of their reasoning for the mandatory 
proposal was to separate them. We would be happy to talk with 
you about that proposal and ideas that you have because I think 
if there is any way we can get towards the tribal 
recommendation and work towards that, that would be great.
    We do worry, however, on the discretionary side, even if it 
is separate, there is the issue of the less flexibility if it 
is an annual appropriation, and so that is--if the funds all 
have to be spent within one year, that is challenging with 
contract support costs because it is a variable cost over time. 
That is how it is defined in the law, and the tribes said they 
do not want to change the law around it but they do want to 
look at ways that we can make sure that we are fully funding 
and also estimating better.
    Mr. Calvert. Well, we will work together on that and we 
will try to figure out how we are going to do this, with that, 
Betty, questions?
    Ms. McCollum. Thank you, Mr. Chairman.
    Just to follow up on that a little bit, you use the term 
``better business model,'' and I understand that the tribes 
have made an investment. It is a public nation-to-nation 
partnership, and they need to know that they can pay their 
bills and keep their hospitals open and all of that. But at the 
same time, we do know that there are many people in Indian 
Country on the other side who do not have the contract support, 
who do not have the government-to-government relationship on a 
business-model level, and they go without services when the 
dollars are not there. So we need to make sure--and I know the 
Chairman had a good idea about the standalone account--that we 
do not with the best of intentions wind up creating even more 
inequities in the Indian Health Service.

                             MENTAL HEALTH

    I would like to focus on chemical dependency and mental 
health. As I stated earlier, I am very excited about the 
proposed increase--a slight increase but it is an increase 
nonetheless. But one of the things that we have been hearing in 
public testimony, and we hear firsthand when we are out on 
reservations or when I am in urban areas, is ``how do we make 
sure that there are not barriers to receiving these health care 
services?'' So what are you doing to make sure that treatment, 
both for chemical and mental health--and quite often they go 
hand in hand, as you know, Doctor--what are you doing to reduce 
barriers on that? Because just putting the money but not 
reducing the barriers does not provide the service.
    Dr. Roubideaux. Well, I agree with you that this is a 
significant challenge to deal with, you know, chemical 
dependency and mental health issues, and you are right, they 
often do coexist. We have been working in the Indian Health 
Service to implement our Improving Patient Care Initiative, 
which is a patient-centered medical home, and just this year we 
have started working on integrating primary care with 
behavioral health so that there is more access points to 
services so that they do not just have to go to the mental 
health trailer and get services, they can actually be seen 
within the clinic with our whole team to try to help with that.
    This particular initiative, the Tribal Behavioral Health 
Initiative, is a part of the President's Generation Indigenous 
Initiative. When he visited Standing Rock, the youth that he 
spoke with told him of all kinds of barriers that they face and 
challenges that they face, and many of them were substance 
abuse, alcoholism, mental health issues, suicide, those kinds 
of things. And so there is a whole Administration effort under 
this initiative to try to help remove barriers to success for 
Native youth, and our piece as the clinical provider of 
services, is a focus on trying to get more behavioral health 
providers in those communities working at points of access 
where youth are like in the schools or in youth programs or in 
the clinic, and we know tribes have been saying they want more 
behavioral health services, we know that we need more 
providers, and so this funding would help us get more trained 
clinical providers that can address the problems of youth, and 
we felt like there is other pieces of Generation Indigenous 
that there are improvements in the schools and other sorts of 
things, and SAMHSA is working on their behavioral health grant 
program to contribute to this for more community-based things. 
IHS as the provider of health care is providing providers.
    Ms. McCollum. As you know, we are going to want to possibly 
see outcomes on this, and $25 million is significant, but in 
the big scheme of things across all of Indian Country, it is 
not much. Especially with the depth and breadth that you cover 
from patient-centered care, home-centered care versus going out 
in the community and meeting the youth where they are.
    So I would be very interested as this moves forward for you 
to keep the Committee involved in what these different programs 
are so that when we are out in the community, we can ask if 
these dollars are starting to reach them.
    Thank you, Mr. Chair.
    Mr. Calvert. Thank you.
    Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman, and welcome, Dr. 
Roubideaux. It is good to see you again.

                             SEQUESTRATION

    As you are probably aware or probably should be if you are 
reading anything, we are probably not going to have as much 
money to spend as the President's budget spends, and that is 
going to make things tighter and more difficult for us to put 
together. As you know, the last time we hit sequestration, we 
did not exempt Indian Health Services as we did Medicare and 
some of the other programs, veterans' health care and so forth. 
It was an oversight error on our part, quite frankly. 
Sequestration has raised its head now that the Ryan-Murray 
budget has expired and we do not know what the Budget Committee 
is going to put forward. Have you looked at the impacts of 
sequestration on Indian Health Services if we don't do anything 
about sequestration?
    Dr. Roubideaux. Well, it would seriously impair our ability 
to carry our programs and mission, not just in the IHS 
federally funded programs but in the tribal programs and the 
urban programs. For example, if there was a 2 percent decrease, 
that would probably be around $83 million. I will get you the 
exact number of that. Those would be cuts across the board that 
would impact services, and when we are dealing with the lowest 
funded health system per capita expenditures, every dollar 
counts, and so even small decreases do cause some of our 
programs to have to lay off staff or have to reduce services or 
those sorts of things.
    But we hear the tribes always are telling us that they do 
not like sequestration and that they are hopeful that Congress 
could exempt not just Indian Health Service but all programs 
for tribes, and so that is what we hear from them. But there is 
no doubt it would have serious impact.
    Mr. Simpson. Well, I am not sure you would find anybody 
that really likes sequestration but somehow we find ourselves 
here, which is kind of bizarre.

                        RECRUITING AND RETENTION

    One of the challenges we have been facing for years is the 
lack of health care professionals in Indian Health Service. We 
had like a 1,500-person backlog in health care professionals. 
We directed IHS in report language to look at the credentialing 
process. Can you provide us an update regarding the pilot 
program on the credentialing process the Committee discussed 
with you in 2015 and how it could impact IHS's need for 
additional health care providers?
    Dr. Roubideaux. Yes. Making sure we have qualified 
professionals is extremely important. The tribes want us to 
have the highest-quality providers possible. So we appreciate 
your interest in improving our credentialing.
    I think in the past IHS had sort of different ways of doing 
it in all of the different areas. I have charged a new hospital 
consortium to meet and to look at how we can better maintain 
our accreditation standards, and a part of accreditation is 
credentialing, and so right now they are looking at whether a 
consistent system among the areas versus some tailoring of that 
would work, but we have made requirements to our sites to make 
sure all of our providers are credentialed and privileged 
before they actually practice. And it is just a matter of 
finding a good system for that. We have talked with the VA a 
little bit. We are looking at other systems, and that is--we 
are actively working on that right now.
    Mr. Simpson. Well, I appreciate that. As we found out, it 
is not only credentialing; there are a lot of other factors 
that go into being able to get health care professionals to go 
on to Indian reservations, sometimes remote Indian 
reservations, housing and other types of things. Before I quit, 
Mr. Chairman, I would feel like I had not done my job if I did 
not ask a dental question.

                               HEALTH IT

    Could you give us the status of your work to complete 
electronic dental records and making this priority would help 
IHS gather data on early childhood caries, which will lead to 
cost savings in the long run?
    Dr. Roubideaux. Well, we are very committed to implementing 
the electronic dental record in all 230 sites within the 
system, and the update is that we now have it at 169 sites, so 
we have made a lot of progress so there is 61 to go, and we 
have renewed our contract to be able to work with sites and 
give them technical assistance and help them with the capacity 
to be able to it. But you are absolutely right. The electronic 
dental record with its clinical and practice software really 
will help improve the quality of care, and I appreciate your 
support for that.
    Mr. Simpson. Thank you. Thanks, Mr. Chairman.
    Mr. Calvert. Thank you. Ms. Pingree, you are recognized.
    Ms. Pingree. Thank you very much.
    I want to follow up a little on that. I know Maine is one 
of the sites with the Aroostook Band of Micmacs that has a new 
dental clinic, a three-chair clinic, and I was curious about 
the similar kind of thing, not necessary the electronic 
records, but have you already been able to measure some 
progress with dental outcomes, preventative care with children 
and how we are doing with that?
    Dr. Roubideaux. Well, we have an Early Childhood Caries 
Initiative that we have been implementing over the past 5 
years. We just published a report of the baseline statistics 
back in 2010, and once we finish this fifth year we will be 
able to go back out and survey and see if we have been able to 
make a difference with an increased emphasis of, you know, 
getting fluoride and getting the care that the youth need for 
their dental issues and caries. And so we are very anxious to 
see what that data is, but it is going to take us a while to 
gather it and then analyze, but there is no doubt there is a 
huge problem with childhood dental caries, and we definitely 
have been working on activities over the last few years to try 
to improve that.
    Ms. Pingree. To follow up quickly, how is the funding 
generally on expanding dental care and, the impact of sequester 
and the other budget cuts on that? Is it grossly underfunded, 
close to being adequate?
    Dr. Roubideaux. Well, I think there is definitely 
significant need in that area as well, especially since we he 
the data to see that there are so many caries that need to be 
addressed, and we are definitely using the funds that we have 
as much as possible to provide the services that we have but 
there is definitely a need for more.
    Ms. Pingree. Thanks.
    Mr. Calvert. Mr. Cole.
    Mr. Cole. Thank you, Mr. Chairman.
    It is good to see you again, Dr. Roubideaux, and it is 
always wonderful to have you here, and I am going to make a 
couple of comments quickly.

                        PROFESSIONAL LEADERSHIP

    I think a lot of the progress that has been made is because 
we have continuity in your position, and it has meant a lot not 
to have the turnover, to have consistent, high-quality, ethical 
leadership, and I wish the Senate would understand the 
importance of that for the Administration and the program. You 
have done a wonderful job. I think the fact we have had these 
increases is a reflection of this Committee's bipartisan 
confidence in you, quite frankly, and commitment, as my good 
friend, Ms. McCollum, said to the task at hand.
    On the sequestration, just for informational purposes, 
there was an assurance given by Chairman Ryan that this would 
not happen again, and I still sit on the Budget Committee. My 
two friends have been liberated. But we will make a commitment 
to you that we are going to make sure that Indian health care 
is held exempt if for some reason we fell into sequestration 
again, which I know all of us would like to avoid.
    A couple of things, I have one specific request and a 
couple questions. Several years ago, you made for this 
Committee a chart that literally listed how many dollars Native 
Americans have on health care, and this is how many dollars 
Medicare, federal prisoners, and it showed, of course, what we 
already know. It was a very helpful tool, frankly, in both 
persuading our Committee, and people beyond our Committee, that 
we have fallen behind. While we have had four good years, I 
suspect that chart would still look discouragingly similar, so 
I ask if you could do something like that for us again. It is 
an extraordinarily helpful tool to have.

                             JOINT VENTURE

    I would like you to focus--give us an update on where we 
are in the Joint Venture program. Again, this has been a 
program we have a lot of progress in, and it has been a program 
we have been able to leverage a lot of money, so if you could, 
give us a quick update on what you are planning in that 
particular program going forward.
    Dr. Roubideaux. Well, thank you, and we will get you an 
updated chart on the per capita comparison of IHS expenditures 
per person versus other federal programs, and it is--it does 
show the need and does show the disparity.
    The following ``2014 IHS Expenditures Per Capita'' graphic 
was submitted to the Subommittee for inclusion in the record:

   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Dr. Roubideaux. With regard to the Joint Venture 
Construction program, I appreciate your efforts and advocacy on 
that. Tribes have been wanting us to open up a new round of 
that where the tribe--because our health care facilities 
construction priority list still has about $2 billion to go to 
get through that, tribes have graciously come forward and said 
we would be willing to fund the construction if IHS could 
request the staffing. And so as you know, many Oklahoma tribes 
have been very successful at that.
    We did open up a new round of Joint Venture Construction 
program. We had 37 pre-applicants. We narrowed it down to 13 
final applicants. We just selected seven that will move forward 
sometime in the next few years, and we selected three to move 
forward this year, and I think you know that the Cherokee and 
Choctaw are among those three, so you get 66 percent of the 
ones who are moving forward this year from Oklahoma.
    Mr. Cole. You did not need to point that out.
    Dr. Roubideaux. But the tribes love this program and, you 
know, we are mindful of the difficult situation you are all in 
with the budget context and so we do not--even though the 
tribes want us to approve more of these programs, we are 
mindful of the fact that it is challenging to get any increases 
through, and so we are trying to approve and to move forward at 
a rate that is consistent with how we have been doing it in the 
past, and hopefully we can time the Congressional 
appropriations to the opening of these facilities because we do 
not want to get ahead of ourselves and have facilities built 
but no staffing. So we would love to work closely with you on 
that timing and to see if there is any way to move forward.
    Mr. Cole. We have had that problem in other facilities. My 
good friend, Mr. Simpson here, is focused on law enforcement in 
such cases. For example, we may have constructed facilities but 
not provided adequate staffing. Thank you for being concerned 
with that.
    And thank you for this program. It is one this Committee 
needs to realize has brought literally millions of extra 
dollars into the Indian health care system by tribes stepping 
up and helping out. Most tribes that have the ability to do so 
are interested in doing, you know, Indian health care plus. 
They want to put additional resources, and this has been a 
great way to do that for a number of them.

                            SELF-GOVERNANCE

    Last question, you mentioned in your opening remarks about 
self-governance. While this is always a tribal choice as to 
whether they manage their health care, and I respect that, I am 
very pleased that you are emphasizing this. Honestly, nobody 
looks after your own people like your own people, and nobody 
can be held accountable more easily than your own tribal 
legislature, or your own folks, because they are right there 
and you have immediate access to them. So can you tell us a 
little bit about what specifically you are doing to both 
strengthen tribal capacity in this area, and to encourage more 
and more tribes to do this? I would like reassurance that it is 
not an effort to try to offload costs onto them. I know there 
is a lot of skepticism and concern about that, as there should 
be in Indian Country, but that is not the intent of this 
Committee. It is to try and empower, and I am confident that is 
your intent as well.
    Dr. Roubideaux. Absolutely. We support the tribes' decision 
to choose what they want, and we have a responsibility if they 
want to stay with IHS and have us manage their programs, and we 
have the responsibility to help them as they move to managing 
their own programs, and there is no doubt that with some of the 
activities that we have had in Indian Health Service over the 
past few years of trying to work more closely with both sets of 
tribes, trying to consult more, trying to provide 
opportunities. We have Tribal Management grant programs that 
tribes can apply for help if they are thinking about 
contracting. We do have self-governance resources for them as 
well, and certainly with contract support costs, the Committee 
has really also honored tribal self-governance by fully funding 
contract support costs. That decision last year was really--the 
tribes really loved that, and we did too because it solves that 
issue of being able to fund.

                            CONTRACT SUPPORT

    But as you all know, a long-term solution is needed to 
prevent the adverse potential impact to the rest of the budget. 
I think that is why we are proposing CSC as mandatory and 
really want talk with you about how we might be able to do that 
so it benefits all tribes because most importantly, I have 
heard from all tribes that want self-governance, that want 
direct service. They want full contract support costs to 
support self-governance but they do not want an impact on the 
direct service tribes or the services, and so I am anxious to 
have those conversations with you.
    Mr. Cole. Well, I am anxious to have them as well. As a 
rule, I think this Committee is not usually in favor of making 
things that are dry mandatory. We have had too much of that, as 
Mr. Chairman said. On the other hand, this is a question of a 
level playing field. We have done this for every other group in 
this particular area, and not doing it for Native Americans I 
think raises some serious equity issues, so thank you for 
bringing it to our attention. I look forward to working with 
you on it.
    I yield back, Mr. Chairman.
    Ms. McCollum. Mr. Chair, if I could, when you provide 
information on your pipeline of projects that are out there, if 
you could break those out for those who are either contract 
support, those looking at moving that way and those who are 
discretionary. I really appreciated the comments and the 
discussion from both of you, and it seems that you have the 
ability. There are many tribes that are very small and very, 
very isolated, and so they do not have the wherewithal to even 
look at being able to do the contract support. So when you 
bring that forward to the Committee, if you could break it down 
into those three categories, I would appreciate it.
    Mr. Cole. Will my friend yield for just a quick comment, 
follow-up?
    Ms. McCollum. Absolutely.
    Mr. Cole. On this issue, a number of tribes, my own amongst 
them, actually run the health care system for very small 
tribes, and we recognize we have both, and those kind of 
partnerships are really terrific as well, and again, obviously 
IHS is part of it, but sometimes there are efforts where 
literally tribes can cooperate to the benefit of both.
    Ms. McCollum. Absolutely.
    Mr. Cole. Yield back, Mr. Chairman.
    Mr. Calvert. And I think Mr. Cole makes a good point, that 
Indian health, unfortunately was lost in the process somewhere, 
and we ought to take a serious look at and talk to those in the 
various committees to make sure it doesn't happen again.
    With that, we are going to call members in order of their 
attendance at this point, so Mr. Israel, you are recognized.

                           DOMESTIC VIOLENCE

    Mr. Israel. Thank you, Mr. Chairman. Thank you, Dr. 
Roubideaux and Mr. McSwain.
    I have one question on the issue of sexual assault forensic 
evidence kits. According to statistics, one out of every three 
Native Americans have reported being raped at some point in 
their lifetime. IHS reports that between 2010 and 2014, 600 
sexual assault forensic evidence kits were collected, and that 
seems very low to me, given the magnitude of the problem. Tell 
us exactly what you are doing to make the kits available, to 
train people to use the kits, and to deploy and collect these 
kits.
    Dr. Roubideaux. Well, we are actually doing quite a lot 
with the funding you have all helped us get for the Domestic 
Violence and Prevention Initiative. It has been funded since 
2009. We have a little less than $8.9 million. Fifty-seven 
programs are funded, and I think that is the challenge is, we 
do not have enough funding to fund all the programs where it is 
needed. But of those programs that are funded, they are 
providing outreach and victim advocacy, intervention, 
treatment, policy development, community response teams. We are 
doing training of providers to be able to do the sexual assault 
examinations, to be able to use the forensic evidence 
collection kits accurately so that they can be used in court, 
and then we are training nurses to help with sort of not only 
the training but the counseling of the patients and making sure 
they get the care they need.
    So we are using the funding that we have from the Domestic 
Violence Initiative to help, you know, sort of increase the 
capacity in our system to do that but it is clear there is more 
need.
    Mr. Israel. Do you have any sense of what the backlog is in 
the actual testing of the kits?
    Dr. Roubideaux. I would have to get back to you on that.
    Mr. Israel. Okay, if you would. This Congress on a 
bipartisan basis has made the investments necessary in ensuring 
that the kits are available and that they are tested and that 
really the national backlog is being addressed, and I am 
curious as to where you fit into that effort.
    Thank you, Mr. Chairman.
    Mr. Calvert. I thank the gentleman. Next, Mr. Joyce.
    Mr. Joyce. Thank you, Mr. Chairman, and thank you very much 
for being here today.

                       RECRUITMENT AND RETENTION

    It is my understanding that you have established volunteer 
programs in order to help provide health care to the different 
tribes, but you also have a loan repayment program that has 
helped bring professionals into the service. Could you explain 
to the Committee and myself some other direct examples of how 
IHS is working to address the health care provider shortage and 
how the loan repayment program has been helpful to you?
    Dr. Roubideaux. Yes. The loan repayment program has been 
very helpful to us, and we appreciate the funding for that. It 
basically helps health care providers work in IHS and get their 
medical school loans paid or their health care provider school 
loans paid, and as you know, the cost of school is going up and 
so it is really difficult for especially primary care doctors 
to handle the debt that they have. It is a very popular 
program. We use the program to prioritize the sites with the 
highest needs since the funds are limited, and we also have our 
scholarship program, which is a pipeline to bringing more 
providers into our program for American Indians and Alaska 
Natives.
    We are also--but we have a challenge, though, in that the 
loan repayment program and our scholarship program have an 
issue where portions of them are taxable and we have put a 
proposal in the budget to try to have--to ask Congress to help 
us to make them tax-exempt because it is very difficult for the 
providers to pay the loans and also have to be responsible for 
the taxes as well, and if we did not have to pay the tax part 
of it, we could fund more people with loan repayment.
    So we are also in terms of recruitment and retention trying 
to make our salaries more competitive. We have the VA pay 
authorities that we are starting to use more aggressively to be 
able to get the salaries up, and these days you have to pay 
primary care doctors over $200,000 a year to compete with 
everybody else out there in the market because there is a 
shortage.
    So loan repayment is very attractive. We work with National 
Health Service Corps on their loan repayment and scholarship 
program, with HRSA and the Department of Health and Human 
Services as well, so I appreciate your interest in this because 
it is a huge challenge that we have, and those are some of the 
program appropriations that the Committee gives us that we use 
to help fund those programs and activities.
    Mr. Joyce. I have been a beneficiary of it because my 
primary care physician has come from that program.
    Dr. Roubideaux. Really?
    Mr. Joyce. So I understand the need for it.
    Dr. Roubideaux. Great.
    Mr. Joyce. Can you describe how the services provided, 
through the Public Health Nursing program are cutting 
readmissions to hospitals?
    Dr. Roubideaux. Yes. We have had a Public Health Nursing 
program for many years, and it really does help us get some of 
the additional care that individuals need and coordination of 
care outside of the hospital or transitioning from when they 
have actually been an inpatient and getting immunizations out 
and those sorts of things, and we also--our hospital consortium 
effort is to try to help reduce readmissions, and that involves 
a lot of people making sure when someone is discharged from the 
hospital, they go home, they need a lot of people to help them 
so they do not end up back in the hospital, and our Public 
Health Nursing program is very strong and it is mostly tribally 
run actually. A lot of the tribes have taken over the 
management of those programs. It does help transition people in 
different parts of their care, so it is very valuable to us.
    Mr. Joyce. It is going to be the primary care physicians, 
the nursing staff going forward because of the shortage.
    Dr. Roubideaux. Absolutely.
    Mr. Joyce. Thank you very much. I yield back, Mr. Chairman.
    Mr. Calvert. I thank the gentleman. Next, Mr. Kilmer.
    Mr. Kilmer. Thank you, Mr. Chairman, and thank you for 
being with us.

                          HEALTH CARE SERVICES

    There are a lot of folks in the area I represent that are 
grateful to this Committee for increasing the resources 
available to the IHS. At the same time, we hear concerns about 
quality-of-care issues. I was hoping you could speak to how IHS 
intends to address issues around quality of care and what can 
be done further to support some of those IHS facilities that 
want to provide the best care possible.
    Dr. Roubideaux. Yes. In the Indian Health Service, we 
actually have been working on some initiatives to improve 
quality of care, and this year is a year where I think we will 
start seeing the benefits of some of the planning we have been 
doing and start seeing some of these activities implemented.
    One is the expansion of our Improving Patient Care program, 
the patient-centered medical home. We not only want people to--
our sites to implement it, we also are asking them to become 
accredited, nationally accredited as patient-centered medical 
homes, and within that you have to demonstrate outcomes. You 
have to demonstrate that not only are you improving care but 
you are actually measuring those improvements and responding to 
what the patients need. So that helps throughout the system and 
that is sort of--we call it more of our outpatient improvement 
but it does apply throughout the system.
    The other part is, as I said, the hospital consortium, 
looking at improving quality and safety in our hospitals, and I 
just asked our team to sit down and, you know, prioritize their 
actions for this year and how they are going to measure the 
success and who is responsible and accountable and what their 
timeline is, and so I am hoping towards the end of the year we 
are going to see some real outcomes and progress on that.
    In addition, we have been meeting our clinical quality 
indicators under GPRA every year for a couple years so we have 
actually pushed the levels up, stretch goals to try to push for 
more progress, and so we are focusing efforts to try to get 
better outcomes as well.
    Mr. Kilmer. Thank you, Mr. Chairman. I yield back.
    Mr. Calvert. I thank the gentleman. Mr. Jenkins.
    Mr. Jenkins. Thank you, Mr. Chairman. Good morning.
    I am new to this Committee and new to this Congress, so I 
am going to maybe run through to try to get myself up to speed.

                             CREDENTIALING

    One, there was discussion about credentialing, and you 
mentioned trying to look at best practices. To what extent does 
Indian Health Service and the tribes--I understand the 
frustrations of providers getting credentialed in a timely 
fashion. Do you have any sort of a uniform credentialing 
application trying to avoid the multiple primary source 
verification requirements at each step? Have you looked at a 
CVO, a credentialing verification organization, to try to 
expedite the process?
    Dr. Roubideaux. We are looking at those kinds of options 
because you are right, it does not make sense to have a 
provider to go to one facility, fill out one form, and then 
they move to another one and it is a totally different form. So 
I agree with you, that would be an efficiency that would make 
our business practices much better and be better customer 
service to our providers.
    Mr. Jenkins. Not only having a similar application but 
having some sort of a credentialing verification organization 
that does that primary source verification once so it does not 
have to be repeated over and over.

                       ELECTRONIC MEDICAL RECORDS

    Secondly, with regard to EMR, you know, everybody gets 
excited. We all have been caught up in the wave, and we agree 
that that is the direction of health care delivery but an 
incredible amount of money can get dumped into it. There is 
frustration because of different types of EMR systems out 
there. What are you doing with regard to making sure that there 
is an EMR system that is robust for scheduling, for e-
prescribing, but most importantly, the ability to share data 
between the prescriber, between the hospital with the patient? 
Unfortunately so many of these EMRs simply do not talk to each 
other and do not share data.
    Dr. Roubideaux. Absolutely, and I appreciate your interest 
in that. We have actually been an early adopter of the 
electronic health record and administrative systems throughout 
the IHS system since 2007 and 2008, and so when the new 
initiatives came out for Meaningful Use of the electronic 
health record, we were perfectly suited to be able to 
participate in that, and the IHS Resource Patient and 
Management System, RPMS, is one of the lowest-cost open source 
available electronic health care record systems in the country, 
so our costs to run it are much less than others. And you are 
right, we are hearing in the private sector some of those other 
electronic health records are costing huge amounts, and that is 
a challenge for the tribes that have chosen to use them.
    But our system, we are on a path with--we were certified in 
2011 for Meaningful Use 1. We are now certified for 2014 
certification, and actually the work we are doing right now 
very soon we will have that ability to share records, not only 
within the Indian Health Service but with other programs. It is 
the interoperability piece of Meaningful Use where you can 
share records. We are very excited about that because our 
patients are mobile. They move around a lot.
    Mr. Jenkins. Next, liability. I am very familiar with the 
Federal Tort Claim Act under claims for FQHCs and others. In 
the IHS and tribal world a claim for allegation of medical 
negligence, is that handled under Federal Tort Claim?
    Dr. Roubideaux. Yes.

                      NEONATAL ABSTINENCE SYNDROME

    Mr. Jenkins. All right. Finally, one of my passion areas in 
substance abuse, and I want to drill down, is the treatment of 
NAS babies, neonatal abstinence syndrome, drug-exposed babies 
during pregnancy. What are you doing with regard to prenatal 
care, working with the OBs and the peds for post-delivery NAS 
treatment? I think there is significant savings that can be had 
by taking care of these newborns going through the ravages of 
drug withdrawal. There can be a more efficient process than 
being in a NICU and certain non-traditional spaces for dealing 
with the NAS babies. Is this issue on your radar screen, and if 
so, how are you handling it?
    Dr. Roubideaux. It is absolutely on our radar screen. We 
are seeing that occurring more and more in our facilities, and 
that is why our clinical leadership are working on training our 
providers to know what they need to do to make sure they 
address it as soon as possible, and we recognize the science.
    Mr. Jenkins. It is an area of interest to me, and I look 
forward to working with you and seeing where you are making 
those investments because the Chairman of our full Committee, 
he is looking for ways to be efficient and save money, and I 
appreciate the leadership of this Subcommittee, so I look 
forward to working with you.
    I yield back. Thank you, Mr. Chairman.
    Mr. Calvert. Thank you.

                           POPULATION GROWTH

    A number of us recently traveled over to the Navajo Nation 
and the Hopi Nation, and the president of the Navajo Nation, 
President Shelly, told us that the Navajo Nation is projected 
to have one million enrolled members by 2050. They currently 
have 300,000 members, and President Shelly told us quite 
directly that we will not be able to afford them soon.
    President Obama's 2016 budget requests an increase of $57 
million to partially fund population growth, what is the 
current population of people eligible for IHS services, and 
what is the projected population in 2050?
    Dr. Roubideaux. Well, our current population served is 2.2 
million American Indians and Alaska Natives. In terms of a 
projection to the future, we are happy to provide that to you, 
those statistics. We would need to do those calculations. But 
there is no doubt there is a need. President Shelly is right, 
we have a population--the Native population is growing very 
rapidly and that is a challenge for us with the limited funds 
that we have.
    But we did try to address that in the budget by putting an 
increase for $57 million. It is about 81 percent of the total 
need, and we just are trying to balance other priorities in the 
budget and your constraints as well.
    Mr. Calvert. So what is the estimated amount to fully fund 
population growth in----
    Dr. Roubideaux. To fully fund----
    Mr. Calvert [continuing]. In fiscal year 2016?
    Dr. Roubideaux. To fully fund population growth in fiscal 
year 2016 would be $70.3 million.
    Mr. Calvert. Okay. So why did the budget request with a 
total increase of $461 million not fully fund population 
growth?
    Dr. Roubideaux. Well, we really wanted to but we had a 
challenge--we were challenged with all the other funding 
priorities and so sometimes our strategy is to try to fund as 
much as we can but to try to fund a little bit--a larger number 
of things but a little bit more. It does help us make progress. 
But it is a difficult choice because all of these priorities 
are important.
    Mr. Calvert. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    I had asked staff a couple of questions about the Census, 
so it is my understanding that when we went away from the long 
form census form, we did not collect as much information. We 
have gone to a short form. So now it is up to the American 
Community Survey to capture this information, which is selected 
to represent each area. So rural areas are probably less likely 
to do this. So your consensus population number--and I mean no 
disrespect for you because you can only gather the information 
you have--is your best guess, right?
    Dr. Roubideaux. Correct.
    Ms. McCollum. And that affects us for schools and housing 
and health care and all of that. So maybe one of the things 
that we need to do is figure out how we get a more accurate 
number of what is going on in Indian Country and working with 
the National Congress of American Indians or something like 
that to do a census of Native Americans. So great question, Mr. 
Chair, because, you know, we could find ourselves thinking we 
are doing the right thing only to find out we are really short 
in doing it well.

                        SPECIAL DIABETES PROGRAM

    Could I just ask you a little bit more about the special 
diabetes program? Because that is huge in Indian Country and it 
goes to treating the whole patient, to medical homes, and many 
the other things that you are working on, including youths with 
the indigenous youth program that the President is looking at. 
We saw some great success when we were on a CODEL. Dr. 
Roubideaux, you were there too, and it was a combination of 
funds from IHS, from CDC, and everybody else working together 
to make sure services are culturally competent so that you get 
the success that we saw.
    Now, this is, as you said, to expire at the end of this 
fiscal year, and your budget requests to reauthorize the 
program for another 3 years at $150 million per year. What 
happens if we do not get the reauthorization? Sometimes as 
appropriators, we are very frustrated that the authorizers have 
not done their job, so if it is not authorized, are there other 
parts of the preventative health that will help this type of 
support move forward? Also, is this model going to be used to 
work on other chronic diseases, to replicate the success that 
you have had with diabetes?
    Dr. Roubideaux. Well, to your first point, if we did not 
get the Special Diabetes Program reauthorized, it would be 
devastating. All the success of the last 18 years of we finally 
have shown we can increase services. We have shown that we can 
improve quality. We have a really good evaluation of it. We 
have shown that we can actually prevent diabetes and reduce 
cardiovascular disease risk factors in our communities and our 
facilities rely on that funding to be able to do that, to have 
staff that can focus on it. And you know, we are finally at the 
point to where complications of diabetes are going down. End-
stage renal disease new cases are going down. The rate of 
diabetes is sort of equalizing out. We are not seeing the big 
increases we were seeing before in youth, and so there is 
actual data showing it is effective. So it would not make any 
sense to take an effective program that is operating on an 
amount of funding that, you know, a lot of people think is not 
enough, but they are still showing huge outcomes. It would be 
horrible for us to lose that. I would really ask you to help us 
with securing reauthorization.
    You know, the Special Diabetes Program for Indians did help 
us learn how to better take care of chronic diseases. IHS for 
many years has used the chronic care model to work on chronic 
diseases, and, you know, it is no longer the case that people 
mostly have just one medical condition. Many people have 
several medical conditions, and so the coordination of those 
chronic diseases is really critical, and so I think the Special 
Diabetes Program for Indians is a great model of how to do 
that.
    Mr. Calvert. Mr. Cole.
    Mr. Cole. Thank you, Mr. Chairman.
    You know, I think for 4 years in a row this Committee has 
actually exceeded the Administration's request on Indian health 
but my friend, the Chairman, makes a good point in that he is 
going to be working from a different baseline than we are. We 
are, in some ways, the victim of our own success, although that 
is a nice problem to have. We would like to give you everything 
you asked for, but if you could not get everything you wanted, 
what are the absolute most important priorities to continue the 
progress that you have been able to make in the last few years?
    Dr. Roubideaux. Well, we certainly hope you go for a fifth 
year of exceeding our proposal, but if not, if you cannot do 
that, we would be happy to talk with you more about these 
priorities. They are all priorities to the tribes we serve and 
they are all priorities to us. It is very difficult for us to 
prioritize, but if we could provide more information to help 
the decision-making, we would be happy to do that.
    Mr. Cole. I think that would be helpful, and again, if I 
had my way we would probably be doing more. I think the need is 
so great, and I think you have been a very good steward of the 
money that you have been given.
    Toward that end, this is again an informational request; 
things that you can provide us that show outcomes, changes from 
money spent is really helpful. You know, it is not just a 
money-in issue. It is okay, what is happening with mortality 
rates, what is happening--and you have mentioned some of the 
progress in your testimony. If we could get something that is 
systematic, it just strengthens those of us that make the 
argument that this is a good investment; not just an 
obligation, but something that is really changing people's 
lives for the better. So whatever tools or data you can give 
us, and if there is anything you would like to highlight right 
now, I would be more than happy to give you the time to do 
that.
    Dr. Roubideaux. Well, we would be happy to give you more 
information. I started tallying out all sorts of outcomes and 
accomplishments, and when I got to page 19, I thought, you 
know, there is so much, it is hard to choose, but we would love 
to give you more information on that.
    Mr. Cole. Please do, because it is okay to brag on 
yourself.
    Dr. Roubideaux. Yeah, and culturally we sort of learn not 
to do that, but we have to do it here. This is so important.
    The other thing is, I also hope we can talk about, I want 
you to know that the money you have given us we have spent 
effectively. We have been working on a number of improvements 
to make our operations more efficient. We have reduced travel 
by 50 percent. We have reduced conference expenditures by a 
third. We have been able to improve our budget execution and 
all those things.
    Mr. Cole. And I want you to be careful on that travel 
budget. I want to go on another one of the great Yvette 
Roubideaux-Jody Gillette reunion tours to Sioux Country that we 
all did, and----
    Dr. Roubideaux. Save dollars for that.
    Mr. Cole [continuing]. By the way, this is very helpful to 
this Committee when we did do it. But yeah, again, I am very 
interested in those sorts of things.
    Dr. Roubideaux. Okay.

                        THIRD-PARTY COLLECTIONS

    Mr. Cole. And I think it would help this Committee.
    Last question. I know you have been making a real effort on 
third-party insurance, because there are a lot of entities that 
ought to be kicking in to the system both, governmental and 
private insurance, that in the past have been able to escape 
their obligations, and more or less dumped this on you. I would 
love to hear your efforts with respect to trying to increase 
third-party payments that, again, are due and obligated to 
Native Americans, and to help us again meet the challenges that 
you have.
    Dr. Roubideaux. Absolutely. Most of our third-party 
reimbursements are with the Medicaid program, so we work very 
closely with them, and our facilities are very focused on 
trying to make sure we get those third-party reimbursements. We 
have an increased emphasis on the private insurance side of it 
as well, especially with the Affordable Care Act and especially 
with the increased coverage that we are seeing with our 
patients.
    We are trying to make sure that we are maximizing our 
third-party collections and getting as many of those 
reimbursements as we can. We have developed a new third-party 
collection tool on the federal side that sort of monitors how 
it is going and it will raise red flags if a facility is not 
doing well, and so we do corrective actions there, so we have 
got some oversight of that to help, and that is why we are 
proposing in this budget a $10 million increase because we 
really--with all the new health care plans and all of the 
increased coverage, we just need more funding to help us in our 
most needy sites with capacity building and training and 
technical assistance and also outreach and education to the 
patients. The more we can help the patients apply for Medicaid 
or get health care coverage, the more that we can reimburse and 
the more revenues we have so the pressure would not be so much 
on all of you.
    Mr. Cole. I applaud your efforts in that regard, and it is 
something I hope the Committee looks at going forward, because 
I do think it is a good investment. The return is obvious, and 
it goes exactly where we want the dollars to go.
    With that, again, thank you very much for the job you have 
done. I really, really appreciate it. Yield back, Mr. Chairman.

                            FACILITIES NEEDS

    Mr. Calvert. Thank you. Ms. Pingree.
    Ms. Pingree. Thank you, and thanks again for being here 
with us today and for the work that you do.
    One question about facilities' needs. I know the budget has 
an increase for that, and I understand IHS does facility 
assistance for hospitals and a whole variety of other things, 
and I want to ask about sanitation service to homes.
    I was pleased to be able to see that because of our service 
area, the Nassau Indian Health Service area, we have been able 
to get assistance for 126 homes of the Passamaquoddy Tribe, 193 
of the Passamaquoddy at Pleasant Point, Penobscot six, so 
helping with sewage facilities and cleaning drinking water, 
that is a very important thing, particularly in our rural 
tribes. I see the budget has an increase of $36 million, which 
looks like it is meant to provide sanitation for about 7,700 
homes, but under your estimate, I think the need is 34,000. Can 
you give us a sense of how far you are going to be able to go 
with that and any other important parts of the program to make 
sure it is available everywhere it is needed?
    Dr. Roubideaux. Absolutely. The need is enormous. It is up 
to $2 billion need for all the Indian homes that we would 
serve, but we are, you know, very grateful to be able to 
propose an increase for sanitation facilities construction. We 
have not had that in the budget in previous years but we have 
heard that this Committee has actually been interested in it, 
and you have been interested in it as well, and so we are 
grateful for any resources that can go toward sanitation 
facilities construction. It is hard to imagine the challenges 
individuals have without having water and sewer in their home. 
It is just devastating to think about, and so I appreciate your 
help and support with this.
    Ms. Pingree. Thank you. You are right. It is unconscionable 
in this particular era that people have to live in those kinds 
of situations. Thanks very much.
    Mr. Calvert. Mr. Joyce, do you have any other questions?
    Mr. Joyce. No.
    Mr. Calvert. Mr. Kilmer, do you have any other questions?

                       URBAN HEALTHCARE SERVICES

    Mr. Kilmer. I would like to, if that is all right.
    Mr. Calvert. Real quick.
    Mr. Kilmer. I will be really brief.
    One concern I heard was around provision of IHS services to 
folks in urban areas, and I am just hoping you can speak 
briefly to that and how the federal government can step up care 
for folks who are living off reservation or in urban areas.
    Dr. Roubideaux. Absolutely, there is no doubt there is a 
need there. If you look at census numbers, the majority of 
American Indians and Alaska Natives live in urban areas. IHS 
was actually designed to be for rural areas but they recognize 
the need that they are tribal members too and the federal 
responsibility applies to them.
    We are very supportive of our urban programs. We do provide 
funding for them to provide services. They still need to be 
there for the people in those urban areas. They provide the 
only source of culturally appropriate care and services. Many 
American Indians and Alaska Natives are away from IHS and so 
they really need that help and so we would like to work with 
you.
    We also just passed a new policy to confer with urban 
Indian organizations. It is part of the Indian Health Care 
Improvement Act Reauthorization. So I think we are very anxious 
to confer with the urban Indian organizations and to figure out 
ways that we can assist them and help them.
    Mr. Kilmer. Thank you. Thank you, Mr. Chairman.
    Mr. Calvert. Thank you, and I want to thank you, Doctor and 
Mr. McSwain, for coming here today and offering your testimony.
    Native Americans should be treated as any other American, 
and I think if we can find a way forward on this mandatory 
issue and to work with the respective committees that have 
jurisdiction over Indian Health, that is something that I think 
we can all work together to try to achieve. That would solve a 
lot of your problems and the problems for a lot of people 
around America.
    So with that, if there are no other comments, we are 
adjourned. Thank you.

   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                      Wednesday, February 25, 2015.

               BUDGET HEARING--DEPARTMENT OF THE INTERIOR

                               WITNESSES

HON. SALLY JEWELL, SECRETARY, DEPARTMENT OF THE INTERIOR
MIKE CONNOR, DEPUTY SECRETARY, DEPARTMENT OF THE INTERIOR

                  Opening Remarks of Chairman Calvert

    Mr. Calvert. The committee will come to order. Secretary 
Jewell, I would like to welcome you to today's hearing along 
with Deputy Secretary Mike Connor. Our hearing today will 
address the Fiscal Year 2016 budget priorities for the 
Department of Interior.
    Madam Secretary, this is your second formal budget hearing 
before our subcommittee as Secretary of the Interior. At the 
outset, I would like to thank you for the opportunities we have 
had recently to discuss many of the challenges facing your 
Department and this committee. Funding for fire suppression, 
Endangered Species Act issues, Indian education, PILT funding, 
and the severe drought affecting the West, including my home 
State of California, these are all issues your Department and 
this subcommittee must continue to address together.
    Today's hearing marks the beginning of a very candid 
conversation about your Department's funding priorities. 
Overall, the President's Fiscal Year 2016 budget request 
provides $11.8 billion in discretionary funding for the 
Department of Interior programs under this subcommittee's 
jurisdiction, an 11 percent increase over the Fiscal Year 2015 
enacted level.
    While your budget request includes funding increases for 
many notable programs and priorities, I have an obligation to 
remind you and everyone in this room that again this year we 
are operating in a very constrained funding environment. To be 
frank, I am concerned that your budget request raises 
expectations that simply cannot be met. As you know, the 
President and Congress agreed upon statutory spending caps 
through the Budget Control Act. This budget request ignores 
those statutory caps.
    On this point, let me be very clear. We are bound by the 
spending caps under existing law, the 11 percent spending 
increase reflected in your budget request is simply not a 
realistic outcome. We will do our best to address the highest 
priority needs, but as we have discussed, any increases to 
specific accounts or programs will likely have to be offset 
against other accounts and programs in this bill. While we will 
not agree on every single issue, I know from our conversations 
that we both recognize the importance of listening to other 
points of view and trying to find common ground in solving 
problems. In that spirit, I would like to mention a few things 
before we receive your testimony.

                             WILDLAND FIRE

    First, the challenge of providing adequate wildfire funding 
each year remains one of the great challenges facing our 
subcommittee. The cost of fighting wildfires, particularly the 
1 percent of the most catastrophic fires that consume 30 
percent of the fire budget, continues to grow. Naturally, this 
puts pressure on every other account in our bill. I want to 
applaud my good friend and former subcommittee chairman, Mike 
Simpson, for his continuing efforts to address this issue 
through his bipartisan legislation, which proposes that we 
treat catastrophic fires as we do any other natural disasters, 
like earthquakes, floods, hurricanes. Eight members of this 
subcommittee are co-sponsors of the Simpson bill.

                         ENDANGERED SPECIES ACT

    Another challenge facing the Department and the committee 
is the Endangered Species Act. The ESA is a well-intentioned 
statute, but is long overdue for a legislative and budgetary 
overhaul. The ESA unfairly stacks the deck in favor of 
listings, creating a cottage industry for those making a living 
out of suing the government to list species. These lawsuits 
drive the budget and relegate recovered species to the back 
burner where they wait, sometimes for 8 years or more until the 
Fish and Wildlife Service formally proposes to take them off 
the list. The Fish and Wildlife Service should be held to the 
same standard for listing and de-listing, and we ought to 
structure the budget and the law accordingly.

                              SAGE-GROUSE

    Driving the budget today is a potential listing of the 
sage-grouse. Western States are leading an unprecedented effort 
to conserve sage-grouse so that a listing is not necessary. If 
the Department lists the sage-grouse, American consumers will 
feel the impact at the gas pump and in their monthly utility 
bills. The settlement agreement deadline of September 30th, 
2015 is arbitrary, and Congress has an obligation to continue 
to consider whether to override this deadline if necessary. In 
the meantime, I look forward to our discussion today for the 
funding increase proposed for sage-grouse in Fiscal Year 2016.

                       PAYMENTS IN LIEU OF TAXES

    Identifying stable, long-term funding for the payments in 
lieu of taxes, PILT, is another major challenge. So long as the 
Federal government continues to propose acquiring more land 
without guaranteeing that counties will be fairly compensated 
for their lost tax revenue, serious questions will continue to 
be raised about more Federal land acquisition, especially in 
the West. Until a long-term funding solution is identified, 
PILT will continue putting pressure on the Land and Water 
Conservation Fund and other programs within this bill.

                                DROUGHT

    Lastly, we are in the midst of a drought resulting in far-
reaching consequences affecting families and businesses in the 
West, particularly in my home State of California. This 
subcommittee is limited in what it can do to address the 
drought. However, you are in a position to make a difference by 
ensuring that the Department does not repeat past mistakes that 
have exacerbated the conditions on the ground.
    In closing, Madam Secretary, I want to express my 
appreciation to your fine professional staff. This is a team 
effort, and our committee simply could not do its work without 
your budget shop, the various bureaus, and the folks sitting 
behind you. Thanks to each of you for the work that you do 
every day.
    With that, I am happy to yield to the gentlelady from 
Minnesota for any opening remarks she would like to make. Ms. 
McCollum?

               Opening Remarks of Congresswoman McCollum

    Ms. McCollum. Thank you, Mr. Chairman. Secretary Jewell, I 
join with Chairman Calvert in welcoming you to the subcommittee 
today. And I appreciate that you and Deputy Secretary Connor 
are here to provide insight into the Fiscal Year 2016 budget, 
and to answer any questions we might have.
    Madam Secretary, as I look over the budget request for the 
Department, I see a budget that recognizes the responsibilities 
that all of us have to be good stewards to our Federal lands 
and the natural resources they contain. I am pleased that this 
budget request builds upon the bipartisan commitment of this 
subcommittee to further the economic and social wellbeing of 
our Native American brothers and sisters, especially in the 
area of Indian education. While we have made some progress in 
addressing this issue that Native Americans face, we all know 
that there is more work to be done.
    It is also good to see the renewed commitment in the budget 
to preserving and interpreting our national parks with the 
upcoming centennial of the National Park Service. Combined with 
the new initiatives of the American civil rights story and the 
ongoing efforts you have to engage our youth, you are working 
to lay a strong foundation for the preservation of our natural 
heritage and our historical past so that we can build for a 
bright future.
    I also appreciate the strong emphasis on science in this 
budget. Our land and waters face continued and, in many 
instances, growing threats from invasive species, drought, and 
climate change. Our land managers and others need a body of 
scientific research that this budget would provide in order to 
make informed decisions, as the chairman was asking for, and 
take actions to address these mitigating threats.
    After years of diminished budgets with agencies barely 
holding their own, your budget request to turn the corner and 
put sequestration behind us is welcomed. That said, by no means 
is this an extravagant budget. Adjusted for inflation, this 
request proposes to spend less on the Interior Department 
programs than we spent a decade ago in 2005. Less than 2005.
    Madam Secretary, I know you share with me the concerns 
about the impacts diminished budgets in past years have had not 
only on the resources entrusted to the Department, but also the 
impact on the many dedicated employees who have been 
continually asked to do more with less. We can only hope that 
the Fiscal Year 2016 budget goes forward, that we can restore 
some sanity to the budget process, and that this subcommittee 
can get a fair, workable budget allocation that will enable us 
to provide the Department of Interior with the fiscal tools 
that they need to carry out their important work.
    Madam Secretary, I will have questions for you later on, 
and I appreciate the openness and the receptiveness and 
responsiveness that we have had in my short tenure as ranking 
member with the committee. I want to extend my thanks not only 
to you, but all the employees of the Interior Department who 
come to work each and every day doing more with less. And I 
look forward to your testimony. Thank you. I yield back.
    Mr. Calvert. I thank the gentlelady. We are also joined 
today by our distinguished chairman of the full Appropriations 
Committee, Chairman Rogers, and thank him for taking time to 
contribute to this important conversation. Chairman, if you 
would like to make any opening remarks?

                   Opening Remarks of Chairman Rogers

    Mr. Rogers. I shall. Thank you, Mr. Chairman, for yielding. 
We wish you well, and we think we are in good hands. And, Madam 
Secretary, it is a delight to welcome you here. Thank you for 
appearing.
    Your Department oversees numerous entities, each uniquely 
charged and authorized with the stewardship of our natural 
resources and national heritage. Your Department was very 
helpful in my district just last year in working closely with 
the Corps of Engineers to raise the water level in Lake 
Cumberland back to its historic pool level, and incidentally, 
to save an endangered fish known as the duskytail darter.
    I appreciate the expeditious manner in which your 
Department handled those issues. You were helpful and 
cooperative in every way. I also appreciate that the Department 
has finally observed this committee's strong insistence that 
you would refrain from cutting the Office of Surface Mining 
State Grant Programs, and proposing fees on industry as a way 
to make up the difference. And I am pleased to see that the 
budget reflects the strong objections made by this committee in 
previous years and discontinues the fee proposal.
    Your budget request begins with an homage to President 
Obama's new and oft quoted mantra of middle class economics. As 
you well know, your Department is the steward of 20 percent of 
our Nation's land and accompanying resources, the largest 
supplier and manager of water in 17 States, the guardian of our 
national parks and historic areas, and the primary regulator of 
surface mines in the eastern U.S. So there is no question that 
it should play an important role in helping middle class 
America grow and flourish.
    Unfortunately, Madam Secretary, there are a number of 
issues with this budget request and larger politically driven 
policy priorities within the Department that cause me to 
question the Administration's commitment to middle class growth 
and our country's economic and energy security.
    Energy costs have a direct impact on job creation, public 
health, nearly every other issue of national importance. 
Families, schools, medical facilities, and businesses rely on 
cheap, reliable energy to keep our communities thriving and 
plan for the future. However, unrestrained regulatory 
requirements put forth by your Department are already raising 
energy costs on businesses and employees alike, forcing 
everyone to make tough choices and some even into the 
unemployment lines.
    In particular, I continue to be dismayed at the efforts of 
this Administration to summarily scrap and rewrite the 2008 
stream buffer zone rule. Your Department has invested over $8 
million in a grossly mismanaged rulemaking process, trying to 
redraft a rule that was meticulously crafted and thoroughly 
studied for 5 years. The more we learn about the new rule, the 
more we realize what a bad deal it is.
    Officials at your own Department claim that it would save 
no more than 15 miles of streams because in reality it would 
simply force the Appalachian coal industry to close its doors 
and set up shop somewhere else. That will have a tremendous 
impact on surface mining, an industry that sustains over 3,100 
miners in Kentucky alone. Rewriting this rule jeopardizes 
thousands of jobs in a region where unemployment is already as 
high as 11 percent in many counties, all for the sake of 
miniscule environmental gains.
    Though coal plants are closing around the country under the 
weight of costly regulations and mine operators are dragged 
through arduous permitting exercises, the coal industry is not 
the only victim of the Administration's misguided energy 
policies. We have seen oil exploration aggressively stymied, 
and much needed pipeline construction projects back burned or, 
worse, vetoed.
    Meanwhile, the press has been flooded in recent weeks with 
accounts of so-called sustainable or renewable energy projects 
that are doing irreparable harm to the environment, sometimes 
at taxpayers' expense. Wind farms are devastating populations 
of rare birds and bats to the tune of millions per year. And 
solar panels are loaded with harmful pollutants and toxins.
    I am certainly not an opponent of renewable energy or 
environmental protection, but I do oppose government meddling 
in the energy marketplace that results in the artificial 
selection of winners and losers. For Federal regulations to 
overtake the marketplace as the decider of our country's energy 
portfolio is not safe for our present or our future.
    It may seem like it from Washington, but there is no winner 
in this approach to American energy policy. My district in 
Kentucky is currently facing some of the highest unemployment 
rates in the country, and the President's proposal to mitigate 
the destructive impact of his policies, the so-called Power 
Plus Plan, is a passing glance to communities that are in real 
pain.
    The most significant Power Plus proposals that fall under 
the purview of your Department involve mandatory spending 
programs, meaning they will require legislative action outside 
of this committee to be realized. You know and I know that this 
is not a real proposal until it is authorized. And while it is 
somewhat refreshing to see this Administration finally take 
ownership of the devastation wrought by the President's 
policies, the bottom line is that these are real coal 
communities. We need regulatory relief so that we can keep 
mines open, bring back some of these high paying stable jobs, 
and keep electricity rates around the country low in order for 
businesses to flourish and for America to compete worldwide.
    While we in Eastern Kentucky work together to diversify and 
grow our economy, we cannot lose sight of the fact that coal 
has kept the lights on for centuries, and that has to be a part 
of the conversation as we move forward. The way we handle these 
issues today will have a profound effect on energy security in 
the country. I hope that you will provide some insight as to 
how your Department plans to balance its dual roles of 
protecting our national resources and supporting the provision 
of reliable energy and economic opportunity. We look forward to 
hearing your testimony.
    Mr. Calvert. Thank you, Mr. Chairman. I am also pleased to 
see that our ranking member of the full committee, Ms. Lowey, 
is here with us today. I am happy to yield to the gentlelady 
for any opening remarks she would like to make. Mrs. Lowey?

                 Opening Remarks of Congresswoman Lowey

    Mrs. Lowey. Well, I thank you very, very much. I am 
laughing because the chairman and I feel as if we are on roller 
skates today. We are honored and privileged to have four 
Secretaries with us. And I am particularly pleased to be here 
today, and I cannot help but think what a great privilege you 
have to have this extraordinary portfolio, and how privileged 
we are to have you in that position, so I thank you for your 
service and your commitment. I wish that I could do all the 
hiking that you do and enjoy the great outdoors as much as you 
do. So thank you very, very much.
    From conserving and protecting such national treasures as 
the Statue of Liberty and the Grand Canyon, to providing for 
the public use and enjoyment of nearly 500 million acres of 
Federal land, the Interior Department is indeed the caretaker 
of significant aspects of our national heritage. Add to that 
its responsibilities to Native Americans, wildlife, energy 
production, and far flung U.S. territories, and the Department 
certainly has a wide and varied portfolio.
    To carry out these important responsibilities, the 
Administration is requesting approximately $11.9 billion. If 
enacted, this request would reverse some of the steep declines 
these programs have suffered from in recent years, which led to 
a reduction in routine maintenance, aging, understaffed park 
facilities, and public lands at great risk of fire because they 
had not been properly managed. The President's 2016 request not 
only makes the programs in this bill a priority, he has 
provided to Congress an entire budget focused on critical 
investments, continued economic growth. The budget calls for 
investments in research, education, training and 
infrastructure.
    And I want to repeat again because I think it is so 
important, the proposed rule has also called for the end of the 
mindless austerity of sequestration, urging this Congress to 
replace it with more targeted spending cuts, program integrity 
measures, and the closure of some outdated tax loopholes. I 
understand many of my colleagues on the other side of the aisle 
have differences with how we address sequestration. Many are 
focused on the potential security concerns if we do not address 
the sequester on the defense side of the ledger. I see common 
ground, and I believe we can once achieve the compromise under 
the Murray-Ryan plan of 2013.
    Now, I want to make it clear that plan was not perfect, but 
it did provide a path forward for another budget deal. Without 
such an agreement, our appropriations process is deeply in 
peril, with discretionary funds on pace to be at the lowest 
levels since the Eisenhower Administration.
    The President's 2016 request would renew our commitment to 
our national parks as part of the upcoming National Parks 
Centennial, as well as the initiatives to preserve the sites 
and resources associated with America's civil rights story, and 
to engage our youth in outdoor activities. The investments 
proposed to advance the social and economic wellbeing of Native 
Americans are commendable. I am especially glad to see the 
additional funds and reforms directed at improving Indian 
education, as well as the efforts being directed at providing 
support for youth and families.
    I am glad to see the focus on the safe and efficient use of 
America's energy resources. Now, while some pay lip service to 
an all-of-the-above energy strategy, the Department has 
expanded America's energy portfolio. We are seeing a tremendous 
increase in renewable energy production on public lands, 
despite a lot of rhetoric, more oil and gas actually being 
produced on public lands than in the last years of the previous 
Administration. I am especially glad to see that following the 
Deepwater Horizon disaster, significant reforms were instituted 
to prevent such accidents and to protect lives and property.
    So Madam Secretary, in closing, I want to tell you again 
how much I appreciate your commitment and your passion that you 
bring to the job. I look forward to your testimony this 
afternoon. And I thank you, Mr. Chairman.
    Mr. Calvert. Thank you. With that, Madam Secretary, I am 
happy to yield to you for your opening statement.

                  Opening Remarks of Secretary Jewell

    Secretary Jewell. Thank you very much, Chairman Calvert. It 
is great to be here. Ranking Member McCollum, and Chairman 
Rogers, and Ranking Member Lowey, thank you very much for your 
comments, and members of the subcommittee. This is a full table 
today, which is really great to see.
    As you did for me, I want to thank you for the 
collaborative working relationship we have with the 
subcommittee, and acknowledge Dave LesStrang, Rick Healy, and 
your staff members for the hard work they do on the budget. 
Joining me, Deputy Secretary Mike Connor, who is an expert on a 
number of issues, and so we will be going back and forth to 
make sure we get your questions answered effectively.
    I submitted a detailed statement for the record, so I will 
be relatively brief in these opening comments.
    This is a forward-looking budget that provides targeted 
investments to grow our domestic energy portfolio, creating 
jobs here at home, to build climate resilience, and revitalize 
our national parks as they approach their 100th anniversary. It 
invests in science to help us understand natural resources on a 
landscape level, and to apply that understanding to better 
manage America's assets for the long term, like the California 
Bay Delta and the Great Lakes, to name just a few. Importantly, 
the budget also helps fulfill our Nation's commitment to 
American Indians and Alaska Natives, including significant and 
much needed investment to help improve Indian education.

                    LAND AND WATER CONSERVATION FUND

    I want to first talk about our investments in the lands and 
historic places that make our Nation proud and serve as 
economic engines to local communities. On the 50th anniversary 
of the Land and Water Conservation Fund Act, the budget 
proposes full funding of $900 million annually for LWCF 
programs. This is dollar for dollar one of the most effective 
government programs we have.

                    NATIONAL PARK SERVICE CENTENNIAL

    Next year, we mark another important milestone in our 
Nation's history. The National Park Service will celebrate its 
100th anniversary, and this budget makes historic investments 
to launch an effort to celebrate and revitalize national parks 
and public lands. The discretionary and the mandatory portions 
of the budget include a $150 million matching fund to leverage 
private donations to parks, and $859 million to provide 
critical maintenance investments to high priority assets. 
Additional funding of $43 million will provide staff to improve 
the visitor experience and support the expected influx of 
visitors during and after the centennial.

                              CIVIL RIGHTS

    A third milestone we commemorate this year is the 50th 
anniversary of the Voting Rights Act. The budget proposes $50 
million to restore and highlight key sights across the country 
that tell the story of the struggle for civil rights, such as 
the Selma to Montgomery National Historic Trail and the Martin 
Luther King, Junior National Historic Site.

                                 YOUTH

    One of my top priorities is connecting young people to the 
great outdoors and to our rich history and culture. We need to 
inspire and engage the next generation to be scientists, 
engineers, and stewards of our Nation's most prized assets. 
Particularly, just in our case, 40 percent of the Department of 
the Interior's workforce will be eligible to retire soon. This 
budget proposes over $107 million for Interior's youth programs 
to provide opportunities for our Nation's young people to play, 
to learn, to serve, and to work on public lands. We will 
accomplish this through cooperative work with youth 
conservation corps, schools, organizations like the YMCA and 
the National League of Cities, and enlightened private 
businesses.

                             INDIAN AFFAIRS

    Next, I want to talk about the Administration's continued 
commitment to tribal self-determination and strengthening 
tribal communities. I recently visited Arizona to launch the 
Administration's Native American Youth Listening Tour to give 
young people in Indian country the opportunity to engage with 
Cabinet members directly about the challenges they face. My 
recent trip to the Arctic also included a meeting with youth 
leaders in Kotzebue, Alaska, who are helping their classmates 
cope with personal challenges.
    Across the Federal family, agencies are committed to 
working together to better coordinate our services to more 
effectively serve American Indians and Alaska natives. This 
budget holds promise for a brighter future for Indian youth 
through education, for Native American communities through 
economic growth and social services, and for improving the 
stewardship of our trust resources.
    We are requesting $2.9 billion for Indian Affairs, an 
increase of 12 percent, which includes full funding of contract 
support costs that tribes incur as they deliver direct services 
to tribal members. The Generation Indigenous Initiative 
includes a $1 billion investment in Indian education to support 
critical facilities issues and a comprehensive transformation 
of the Bureau of Indian Education to better serve and support 
tribes in educating their youth.
    I want to thank this committee for its strong commitment to 
Indian education. I was really glad to be able to join the 
Chairman, the Ranking Member, Congressman Cole, and Congressman 
Simpson on a visit to Moencopi Day School in Arizona just last 
month. Thank you for your focus and dedication to finding a 
long-term solution to this important obligation.

                                 ENERGY

    When it comes to powering our Nation, the budget continues 
to invest in both renewable and conventional energy so we can 
diversify our domestic energy portfolio, cut carbon pollution, 
and reduce our dependence on foreign oil. The budget includes 
$100 million for renewable energy activities like the Desert 
Sunlight Solar Farm in California, one of the world's largest 
solar projects now delivering clean renewable energy to 
American consumers from public lands. We also propose a total 
of $658 million for conventional energy programs.

                                SCIENCE

    This budget invests in science and technology initiatives 
to support energy development, create economic opportunities, 
and help communities build resilience. The budget includes $1.1 
billion for research and development activities that range from 
scientific observations of the earth to applied research to 
better address problems, such as invasive species and coastal 
erosion. The budget also includes a total of $147 million to 
fund projects to help coastal communities, especially tribes, 
insular areas, and land management bureaus that use the science 
and technology to strengthen their climate resilience.

                                 WATER

    Finally, I want to touch on two other areas impacted by a 
changing climate: water and fire. Western States are on the 
front lines of dealing with both of these challenges, drought 
and catastrophic wildland fires. First, the budget includes 
$1.1 billion for the Bureau of Reclamation to support water 
availability projects, Indian water rights settlements, 
ecosystem restoration, healthy watersheds, and sustainable, 
secure water supplies, through the Water Smart Program to 
address drought and other water supply issues across the West.

                             WILDLAND FIRE

    Second, this budget renews the call for a new funding 
framework consistent with Congressman Simpson's bill for 
wildland fire suppression, similar to how costs for other 
natural disasters are met. The initiative proposes a base 
funding level of 70 percent of the 10-year average for 
suppression costs within the discretionary budget, and an 
additional $200 million available in the event of the most 
severe fire activity, which comprises only 1 percent of the 
fires, but 30 percent of the costs. This is a common sense 
proposal that would help ensure USDA and Interior don't have to 
rob our budgets for fire prevention in order to fight the 
Nation's most catastrophic fires.
    In closing, this is a smart and balanced budget that 
enables the Department to carry out these important missions. I 
look forward to discussing these issues and the many other 
important investments proposed in this budget with you during 
your questions. Thank you.
    [The information follows:] 
   
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
    Mr. Calvert. I am happy to yield to the full committee 
chairman, Mr. Rogers, for his questions.

                         STREAM PROTECTION RULE

    Mr. Rogers. Thank you, Mr. Chairman, for yielding. Madam 
Secretary, the Office of Service Mining has spent more than $8 
million over the past several years to develop a rule on stream 
protection to replace the 2008 stream buffer zone rule which 
was tossed out by the Court. It has been wrought with 
controversy, and this subcommittee and committee has taken 
action to stop that process every year for the last 4 years.
    The main thing I wanted to ask you about is cooperation 
with the States. As you well know, under the Surface Mining 
Control and Reclamation Act, SMCRA, the statute by which you 
are claiming authority to draft this new rule, the States have 
the lead authority in regulating mining operations, with your 
Department operating merely in an oversight capacity, which 
means you are bound by law to work with the States in 
developing this rule.
    And I am hearing from a number of the States saying that 
they are not being consulted adequately, that their suggestions 
are ignored, that they do not feel like they are getting proper 
information into developing the environmental impact statement 
for the rule. And I am wondering if you can tell us what kind 
of cooperation are you giving to the States as you discuss this 
proposed rule.
    Secretary Jewell. Mr. Chairman, I know this rule has been 
pending for a very long time. We are getting close to 
submitting our rule for public comment so we can finalize it. I 
know those discussions have involved States and many 
stakeholders, businesses, environmental groups, and community 
citizens who live in the proximity of these mines no matter 
where they are around the country.
    The OSM in its efforts have been very broad in taking in 
input, and once we release the rule, there will be an 
opportunity for a tremendous amount of public comment and 
reaction. I will say that in my experience as we work to update 
very old regulations, and this is one of them. It has been 
around for, I think, more than 30 years. Science moves. We 
learn more than we knew at the time. We understand more about 
the impacts. We understand the benefit of these resources, and 
so all of that will be taken into account. Certainly we will be 
taking input from States along with others as we have on this 
journey when the rule is released and we are in the public 
comment period, which we expect will happen relatively soon.
    Mr. Rogers. Well, I know that the law, the statute on the 
books, mandates that you consult heavily with the States, that 
the States have the premier authority in regulating mining 
operations, and yet they tell me that it is like talking to a 
brick wall with your Department. The States are not being 
consulted properly. They say they do not feel as though OSM has 
incorporated any of their comments into draft statements, and 
they are threatening to walk away from the process all 
together. So something is not right here. Can you help us out?
    Secretary Jewell. Certainly I will talk with our people at 
OSM. I know that Joe Pizarchik, who leads that activity, was a 
State regulator in the State of Pennsylvania. In my 
conversations with him he seems keenly interested in input from 
the States and recognizes the importance of coal in those 
communities, and also the long-term impacts it has had on some 
of the hydrology of those areas. He is walking a fine line to 
balance those things, but I will certainly have a conversation 
with him about your concerns, Mr. Chairman.
    Mr. Rogers. The few times when OSM has asked for the States 
for comments on draft documents, the timeframes they are given 
to answer are unrealistic, some less than 5 days to respond to 
OSM. And I know many of the States are wondering if OSM even 
still considers them to be a partner in the process. If this 
partnership is still intact, does OSM have any plans to make a 
more earnest effort to seek input from the States in the form 
of substantive comments?
    Secretary Jewell. I will certainly speak with OSM about 
that. My understanding from them is they are very interested in 
State input, and I cannot respond to the 5 days response time, 
but I will look into that, Mr. Chairman.
    Mr. Rogers. Can your Department provide this subcommittee 
with a memorandum of understanding that they executed with the 
States when this process began?
    Secretary Jewell. I will do that if there is such a thing. 
I do not know. Is there a memorandum of understanding? Is that 
your awareness?
    Mr. Rogers. That is my understanding.
    Secretary Jewell. Okay. We will track that down for you.
    [A sample of the memorandum of understanding with the 
States follows:]

   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              OSMRE BUDGET

    Mr. Rogers. The States, as I said, are primarily 
responsible for most of the regulatory work, but yet OSM is 
asking for a $5.5 million increase for itself and cutting the 
States' grants by more than $3 million. What would that extra 
$5.5 million go for?
    Secretary Jewell. Do you have anything specific on that, 
Mike, if you can look at that? Let me talk to the $3 million 
difference while Mike is looking for that. The money to the 
States for state requirements is equivalent to the amount we 
have put in the budget. It is about $3 million. We did not have 
State requests up to the amount we had last year, so there is 
some carryover. We put in the budget an amount we believe will 
be adequate for what the States' needs were, but if they end up 
going a few million dollars over that, we have carryover from 
the prior year we could apply. There is essentially no cut from 
what we believe the demand from the States will be.
    Mr. Rogers. Well, what I am talking has real consequences 
in real life. I have got 9,000 miners in my district laid off 
in the last few years. I have got able-bodied young men with 
families formerly making $70,000, $80,000 a year in the mining 
business now trying to find a job at McDonalds, unsuccessfully 
I might add. They have young kids. They have mortgages to pay. 
They are able-bodied. They are great workers, with the best 
work ethic in America. They are being shoved out the door, and 
unfortunately by their own government, and it is not right. I 
yield.

                                 POWER+

    Secretary Jewell. Mr. Chairman, may I just quickly respond? 
You referenced this in your opening, Mr. Chairman. The Power+ 
proposal takes some of the Abandoned Mine Land funds sitting in 
the Treasury and asks them to be accelerated forward to address 
exactly that issue--$200 million a year over 5 years from money 
that is existing in the Treasury for Abandoned Mine Land funds. 
We propose to use the funds to help those communities, like the 
ones you just described, to help re-train them in areas such as 
mine restoration, fixing some of the devastating impacts of 
mining over years past to those communities, and developing 
skills for jobs of the future.
    The Power+ proposal is certainly an attempt on our part to 
address the very real consequences in many of these coal-
producing States where the least expensive coal has been mined. 
We appreciate this is a challenge for your State and a number 
of other States, particularly in Appalachia.
    Mr. Rogers. Well, let me thank you for the Power+ Program. 
It has a lot of things going for it, and I welcome that. 
However, unless the law is changed, the OSM money, the 
Abandoned Mine Lands Fund, could only be used for 
reforestation, which is good. I have been pushing that for 
years, but it is a limited use of that money. I wish we could 
free up that money for economic development to bring in the new 
jobs of this world that we live in today, so I welcome the 
attempt to use that $2 or $3 billion that has been collected.
    Secretary Jewell. I think it is $2.4 billion that is 
sitting in the account. It is a lot.
    Mr. Rogers. I cannot tell you, yes, but it should be used 
for today's purposes. And the money came from a tax, if you 
will, on each town of mined coal.
    Secretary Jewell. That is right.
    Mr. Rogers. So the proceeds of that ought to be going back 
to those areas where it came from, but if it is only for 
reforestation, it would not provide that many jobs.
    Secretary Jewell. And that is what we are attempting to 
address with Power+, and I think there is a good case that can 
be made for legislative action.
    Mr. Rogers. Good.
    Mr. Calvert. Thank you. I am happy to yield to Ms. 
McCollum.
    Ms. McCollum. Mr. Chair, at this time I would like to yield 
to the full Committee ranking member, Mrs. Lowey.

                          JOBS AND THE ECONOMY

    Mrs. Lowey. Well, thank you very much. Getting back to jobs 
and the economy, according to your Department, in 2013, 
Interior's programs contributed an estimated $360 billion to 
the U.S. economy and supported more than two million jobs. That 
is a pretty good record, so I hope we can continue in that 
direction.

                             HERITAGE AREAS

    The budget request, however, once again proposes to cut 
national heritage areas this year by 51 percent. In 2013, the 
National Park Service released a report stating that the 49 
national heritage areas contributed $12.9 billion annually to 
the national economy, supporting 148,000 jobs, generating $1.2 
billion in Federal tax receipts. In my region, the Hudson River 
Valley National Heritage Area, contributes $538 million to the 
State's economy, supports 6,530 jobs, and generates $66.6 
million in tax revenue. So it is an important program to spur 
tourism and economic development, and is popular obviously 
among the people who live in the region.
    Can you tell me if you are concerned that slashing funding 
by nearly half would jeopardize the contributions that heritage 
areas make to promote job creation and outdoor recreation? And 
can you please explain why the proposed cut to the program is 
so large?
    Secretary Jewell. Thank you, Congresswoman Lowey, and I 
appreciate your passion for National Heritage Areas broadly, 
and specifically in the Hudson River Valley. I share a passion 
for National Heritage Areas, as we have talked about before.
    This is not as big a budget as I would love to have, and we 
had to make some difficult choices. With the Centennial in 
2016, and with the condition of a number of our park facilities 
being in pretty tough shape, and knowing we are going to have 
increased visitation broadly, we did prioritize resources 
toward critical projects to address where we think we are going 
to have the highest visitation and the greatest challenges with 
the facilities that need to be repaired.
    We did prioritize engaging youth in our parks, getting kids 
involved in these resources. We have a golden opportunity with 
the Centennial to do that because of the increased visibility. 
We did scale back the National Heritage Areas.
    They are one of the areas that has the potential for the 
highest leverage. In other words, communities support them in a 
very significant way, so there is no question I would love to 
support them. I would love to keep the level high or even 
higher, but we did make some difficult tradeoffs, and that is 
one of the areas we traded off within the National Park Service 
budget.
    Mrs. Lowey. Well, I really do hope that working together 
with the distinguished chairman of the committee and all the 
members of this committee who care so much about this account, 
we could work in a bipartisan way so we can end sequestration 
and bring some thoughtfulness to this process, because it is 
unfortunate to cut or decrease funding for programs that really 
do work, and, again, create jobs, strengthen the economy, which 
is what we are all about, Democrats and Republicans.

                      HURRICANE SANDY RESTORATION

    Let me just ask one other question because I know we are 
running out of time. It was just 2 years and 4 months ago that 
Hurricane Sandy battered a wide swathe of the Mid-Atlantic and 
northeast causing significant damage to communities and natural 
resources in the areas. National parks, such as the Statute of 
Liberty, Gateway National Recreation Area, sustained heavy 
damage. If you can give us an update of what progress has been 
made in restoring these and the many other natural and historic 
resources that were damaged by Hurricane Sandy, I would 
appreciate it. And are these restoration projects being rebuilt 
to frankly provide more resiliency to any impending storm? 
These storms we used to think come every hundred years. They 
seem to come every couple of years. So if you can comment, I 
would appreciate it.
    Secretary Jewell. Thank you. Well, having been to the 
Statue of Liberty and the national recreational area in New 
York, Jamaica Bay, working alongside kids on restoration 
activities, I would say we are well under way. We received 
about $450 million to mitigate activities within our bureaus, 
and those are in process. Of course, you know we got the 
Statute of Liberty reopened on the 4th of July in 2013.
    In addition to those projects on our lands, we got $342 
million dollars from the Sandy funding to increase resiliency 
of coastal habitat and infrastructure. With that, we have 
completed and reviewed resilience projects of $214 million. We 
had $102 million in competitive grants we put out to 
communities to basically put forward proposals. Those are 
highly leveraged dollars. We got $74 or $75 million in 
additional money over and above the $102 for 54 projects, and 
we are getting ready to do an evaluation of how those projects 
work. The money is in the process of being spent, or has been 
spent or obligated.
    And we have learned tremendous lessons, including the 
science behind what the green infrastructure did to protect 
communities and how can we replicate that. That is exactly what 
we are doing in these projects here.
    Mrs. Lowey. Thank you very much. Thank you, Mr. Chairman.
    Secretary Jewell. Thank you.
    Mr. Simpson [presiding]. We have votes going on, and Ken 
went over to vote, and he will be right back, and then some of 
us will go vote. And we are trying to not waste your time too 
much.

                              SAGE-GROUSE

    A couple of questions. I am a little perplexed by one of 
the statements in your--I guess not perplexed, but there is a 
statement in your testimony I do not understand. ``I ask the 
committee to remove the rider included in the 2015 
Appropriation Act that prevents the Fish and Wildlife Service 
from writing rules to list several species of sage-grouse. Our 
approach to working collaboratively among Federal agencies, 
States, and local stakeholders could provide the path to 
conserving species and Endangered Species Act protections for 
both by State.''
    We agree with that, and we think that is the right way to 
go. We do not know why the rider is creating complications for 
that. All we are saying is we are preventing the listing so 
that the Department has the time to actually do these 
cooperations with the States and come up with plans so that 
ultimately--and I think this is what we all want--is not to 
have to list sage-grouse because, frankly, it would be 
devastating on the West.
    Let me ask you this, and obviously I do not know the answer 
to it or I would not ask it. If a determination is made--
ultimately whenever Congress allows the determination to be 
made--on listing of the sage-grouse, is it an all or nothing 
determination? Different States cooperate differently with the 
Department in trying to save the habitat? Let us just say, for 
example, a hypothetical. Wyoming is doing a fantastic job 
working with you, doing the preventative measures to try and 
preserve the habitat. And let us say Idaho is just being 
obstinate and will not do anything to protect it. When you make 
a determination, do you have to say we do not list it in 
Wyoming, we do list it in Idaho? Can it be that way, or 
regionally, or is it across the landscape, or nothing?
    Secretary Jewell. The short answer is it is the greater 
sage-grouse, which is across the broad landscape. That is what 
we are looking at. I just have to say a couple of things. One 
is to commend the support from the States for the work of the 
BLM, and the Fish and Wildlife Service, and the State Wildlife 
Management agencies. We are working together like has never 
happened, I think, in the history of the United States when it 
comes to the preservation of landscapes.
    We talk about the greater sage-grouse, but really it is the 
sage steppe ecosystem, mule, deer, antelope, golden eagles, you 
name it. There are 350 species that depend on this, and it is 
really the old growth forest of that region of the country, and 
a lot of these sage brushes are 150 years old. The greater 
sage-grouse is the species we are assessing as to whether or 
not it should be listed.
    We have a court-ordered deadline of September 30th, 2015, 
and the rider in the bill at the end of last year did not 
change that court-ordered deadline. We are pursuing a 
determination full speed ahead and considering all of the 
complexities of really the different ways that different States 
have to face the preservation of this sage steppe. It is 
different in Idaho than it is in Wyoming.
    Mr. Simpson. Sure.
    Secretary Jewell. It is different in Nevada than it is in 
Utah. We are working with strong State plans, and we had some 
helpful executive orders from a number of different governors 
that provide reassurance to the Fish and Wildlife Service that 
they need. We have revised, I think, 98 different resource 
management plans for the BLM and consolidated those into I 
think 15 different EISs being finalized right now. Everybody is 
working toward a goal of taking care of these sage brush steppe 
landscapes so that a listing is not warranted.
    That is something we all share in common, and we have got 
to get across the finish line with that, and the Fish and 
Wildlife Service has that court-ordered deadline.
    The rider did not allow us to write any rules to list, so 
it does not stop the Fish and Wildlife Service from doing its 
work on a determination. We have got funding in this budget, 
and there is more proposed in this budget to take care of these 
landscapes. The Fish and Wildlife Service is going to have to 
make a determination of whether listing is warranted, which 
everybody would share, threatened or endangered, and they have 
to do that unless the court gives us additional time.
    We hope listing is not needed, and then the rider will not 
make any difference. If it is warranted, we will be in a 
difficult situation where a listing is warranted, but we cannot 
write a rule to say what that means and how we then go forward.
    Mr. Simpson. And the reason I ask the question, though, is 
we are looking at this broad landscape.
    Secretary Jewell. Yes.
    Mr. Simpson. I mean, it covers the whole western United 
States essentially. The same thing happened with wolves when 
they reintroduced them as a non-essential experimental 
population in Montana, Idaho, and Wyoming. And they put 
requirements on 10 breeding pair in the three States. Idaho and 
Montana did their job, and they got breeding pairs in the 30s, 
40s, 50s. Wyoming did not, and when Fish and Wildlife Service 
came in and said we are going to de-list in Idaho and Montana, 
the judge said, no, you cannot do that, it has got to be all 
three States. So we are being punished because Wyoming would 
not do what was required of them, and it was Congress that 
overrode that and said, no, that is not the case.
    And I wonder, how we are getting cooperation, and we are 
getting different levels of cooperation I am sure from all the 
different States and different levels of concern. I am 
wondering if those States that are working with you trying to 
save this sage brush steppe and those States that are not, are 
we going to get punished because they are not cooperating as 
well?
    Secretary Jewell. I think it is fair to say we will rise 
and fall together on this one because of the nature of this 
bird's range.
    Mr. Simpson. Can we clip its wings? [Laughter].
    I am just kidding.
    Secretary Jewell. But this is an unprecedented effort, and 
I just cannot say how much I appreciate the cooperation. Yes, 
we have had some to the table early, and we have had some to 
the table late. The more teeth there are in their proposals, 
the more the Fish and Wildlife Service can rely on it. The more 
voluntary measures that are unproven, the less they can rely on 
it. Every governor, every State wildlife person working on this 
knows that.
    We are feeling really good about the amount of work that 
has been done, and we remain optimistic that listing can 
precluded if we keep pedal to the metal on this within the 
timeframe. Did you want to jump in?
    Mr. Connor. Just on one other point if I could.
    Secretary Jewell. Yes.
    Mr. Connor. You asked about the complications of the 
existing rider, and the Secretary has explained everything 
having to do with greater sage-grouse. One of the complications 
has to do with the Gunnison sage-grouse, which is under the 
rule, and so it is listed now. The Service did make its 
determination prior to the rider taking effect.
    One of the things that we can do to provide regulatory 
certainty is to do a 4(d) rule since it was listed as 
threatened in which we would basically take the conservation 
actions that have been committed and put that into a plan. If 
people are moving forward with those conservation actions, they 
have got no issues with the Endangered Species Act. That is one 
thing precluded by the existing rider, that we cannot move 
forward with that 4(d) rule.
    Mr. Simpson. Thank you. I have several other questions 
relative to BIE schools, and PILT funding, and so forth, but I 
will ask those when my turn comes up and I am sitting over 
here. [Laughter].
    Ms. McCollum.

                             CLIMATE CHANGE

    Ms. McCollum. Thank you. Secretary Jewell, I note with 
interest that you are requesting a total of $195 million to 
help prepare communities for the challenges of climate change. 
We only have to look at the Washington Post this morning to see 
how Alaska natives are impacted by this.
    There has been debate about the causes of the change. The 
effects of climate change are seen nationally. Much of the West 
is in an extended drought, as has been pointed out in some of 
the questions that the Chairman offered up to you earlier. We 
have grizzlies that are already awake in Yellowstone National 
Park, Boston snow pack. Alaska snow is to the point where the 
Iditarod sled dog race was forced to shift its route again. 
They have been having more and more problems having reliability 
with the dates on that race.
    So could you talk about the work that you are going to do 
with local communities to address the impacts of climate 
change? What steps are you taking on Federal land to better 
understand and help prepare for the impacts? And how will this 
program also help our U.S. territories that are dealing with 
rising sea levels, as well as the coast here on the mainland 
part of the United States?
    Secretary Jewell. Mike is going to jump in on this.
    Mr. Connor. Our climate change programs at Interior are on 
three levels, two of which I think are specifically relevant to 
your question. We have our real energy program where we are 
trying to reduce carbon through those programs. Building 
community resilience, the adaptation action that you 
referenced, and then I think it is incredibly important we 
continue to invest in science to inform ourselves about how the 
impact of climate change is affecting our resources.
    With respect to the adaptation programs and building 
resilience, we are investing in this budget about $195 million 
overall. We want to replicate what we are doing with respect to 
the Hurricane Sandy initiative through our $50 million proposal 
for coastal resilience grants. We think the first cut reading 
of the projects that were done as part of Hurricane Sandy is 
they were very positive, and they will have benefits with 
respect to storm surge and long-term resilience. We want to 
replicate that along other coasts.
    On the landscape itself, BLM, Fish and Wildlife Service, 
and National Park Service each have a $10 million challenge 
cost share grant program for climate related projects. Of 
course, our budget continues to support the 22 Landscape 
Conservation Cooperatives that we have as well as our eight 
Climate Science Centers, so $195 million on the ground to try 
and deal with resilience activities.
    I forgot to mention our $50 million tribal climate program. 
We have invested about $8 and $10 million over the last couple 
of years to try and build capacity in tribal communities with 
tribal leaders to be able to address their needs. This budget 
would bump up activity in 2016 so we could actually take that 
capacity and start to do projects on the ground to build 
resilience.
    The last thing I will note is we have $83 million in 
climate variability science with USGS focused on the Arctic, 
focused on coastal communities and sea level rise, drought, and 
storm surge and flooding activities that we expect to increase 
as a result of climate change. That is the broad portfolio we 
have.
    Secretary Jewell. I would just add one other number to the 
complexity. There is $7 million in the budget for climate 
resilience specifically for Insular areas. They are on the 
front lines, and I met with them yesterday. They were in town, 
and they are seeing lots of impacts in very real time. Thank 
you.
    Mr. Calvert [presiding]. Thank you. Just for information, 
there are about 2 minutes left in the vote. 300 members have 
not voted yet. [Laughter].
    Secretary Jewell. Wow.
    Mr. Calvert. I have already voted, so I am just going to 
continue this until the next vote is called, and then I will 
have a 10-minute recess, and then we will just come right back 
after the next two votes.
    Ms. McCollum. I would have gone up and voted with you had I 
known that.
    Mr. Calvert. Oh, I am sorry.
    Ms. McCollum. Because now none of us have voted.
    Mr. Calvert. I know.
    Ms. McCollum. I trust you with my life.
    Mr. Calvert. I will not do anything too controversial. 
[Laughter].
    Mr. Israel. Mr. Chairman, I will not be able to return, so 
I will submit my questions in writing.
    Mr. Calvert. Okay.
    Mr. Israel. Thank you.
    Mr. Calvert. Thank you. Okay. We will see you in a few 
minutes.
    Ms. McCollum. I am keeping my eye on you.
    Mr. Calvert. I am just going to talk just a little bit 
about the California drought while you are away, how is that?
    Ms. McCollum. Oh, good. [Laughter].

                                DROUGHT

    Mr. Calvert. A first vote round here, a 15-minute vote 
usually takes a half an hour. As you mentioned earlier, things 
never are on time around here. Since you have Deputy Secretary 
Connor with you today, Madam Secretary, and since California is 
the only one left here, I thought I might ask a question about 
our drought. As you know, you and Mike are the water masters of 
the West and the Southwest, and we have been experiencing 
severe drought conditions, and in my home State of California 
probably more severe than the rest of the Western States.
    Although there was some rain in December, it was the driest 
January since we have been taking records as I understand. So 
could you for the record provide an update on the current 
extent of the drought, what you have learned from the drought 
crisis in 2014, and how this year compares to previous 
droughts?
    Secretary Jewell. Go ahead, Mike.
    Mr. Connor. I will start with the latter part. This year's 
drought is every bit as bad as last year's drought with respect 
to the lack of precipitation. We did have a decent December, 
but then it all dried up in January, as you pointed out, Mr. 
Chairman. The problem is we went into this season with 
substantially less water in storage than we had even last year, 
and the impacts of the ongoing drought will be as deep or even 
deeper than they were last year. Of course, last year was the 
harshest time ever.
    I think overall, the landscape is very difficult with 
respect to the challenges we are facing. Just to give some 
context, historically we have pumped around, in good years 5 
and half million acre feet per year to supply the Federal 
project and the State water project. Over the last couple of 
years with respect to the drought, in 2012 and 2013 we pumped 
anywhere between 4.2 to 4.8 million acre feet, so significantly 
lower.
    Last year with the impacts of the drought, we ended up 
pumping about 2 million acre feet of water, so less than half 
of what we had even done in 2012 and 2013, and that situation 
is likely to continue. It is very much a function of the 
drought. I would just note we are about 2 to 2 and half million 
acre feet below even the water levels of previous droughts, and 
I know there has been a lot of focus on the Endangered Species 
Act, and certainly that is affecting the availability we have 
for pumping water because of restrictions. But of that 
reduction last year, only about 65,000 acre feet was related to 
the Endangered Species Act. That is 65,000 feet that is 
incredibly important to somebody, and I certainly understand 
that, but it is 2 percent of the overall reduction we have had 
because of the drought.
    Nonetheless, I think on the positive side, we did learn 
some lessons in last year's drought, and we have improved our 
monitoring capabilities, our ability to, in real time, 
understand where the fish are with an overall goal of trying to 
improve operations when we can during those precipitation 
events like we had finally at the start of February. One of the 
improvements from last year is last year we allowed some 
increased pumping over what the biological opinions would 
normally allow, but then we required mitigation on the back 
side of that. There were certainly concerns about whether or 
not we were having net gain.
    This year, we have re-looked at the science. The Fishery 
agencies concluded they do not necessarily have to get 
immediate mitigation. We can look at other opportunities to 
mitigate for higher levels of pumping. If we have the 
opportunity for higher levels of pumping as part of our drought 
strategy, we are going to do that. We are going to implement 
those higher levels and try and take as much water as we can. 
We did that for about a week in the aftermath of the storm we 
had a couple of weeks ago.
    Mr. Calvert. And I am glad to hear that you are using your 
tools the best way you can, and modeling, forecasting in the 
future. But as you mentioned, the regulatory constraints, in 
this case the Endangered Species Act, the biological opinions 
that you are operating under presently. As I understand, this 
last storm surge we had, for instance, this small storm, we 
talked previously about this. But what I hear anecdotally from 
people in California was they still were not able to pump to 
the maximum degree possible because of the way some people were 
interpreting the biological opinion. I think you can pump up, 
what, to 7,500 CFS in that instance, and I understood you never 
got to 7,000 CFS. Is that correct?
    Mr. Connor. What it would allow is us going up to about 
7,500 CFS. The controlling factor is reverse flows on Old 
Middle River, and if you are at the maximum levels in our 
drought strategy, it does allow about 7,500 CFS of pumping. I 
think we got over 7,000 for a couple of days. We were well over 
6,500 for a couple more days. We did better, but you are 
correct in relating we were not at that maximum level the 
entire time. What was happening was a daily decision about what 
we could do.
    Mr. Calvert. Right. Some of the critics on the ground would 
say that you could have operated under the biological opinion, 
and I know you are operating this very conservatively, but at 
least 10,000 acre feet or more was lost because of that. And as 
you know, 10,000 acre feet of water in this environment is a 
lot of water, but if we get these storm surges from time to 
time in an emergency that we are in, every drop of water 
counts.
    And so, if we are not endangering any fish, if we are not 
endangering the smelt, you know, I would continue to emphasize 
that we need to make sure that we operate that with the maximum 
flexibility possible to make sure that we get every drop of 
water we possibly can in this emergency because I suspect this 
summer things are going to get a lot worse. And I am not sure 
what the Metropolitan Water District is going to do in Los 
Angeles, and what others are going to be doing throughout 
California and the West, but it is a significant problem.

                         COLORADO RIVER STORAGE

    Let us talk about the Colorado River a little bit. What 
percentage are you down in storage in the Colorado River system 
now?
    Mr. Connor. I think overall, we are at about 45 percent 
storage capacity between Lake Mead and Lake Powell right now. 
Once again, the 15-year drought in the Colorado River system is 
every bit as bad as the situation in the Central Valley of 
California. The difference has been the storage that we started 
with. And, 15 years ago in 2000 when the drought cycle started, 
those two reservoirs were at full capacity. We basically had a 
few good years within the 15 years, but most of them have been 
below average. Because of that, we have not yet incurred any 
shortages on the lower Colorado River.
    When we hit elevation 1075 at Lake Mead, the States of 
Nevada and Arizona will start talking shortages. Right now, we 
will not have a shortage in 2015, but we are looking at 
significant possibilities starting in 2016 and 2017, and I 
think there is around a 20 percent chance we will be in a 
shortage condition in 2016. It goes up to almost 50 percent 
after that, so it is also a serious situation.
    Mr. Calvert. The storage in the Colorado River system is 
how many acres?
    Mr. Connor. It is about 60 million overall, and those two 
reservoirs are 50 million of it.
    Mr. Calvert. Right, and that kind of tells the story in the 
Bay Delta area. How much storage do we have up there?
    Mr. Connor. Oh, I think between all the reservoirs, Shasta 
is the largest and it and Oroville are the two largest, and 
they are about, I would say, 10 to 12 between all of them.
    Mr. Calvert. So in the long term we have got to get 
additional storage in that area. And there is a lot of 
frustration that many years have been spent, and I drafted the 
legislation originally to do this, and I think that has been 12 
years ago.
    Mr. Connor. 2004, yes, sir.
    Mr. Calvert. And how far along are we to the point where we 
can actually start issuing permits to start developing these 
water storage projects?
    Mr. Connor. We are at the tail end of several of the 
feasibility studies and EISs, and I am going to segment it that 
way because issuing permits will necessitate us figuring out 
the financing for our facilities. The threshold is to finish 
the environmental work and the feasibility work. With Shasta 
Dam raise, we will be including that this year, the feasibility 
studies and the final environmental impact statement.
    We have a draft feasibility and a draft EIS with respect to 
Temperance Flats on the San Joaquin. One of the storage studies 
that was contemplated was Los Vaqueros Dam in the delta, and we 
completed the raise itself. We are doing the environmental 
analysis and Contra Costa is paying for a dam raise there. They 
are now evaluating a second raise at that facility.
    Then sites off stream on the Sacramento are lagging a 
little bit because for several years we did not have a cost 
share partner with the State. I think all of that is ready to 
change. We are working with the Joint Powers Authority up in 
the Upper Sacramento, and the State, I think, will have a new 
agreement to move forward with those feasibility studies.
    We will probably at that point in time for efficiency 
purposes turn over the EIR process, the environmental impact 
review process, to the Joint Powers Authority and the State 
itself and let them take it forward. But they do want us to 
finish the feasibility work.
    Mr. Calvert. And we understand that, all the work has been 
taking place. I know that you do not run the EPA. You have 
enough issues on your table, but it is under our jurisdiction, 
was involved in every meeting and was there every time, and 
then they recently have thrown a monkey wrench into the entire 
process, which is somewhat frustrating because everybody has 
been working reasonably well together like good boys and girls, 
and all of a sudden they throw a wrench in this process, is 
somewhat frustrating.
    We have the same frustration with the State Water Resources 
Board. As you know, recently we had a number of agencies that 
agreed that we needed more flexibility in the short term to 
operate the system up in the north, and then for whatever 
reason, the State Water Resources Board thinks they know best, 
so they stopped that. Senator Feinstein, myself, and a number 
of members, sent a letter urging them to reconsider.
    But short term, we need flexibility to operate so we can 
get every drop of water that we can, and long term obviously we 
need to build this additional storage in the north to make sure 
that we prepare ourselves. If climate change is occurring, we 
have to be prepared to capture this water as rain rather than 
snow, and we have to do what is necessary as quickly as 
possible.
    I am going to recess because I think the second vote is 
going to start any second. And we will be back in about 10 or 
15 minutes, so thank you.
    [Recess.]
    Mr. Calvert. The hearing will be reconvened. First, we will 
recognize Ms. Pingree for her questions.

                         ENDANGERED SPECIES ACT

    Ms. Pingree. Thank you very much, Mr. Chair. Thank you, 
Secretary Jewell. It is a pleasure to have you here before us, 
and I appreciate the hard work you are doing for us in so many 
areas. And I am glad to see some of the questions I care about 
and some of the issues that I wanted to talk about climate 
change have already been brought up. I know you are working 
very hard on the centennial of the national parks, and we are 
excited about that in Maine.
    I wanted to do something that probably is not always the 
right thing to do, but I wanted to say something in favor of 
the Endangered Species Act. I come from a State where we have 
had our challenges with it, and every once in a while I am 
posed with a species that I do not think should be listed or I 
think there are serious questions that should be asked.
    But I have learned over the years that there are times when 
it is a really important tool that we have as an indicator 
species, some plant or animal that lets us know that something 
is going dramatically wrong. And I wanted to use as my favorite 
example of what has happened in my State and so many others 
with the bald eagle.
    When I came to Maine as a teenager, it was almost never 
that you saw a bald eagle. There were 30 nesting pairs in Maine 
in 1967, and as you know, that was one of the first species 
ever to be listed. They were always in a remote part of the 
State. We are pretty clear that the problem had been DDT, which 
was kind of a miracle chemical for all kinds of other pest 
problems, but it turned out to be a real damaging thing for the 
bald eagle.
    It has worked. It has made a comeback. In 2007, we were 
very excited that the bald eagle was actually removed from the 
list, so it took a long time. But now there are 650 pairs of 
bald eagles in Maine, and we see them like we do robins. They 
are outside my house and other people's houses all the time, 
and it just a majestic species, and it has also taught us a lot 
about the particular pesticide.
    I did bring a prop. This was a bald eagle that was sitting 
on the ice outside my office just last week in Portland Harbor, 
right in Maine. So I do think there are times when it is 
critically important, and, of course, I have a species I am 
concerned about, and, again, I am not sure it will qualify for 
listing. It has already been accepted by the Fish and Wildlife 
Service, but the monarch butterfly has diminished in population 
dramatically. And it is one of those species that I think most 
of us learned about them as a kid. We watched them go from a 
cocoon to a butterfly, and we thought it is such a commonplace 
thing. It would never be gone.
    But as you know and so many people know, it is practically 
diminished and practically gone and could be gone soon, and, 
again, it could be an indicator species. I have heard people 
call it the canary in a cornfield because probably it is 
diminishing now because of the lack of milkweed around the 
country. Much of that is because of the effect of roundup and 
GMO ready crops and roundup ready crops that are able to resist 
roundup. So the excessive use of roundup has probably wiped out 
the milkweed, and we may see the end of the monarch butterfly.
    And for a lot of people, they will say, well, ``that is a 
silly thing, who cares.'' But the fact is I do think it is an 
indicator. I think it is telling us a lot of things that we 
needed to know about, just as the bald eagle taught us about 
DDT and other chemicals that were not safe for us in many other 
ways.
    So I will use that as my first question if you want to talk 
anymore about it. I truly understand the challenges that people 
often have, and the difficulties, and the time it takes for a 
listing, and sometimes the concerns that the chair raised that 
there are interest groups who decide it is a way to expand 
their support base. But the fact is it is still a critical 
tool, and if we care about our environment as well as our 
economy, it is something that we have to have.
    Secretary Jewell. Well, thank you so much, Congresswoman 
Pingree, for your support of the Endangered Species Act. I 
think it is easy to make fun of an individual species, but when 
you step back and you look at our greater understanding of our 
ecosystems, and the greater sage-grouse is a good example of 
that right now. So many species depend on that ecosystem 
although inspired by the pressure of time on one particular 
species, it will make a difference for 350 species.
    The bald eagle is a great example. The American alligator 
is another one, and it was mentioned in some of the opening 
comments. Actually this Administration has delisted more 
species due to recovery than any other Administration. I have 
it, and I will find it by the time I get around, or maybe Mike 
can look up how many. I do not want to quote you the wrong 
number.
    But the monarch butterfly is indeed in trouble. There still 
are a lot of them. But the Fish and Wildlife Service is 
actually working cooperatively on this one with Canada and 
Mexico because the migrating monarch butterfly is an 
extraordinary example. We are working with our public lands and 
Fish and Wildlife Service refuges around the country. We are 
working with rights-of-way with the utility industry. We are 
working with the Department of Transportation on road rights-
of-way to plant milkweed, and then there is an effort around 
many communities to do the same.
    The monarch butterfly is one part of a broader strategy 
around pollinators in general, which are in real trouble. There 
is quite a significant amount of effort going on for 
pollinators, of which monarch butterflies are one. I do not 
know, Mike, if you have pulled up numbers regarding the 
pollinators. Do you have them handy?
    Mr. Connor. Not the specific budget investments.
    Secretary Jewell. Okay. But they are in there, and we 
certainly are working cooperatively on the monarch in specific, 
but on pollinators in general.
    Ms. Pingree. Great. Well, I appreciate that. I apologize to 
my colleagues who have to look at the other side of this. But 
just think if we had lost the bald eagle and it did not come 
back. Remember Benjamin Franklin wanted the turkey to be the 
American bird, and that would have been embarrassing.
    Mr. Simpson. Would the gentlelady yield for just a moment?
    Ms. Pingree. Absolutely.
    Mr. Simpson. The monarch butterfly, I have recently had 
several individuals ask me, the comment period ends roughly 
March 1st, or 2nd, or 3rd.
    Secretary Jewell. I do not know. I will have to find that 
out.
    Mr. Simpson. Would you be willing to extend the comment 
period for 60 days?
    Secretary Jewell. Comment period on what specifically?
    Mr. Simpson. On the monarch butterfly.
    Mr. Connor. There is a proposal for a listing.
    Mr. Simpson. Right.
    Mr. Connor. And the Service did a threshold analysis saying 
it deserves further review, so it has not been listed or 
anything. I did not know that we were in the comment period 
yet, so we will go back and find that out and address it. I 
know it is going to get further review and further public 
engagement, but I am not sure we have actually had the comment 
period initiated yet.
    Secretary Jewell. And 11 species were delisted due to 
recovery, and nine are pending delisting proposals, which is 
pretty good. I think there are 22 over time from recovery, but 
only actually two due to extinction of 2,200 species.
    Mr. Calvert. If the gentlelady would yield, I think a 
number of those delisting applications have been going on over 
the last number of years. Is that not correct?
    Secretary Jewell. The 22 over the last, for the 40 years 
since it has been in place, 11 since 2009, half of them.
    Mr. Calvert. Right, but those applications were done many, 
many years ago.
    Secretary Jewell. Oh, many years. Many years, no question 
about it. There was a comment that we are not working on 
delistings. We are working on delistings as well.
    Mr. Calvert. Take, for instance, the Stephens' kangaroo 
rat, which seem to be propagating very happily out in 
California. It has been frustrating that that has not been 
delisted.
    Secretary Jewell. I see. Okay.
    Mr. Calvert. A number of them, but that is just pointing 
out one.
    Ms. Pingree. I yield back.
    Mr. Calvert. Mr. Cole, you are next, but before you begin, 
I just want to let you all know that we are going to proceed 
with member questions in the order members arrived after the 
hearing began. And with that, Mr. Cole, you are recognized.
    Mr. Cole. Thank you. I thought Simpson was going to get a 
third round somehow there. [Laughter.]

                             INDIAN AFFAIRS

    Mr. Cole. It is supposed to be the ex-chairman's 
prerogative. First, I want to begin by, number one, just 
thanking you and thank your Department. You guys have been 
absolutely terrific to work on Native American issues. Frankly, 
you have been terrific across the board in my view, but 
particularly in that area. And as you know, this committee on a 
bipartisan basis has prioritized that, even in very difficult 
budget times, the last 4 years we actually have done more than 
the President asked us to do. I am glad you upped the ante this 
time, particularly in the area of education.
    But as our chairman said, that is going to be particularly 
difficult because your numbers are based on, you know, taxes, 
and fee increases, and mandatory spending changes that are 
unlikely to happen in my view, and frankly are beyond our 
purview as a committee regardless, as much as we would hope 
that we can find some common ground with the Administration 
there.

                           BUDGET PRIORITIES

    Given that, let us assume we have a flat budget again, 
which is, I think, the default position that it is really is 
the BCA. Until we get serious negotiations at a level above, 
you know, anybody in this room with the congressional 
leadership to the President level, I do not think that is going 
to change.
    So assuming that, what are your areas of priority, and, you 
know, where would you like us to put emphasis? We are going to 
have to make some touch touches again, I suspect.
    Secretary Jewell. You may not like my answer.
    Mr. Cole. Well, you told me that yesterday. [Laughter].
    Secretary Jewell. I did, but I did not want to repeat that.
    Mr. Cole. You said if I asked you this question, I would 
get an answer I did not like.
    Secretary Jewell. Well, I think it is pretty clear that 
this budget moves beyond sequestration, which is exactly what 
we believe we should do. My first year in this job was 2013. It 
was a miserable start in this job when we had across-the-board 
cuts. It did not matter how important the work was. The staff 
was demoralized. We were cutting things that should never be 
cut like grant support costs for schools in Indian country 
because of sequestration. I hope upon hope that you and your 
colleagues will move us beyond sequestration because as a 
business person, it is a crazy way to run a country.
    This budget assumes we move beyond that. This budget does 
lay out our priorities. As you heard in my response to 
Congresswoman Lowey, it does not have all the things in there 
we might like. It was not actually easy on any of the bureaus 
to come up with these numbers, and we asked them to prioritize, 
and that is what we reflect here.
    So strong priorities around upholding our trust and treaty 
obligations to Native Americans, particularly education where 
we have been spending money and not doing a good job for these 
kids for many years, and we just have to change that. I cannot 
postpone the National Park Centennial. It is happening in 2016 
whether I like it or not.
    I have heard from many members of Congress about we wish 
you were permitting our oil and gas wells faster. We wish you 
were moving forward quicker on our coal leasing permits. These 
are all things that take resources, and one of the reasons we 
are not as fast as we aspire to be is because our budgets have 
been squeezed, and we are operating with fewer people in some 
of these areas than we were before. No one has reduced the 
complexity for us in terms of what we are required to do.
    We are trying to reduce the complexity to the extent we 
can. Mike is our representative looking at what is it in our 
regulations we have control over that we can make smarter so it 
costs us less time? There are proposals out there like, for 
example, tribal recognition, which is a very long and laborious 
process for us and very expensive for tribes. We are looking at 
making sure that it is rigorous and difficult, but not 
inconsistent, taking forever, and costing millions of dollars. 
We think there are things we can do about that.
    We know there is a lot in this budget that means a lot to 
people, particularly, I would say, across the West. PILT we 
believe should be funded on a mandatory basis. I also, as you 
know, believe that the Land and Water Conservation Fund should 
be fully funded as was intended when it was passed 50 years 
ago. I think there are things we can work on together to 
address some of those things on the mandatory side. PILT 
combined with Secure Rural Schools and LWCF is a good way to do 
that.
    I cannot say to you that we should prioritize tribes over 
the National Park Centennial, or that we should hammer away 
anymore at the BLM budget that it already is when people want 
permits to drill for oil and gas on their lands. This is a 
budget that is not lavish. It is a budget that gets us back to 
doing what I think the American people expect us to do as a 
steward of 20 percent of the Nation's lands and as one of the 
primary points of contact and advocacy for Native Americans. 
And frankly there are things I know people care about--
droughts, floods, stream gauges, Landsat images, U.S. 
Geological Survey is working on induced seismicity and why is 
that happening in Oklahoma, all of those things.
    That is what is in here, and at this point our budget 
reflects our priorities.

                             SEQUESTRATION

    Mr. Cole. And I think that is a fair answer, and I do not 
disagree, and I do not take offense. As a matter of fact, one 
of the reasons I asked the question was so you could make 
exactly the point that you made. But sequester is not a choice. 
It is the law, and it was a law that was not only signed by the 
President. We refer people to go read Bob Woodward's The Price 
of Politics. Sequester was suggested by the President as a 
mechanism. So if we are going to get rid of that mechanism, 
something I agree with you on, quite frankly, because I think 
far too much of the spending reductions come out of the 
discretionary budget. We all know the numbers. I think Chairman 
Rogers quoted them in an early hearing today, $165 billion less 
in discretionary spending than we saw in the last year of the 
Bush Administration. And a lot of my colleagues here sit on 
Defense, and we know what the consequences are there, and we 
are extremely concerned.
    But, again, this was a mechanism proposed by the President. 
And so far, the proposal, I will just tell you--we can debate 
the merits of it--is not going to happen, as envisioned by the 
President. There needs to be an engagement at some level, and I 
would say our side needs to be engaged, too. I do not want to 
put this off entirely on the Administration, but it is going to 
require presidential leadership to do that or we will be back 
at BCA levels. I would just state that for the record. It is 
not where I want to be, but I think that is exactly where we 
are headed unless we get some engagement.
    Maybe we can get a Ryan-Murray type deal again after the 
deal, but my guess is through the appropriations process we 
will appropriate at the BCA levels because I do not see a deal 
coming before then. So, again, I am not going to ask you. It is 
like asking a parent to choose between their children. I 
recognize that you put a lot of work and effort into this, and 
I broadly agree with your priorities to tell you the truth. I 
will say for the record, if it comes down between celebrations 
of national parks and Indians, I know which side I am going to 
be on because people trump celebrations, quite frankly. And 
healthcare trumps these things. Education trumps these things.
    And we have a unique obligation here, a trust 
responsibility, and a treaty responsibility on the part of the 
population that has probably been more neglected than any 
others. And I know there have been plenty of tough stories in 
American history, but this one is particularly sad. And it is a 
particular and peculiar Federal responsibility and a focus of 
this committee.
    So I just want to end with that. I have taken more time 
than I should have. I just want to again thank you. I want you 
to continue to make the point that you make that we are putting 
you, and others, in almost impossible situations, as managers 
of our resources as being in charge of these departments. But I 
think we are doing that, by the way, to Secretary Carter, and 
Secretary Burwell, and I can go through the list. They are all 
having to make choices they should not have to make.
    Unless the President is willing to put something on the 
table that is politically realistic--it does not have to be 
done publicly--then this will happen. This is where are we 
going because it is the law. It is not a choice of Congress. It 
is the law that it has to follow that, again, the President 
recommended and the President signed.
    So I am anxious that we sit down. I think we can sit down 
at some point and get there, but again, I do think from an 
Administration standpoint you can simply propose a lot of 
things that are based on assumptions that, politically 
speaking, are not going to happen. We cannot operate that way 
here. I wish we could. I wish we could. I wish we could take 
your top line and work with you on that. I suspect we would 
come out pretty close to the same place. But I doubt we are 
going to get a 302(b) allocation that reflects the number you, 
and I, would like to see, absent a deal well above our pay 
grade.
    With that, Mr. Chairman, I yield back.
    Mr. Calvert. I just want to use the discretion of the chair 
to say I agree with the gentleman. All three of us are chairmen 
of three different committees--Interior, of course, Energy and 
Water, and Labor. None of want to be in the situation that we 
are in, but we have no other recourse than to follow the law. 
And unless the President and others get together and work out 
some kind of accommodation, we will pass our 12 bills. None of 
us will like it, but that is what we are going to have to do 
because we are obligated to follow the law. And with that, I 
recognize----
    Ms. McCollum. Mr. Chairman, on this point if I may have a 
moment.
    Mr. Calvert. Sure, Ms. McCollum.
    Ms. McCollum. You know, I did not vote for sequestration, 
but I have to work within the law as you point out. And I 
appreciate what my colleague, Mr. Cole said about the President 
being part of the discussion. But we can take the first step to 
end sequestration. We can take the first step as a Congress to 
end sequestration. And, yes, it is going to mean all parties 
coming together, but with one party in the majority in both 
bodies, I think a discussion between the Republican Senate and 
the Republican House to say to the President that they are open 
for lifting sequestration would also be something on which you 
could move forward.
    And, Mr. Chair, to that point, we do not have our 
allocations yet. We are having our budget meetings. Are we 
going to reconvene after we get our allocations again with the 
Secretary?
    Mr. Calvert. We are going through this process of 
oversight, meeting with the various secretaries and various 
committee heads and so forth. I suspect we will have a budget 
number some time end of March.
    Ms. McCollum. And for that, Mr. Simpson, I thank you for 
your service on the Budget Committee, sir, but----
    Mr. Calvert. Me, too. I really appreciate----
    Ms. McCollum. But, Mr. Chair, the point is after we get our 
allocations back, if we need to, are we going to reconvene with 
the secretaries and the agencies if what we have is less than 
sequestration levels?
    Mr. Calvert. We are going to be talking about the 
priorities with the various secretaries as we move along in 
this process. I think we have been very clear from day one that 
we are operating under present law.
    Mr. Cole. Will the gentlelady yield?
    Ms. McCollum. Yes, if the chairman indulges me.
    Mr. Calvert. Certainly, I indulge the gentlelady.
    Mr. Cole. He might not indulge me, but he is probably going 
to indulge you. [Laughter.]
    Just to add one other wrinkle here, and as was mentioned by 
my friend from Minnesota, there is another body here, the 
United States Senate. And they are going to have to come up 
with their budget, frankly something that neither of them on 
either side of the aisle have been particularly good at in 
recent years, no matter who was in the majority. They are going 
to have to reconcile to our budget. So we are probably mid-
April minimum before we actually reach a number.
    And I hope in that process there is some Administration 
involvement because this is not going to happen absent some 
dialogue at some level. We need some sort of format like the 
Ryan-Murray mechanism that was established last time. It has to 
be set up, again, by folks in the Administration and in the 
Congress.
    Ms. McCollum. Thank you, Mr. Chair.
    Mr. Calvert. Thank you. Mr. Kilmer.

                             TREATY RIGHTS

    Mr. Kilmer. Thank you, Mr. Chairman, and thank you, 
Secretary Jewell, for being with us. I would associate myself 
with the comments from Mr. Cole about the importance of our 
treaty and trust obligations to our tribes. Last year, you were 
kind enough to come out to our neck of the woods and meet with 
some of the tribes from our region. And at that meeting Billy 
Frank, the late chairman of the Northwest Indian Fisheries 
Commission, talked about the treaty rights at risk initiative, 
specifically as it pertains to the protection of salmon.
    I was hoping you could speak about what the Department is 
doing under your leadership to protect and advance the 
protection of treaty rights.
    Secretary Jewell. Well, thanks very much, Congressman 
Kilmer, and thanks to you we both saw Billy about 7 days before 
he died, so that was a gift.
    There is no question we are fully committed to upholding 
trust and treaty rights. The process of supporting those rights 
has resulted in the settlement of 82 outstanding trust 
litigation lawsuits, the largest being with the Navajo Nation 
north of $400 million. We want to move past some of the things 
our predecessors, over many years, have not done that we are 
obligated to do as a Nation. I think that illustrates very much 
a new day with tribes in this country.
    The President has hosted the annual White House Tribal 
Nations Conference 6 years in a row, his creation of the White 
House Council on Native American Affairs that he asked me to 
chair, the efforts we are making in Indian education, which is 
a trust responsibility, and doing that by really focusing on 
tribal self-determination and self-governance, recognizing now 
after really many years of being paternalistic that the right 
answers oftentimes rest with the tribes themselves if they want 
to step up.
    I think treaty rights are less at risk than they were, and 
I think pioneers like Billy Frank and his work with the 
Northwest Indian Fisheries Council, standing up, getting 
arrested multiple times about really the rights of the Native 
Americans in the Northwest, to the fisheries, was inspirational 
to many across this country as they stand up for their own 
rights.
    That is our positon on it, and I am very hopeful, no matter 
who is in the White House in years forward, that this momentum 
will continue and we will be really in a new chapter of our 
relations.

                             CLIMATE CHANGE

    Mr. Kilmer. I also want to piggyback on something that Ms. 
McCollum asked about. In the area of Washington that I 
represent, a number of the tribes are dealing with the reality 
of changing landscapes and severe weather events. In fact, we 
have got three tribes that are in the process of trying to move 
to higher ground because of persistent floods and very severe 
storms. At the same time, they have very constrained resources 
financially and are struggling to figure out how they can get 
the funding so that they can protect sacred sites and have some 
semblance of public safety when these floods and storms hit.
    I was pleased to see in the President's budget a number of 
initiatives focused on helping tribal communities, specifically 
with the issue of coastal resilience. But I think this is a big 
deal, and I think we need to do more on this front in part 
because we have a treaty and trust obligation. So give us some 
direction. How can Congress support the need of coastal tribes 
that are struggling to deal with these issues and initiate 
projects that promote public safety and protect sacred sites?
    Secretary Jewell. Thank you for raising everyone's 
awareness on that. For those of you that had an opportunity to 
look at the lead story in the Washington Post today, it is 
exactly about this issue. It happens to be Kivalina, Alaska, 
but it could be the Quileute in Washington State, and many 
other communities that are at risk, including our Insular 
areas, as Congresswoman McCollum brought up earlier.
    We have a modest amount of money in the budget to begin to 
deal with sort of planning and identifying issues specific to 
tribal communities, $8 million in grants that we are about to 
put about. It's $50.
    Voice. It is $8 million that we are about to put out, and 
$50 million in '16.
    Secretary Jewell. Yes, so the 2016 budget has $50 million. 
That is really a competitive grant program to have tribes come 
forward and say, you know, we are here, we would like to be 
able to help, what are your needs and issues. I think one of 
the important things we have to work on is how does that money 
go to the tribes that need it most, not the tribes that are 
most effective at getting grants, because oftentimes they are 
not the same.
    That does not address the issue of potential for 
relocation. You know, $60 billion is what the Federal 
government appropriated after Hurricane Sandy. $60 billion. We 
do not really have a great mechanism for investing up front so 
that we can spend less over the long term. As we look at sea 
level rise and as we look at the vulnerability of our 
communities at a time of a changing climate, I think we need to 
be a little more proactive so we can invest up front as opposed 
to having a catastrophe. It is just a lot easier, I recognize, 
for people to respond to catastrophes.
    But there is money in the budget to continue to make 
progress, to understand and study what the vulnerabilities are 
to help us and those communities prioritize what their best 
next steps are. It is not a lot, but it is certainly an 
important step in that direction.
    Mr. Kilmer. Thank you. Thank you, Mr. Chair.
    Mr. Calvert. Thank you. Mr. Jenkins, you are recognized.

                         STREAM PROTECTION RULE

    Mr. Jenkins. Thank you, Mr. Chairman. Madam Secretary, 
thank you for the courtesy call. How are you today? Good.
    As a new member, I understand the complexities of all the 
hats you must wear, certainly projects, programs, like the 
National Park Service and all. I appreciate the investment, the 
work in West Virginia, the national parks in my district, so 
thank you very much. I want to focus a little bit on the OSM 
and follow up most specifically on Chairman Rogers' 
questioning. I would agree totally with the comments that he 
made. Let me just kind of dive in on a couple of specifics.
    Number one, he referenced a study that indicated that the 
stream buffer zone rule would look at an effect of probably 
saving in the neighborhood of about 15 miles of stream. Is that 
an accurate number?
    Secretary Jewell. That is the first time I had had heard 
that number, so I am not sure where that came from.
    Mr. Jenkins. Based on the work that you all have done in 
the preparation of this rule, what number do you think it is?
    Secretary Jewell. I do not have a number. You know, this is 
really about the hydrology that we have learned about over the 
30 years since the rule has been written, and the very dramatic 
impacts that mining has had on the hydrology, and trying to put 
a rule in place that is more consistent with what we know 
today.
    Mr. Jenkins. Okay. So basically then you are not estimating 
the effects and consequences in terms of stream miles of the 
effects of the rules that you would put into place. I think I 
heard you just say that you do not know what it would be.
    Secretary Jewell. I do not know. That is correct.
    Mr. Jenkins. Do you not think it is important to analyze in 
the rulemaking process as you contemplate different policies 
what the effects of those are? So we may not save any stream 
miles. You do not know.
    Secretary Jewell. I do not know. I know this. We will be 
coming out with an environmental impact statement that people 
will be able to comment on that will be very detailed. I have 
not read that yet. I typically would not until we are close to 
final because there are many more bites of the apple, if you 
will, in terms of comments from the public, from States, and 
otherwise that will be happening once the rule is put out.
    Mr. Jenkins. Your opening statement submitted to the 
committee is replete with comments about economic engines, and 
fair returns, and the growth of domestic energy portfolio. I 
come from a coal district. We have a lot of surface mines in my 
district. Do you anticipate the stream buffer zone rule to grow 
and expand surface mining activity in my State?
    Secretary Jewell. I do not know what its impact will be, 
positive or negative. That will be part of the study that comes 
out. I do know that from public lands largely not in your 
State, public lands in the Rocky Mountains that we supply about 
40 percent of the Nation's coal.
    Mr. Jenkins. Well, the Office of Surface Mining responsible 
for the regulation of surface mine activities in my State, is 
under your jurisdiction.
    Secretary Jewell. That is correct.
    Mr. Jenkins. Okay. So, again, you have been working on this 
rule for some time, and I think you have indicated that you are 
pretty close to having this rule issued.
    Secretary Jewell. That is correct.
    Mr. Jenkins. And at this point you still do not know what 
this proposed rule's impact will have on surface mining 
activity in my State or anyplace else.
    Secretary Jewell. I do not know. Mike, do you have more 
insights into that? I have not read it yet because it has not 
been released.
    Mr. Connor. It has not been released. It will be a proposed 
rule. There will be a lot of public process involved in that 
timeframe. There will be a draft environmental impact statement 
that will weigh out the analyses associated with the rule. 
There will be economic analyses that are a part of that rule, 
but it will be proposed at that time. It has not even left the 
Department, and it is being prepared by the Office of Surface 
Mining.
    So it is very early in this process. Typically with these 
regulatory processes, we make lots of changes between proposed 
and final. I anticipate we will take lots of comments, and we 
will go through that analysis and that input, and we will have 
this dialogue as it continues over the next year to 2 years.
    Mr. Jenkins. But my sense is in developing the proposed 
rule, the modeling should have already occurred. The modeling 
should be conducted in order to develop at least the proposed 
rule, and that if you are getting ready to issue this, I would 
hope that the modeling would have already occurred. But what I 
have heard thus far is you do not know if this is going to 
protect one inch of extra stream. We do not know if this is 
going to have one positive or negative impact on surface mining 
in my State or anyplace else. And to me, it just seems odd that 
we are the top of the 9th inning, and you are here telling us 
you still do not know.
    Secretary Jewell. Let me be clear on one thing. I have had 
a briefing, several briefings, in the course of my time with 
the Office of Surface Mining.
    Mr. Jenkins. Can you tell me how much stream----
    Secretary Jewell. That was not part of the briefing.
    Mr. Jenkins. Was there a briefing on the jobs impact?
    Secretary Jewell. There was a briefing on the economic 
impact. I do not recall the specifics.
    Mr. Jenkins. Let me ask you this. Is there a jobs impact? I 
was an advocate of jobs impact reviews at the State level in 
West Virginia. You know, we talk about environmental impacts. 
We talk about fiscal notes for fiscal impacts, what is the cost 
of government. I am a passionate believer in a jobs impact 
review. There are some incredibly powerful modeling tools, like 
the REMI model and others. Did you do a jobs impact of the 
stream buffer rule proposal, and what is the result of that 
jobs impact?
    Secretary Jewell. So, yes, there was definitely a jobs 
impact by region. I do not recall the specific numbers.
    Mr. Jenkins. Can you get those for me?
    Secretary Jewell. Absolutely. We will be happy to get those 
to you.
    Mr. Jenkins. So we do not know about the stream beds, we do 
not know about the coal mining activity, and we do not know, at 
least here today, what the jobs impact is.
    Secretary Jewell. Yes, the jobs impact is known, and that 
is part of the rulemaking, and they will be released when the 
study is released with the EIS. But I will talk to my team to 
see if we can get any of that to you in advance of that coming 
out.
    Mr. Jenkins. You talk, and, again, your comment earlier, 
``our budget reflects our priorities.'' And your priorities, 
you have listed throughout things like climate change, and you 
are talking about making targeted increases to carry out that 
climate change agenda. And you talk about this Power+ Program 
and the money from the Abandoned Mine Fund.
    What in this budget invests in the West Virginia 
communities, like Chairman Rogers' from Kentucky, that have 
been decimated by the loss of coal jobs? We, too, are in the 
8,000-, 9,000 jobs lost because of this war on coal. And so, 
throughout I see you keep promoting your climate change agenda, 
and you say that your budget reflects your priorities. I think 
your priority is the climate change agenda, and that you are 
putting money into furthering that agenda. You talk about 
communities and wanting to help people and help communities. It 
is wiping out southern West Virginia, Madam Secretary. And the 
rule that you are being charged with crafting is going to have 
a devastating impact and exacerbate the problem. What are you 
going to do for us?
    Secretary Jewell. May I respond?
    Mr. Calvert. Please let the gentlelady respond.
    Secretary Jewell. First, I want to reassure you I do not 
and neither does this Administration have a war on coal. I 
appreciate that many of the communities in Appalachia, in West 
Virginia, and Kentucky, and other communities are hurting. I do 
appreciate that. Much of the easy coal in this part of the 
country has been obtained, and so the economics are changing as 
well. I also appreciate we have had impacts from coal mining in 
this region. We have learned alot over the last 30 years, so we 
are trying to update the regulations, but certainly not 
undermine an important industry.
    We have the Power+ proposal in the President's budget. It 
accelerates a billion dollars from the Abandoned Mine Land Fund 
to put specifically into work in the communities that have been 
so impacted, like the ones you referenced in West Virginia and 
in Kentucky.
    Mr. Jenkins. Can I ask you one quick question? Chairman 
Rogers, or maybe it was another member, said that Power+ cannot 
be implemented under the current statutory structure in that 
the money from the Abandoned Mine Fund can only be used for 
reforestation. So is it accurate to say that the President's 
proposal to use money for these Power+ projects cannot occur 
without congressional action?
    Secretary Jewell. I believe that is true, and I also 
believe that with the funding source, I do not believe this 
will score. I think that there will be members of the House and 
Senate along with the Administration that should align on this 
proposal, and that will be our strong recommendation.
    Mr. Calvert. Mr. Joyce.
    Mr. Joyce. Thank you. Hello, Madam Secretary, and thank you 
very much for the call last week. I am sorry we did not touch 
base.

                   GREAT LAKES RESTORATION INITIATIVE

    I just wanted to follow up on the President's 2016 budget. 
He requests $250 million for the Great Lakes Restoration 
Initiative, or the GLRI. This current Fiscal Year, the GLRI 
receives $300 million in appropriated funding. Given that the 
Department of the Interior has been the number two recipient of 
funds from the GLRI, how is this proposed $50 million decrease 
expected to impact the Department and its Agencies' work in, 
among other things, restoring habitat, performing invasive 
species research, monitoring and control, and providing 
technical assistance?
    Secretary Jewell. I am going to ask Mike to find the 
specifics on the GLRI because I do not want to keep scrambling 
through my paperwork. We believe strongly in the work that is 
happening in the Great Lakes. We have had a significant 
increase in this budget request for invasive species and, say, 
of one species, and that goes to the Asian carp, which is one 
of the greatest threats we have to the ecosystem up there.
    There is about a $2.4 million increase in the Fish and 
Wildlife Service budget, and we have got an ongoing almost $6 
million in USGS, so a total of about $14 million for Asian carp 
specifically. That is continuing to advance the science and the 
ability for early detection and so on in the Great Lakes.
    Mr. Connor. Yes, of the $250 million that EPA has 
requested, we have a request for $68.2 million for the Great 
Lakes Restoration Initiative. Of that, we have $42.6 million in 
the Fish and Wildlife Service budget for coastal wetlands and 
national wildlife refuge activities, which is actually $2.5 
million more than we had previously.
    In some cases we have a little bit of an increase. I do not 
have a delineation of the impacts of the minus $50 million that 
you referenced, and we can dig down a little deeper and get you 
that information.
    Secretary Jewell. Yes, that may be on the EPA side of the 
budget. I am not familiar with that.
    Mr. Joyce. But you receive a good portion of that. That is 
why I wanted to go through this issue because our President is 
from Illinois along the Great Lakes, and the GLRI is a 
tremendous bipartisan initiative. Last year he proposed funding 
it at $275 million, and this year he proposed funding it at 
$250 million. That number keeps decreasing, and the number 
should be set a lot higher than that, because of the bipartisan 
nature. The GLRI is currently funded at $300 million, and we 
are hoping to continue that success, and you will be a 
recipient of that. We are fighting for you.
    The GLRI has provided approximately $1.96 billion toward 
restoration efforts since its initial year of funding in FY 
2010. As of August 2014, it has spent $1.23 billion on 2,214 
projects in the Great Lakes ecosystem. GLRI funding had led to 
the de-listing of three areas of concerns: Presque Isle Bay, in 
Pennsylvania, Deer Lake in Michigan, and White Lake in 
Michigan. The funding has also been used to complete all 
necessary remediation and restoration activities at three areas 
of concern in 2014, one of which is the Ashtabula River in 
Ohio. I was there on the day it was being de-listed.
    This is the final step before this legacy pollution area 
can be delisted entirely. Given, Madam Secretary, the progress 
made in completing all of the necessary remediation and 
restoration actions, I request that you advise as to what 
support will the Department of the Interior and its services, 
such as the Fish and Wildlife Service, as part of the Great 
Lakes Interagency Task Force provide to Ashtabula and the 
surrounding watershed should the area of concern be fully 
delisted. What post area of concern support will be provided to 
these communities?
    Secretary Jewell. I will give you a quick answer, and if 
you want more detail, I will get somebody that has got a little 
more detail to go through that with you.
    We will continue to work on these resources, even if they 
are no longer listed as areas of concern, so there is an 
example here. USGS has been the science lead for siting 
constructed fish spawning reefs in rivers feeding the Great 
Lakes, and evaluating their contribution to the restoration of 
iconic species, like the walleye and the lake sturgeon.
    Spawning reefs are an important contribution to de-listing 
the areas of concern, a centerpiece of the GLRI. We have 
delisted them because of activities that have worked. We are 
going to continue those activities there. We are going to take 
this learning into other areas, and hopefully address the long-
term needs of the Great Lakes. There are lots--mussels, Asian 
carp, mercury accumulation, challenges in the wild rice harvest 
which I have heard about from native tribes up in that area. 
There is work in every one of those dimensions as part of this 
in our Department.

                               ASIAN CARP

    Mr. Joyce. One last question if I could. The funding 
numbers from 2009 to 2013 show that more than half a million 
dollars went toward efforts to prevent the spread of Asian carp 
between the Ohio River and the Great Lakes basins. Moving 
forward, what is the timeline for establishing an entity 
similar to the Asian Carp Regional Coordinating Committee for 
the Ohio River Basin? What levels of support, both financial 
and technical; resources are planned for the Ohio River Basin 
Asian carp efforts in the 2016 budget?
    Secretary Jewell. I do not think we have that kind of 
specificity, do we, Mike? Do you know?
    Mr. Connor. I think we have our overall program numbers 
with respect to Asian carp investments in science and control 
and monitoring between the USGS and the Fish and Wildlife 
Service. That is the $14 million overall, of which about $6 
million is for USGS, and the balance is for Fish and Wildlife 
Service. But I do not have it broken down into the Ohio section 
of that. I think we can get you those details.
    Secretary Jewell. Yes, we can have the Fish and Wildlife 
Service get back to you. I do not know about what----
    [The information follows:]

                               Asian Carp

    The funding proposed for Asian carp work in the Great Lakes is 
allocated to specific projects during the year of execution, 2016.

    Mr. Joyce. The Fish & Wildlife service has been very good 
about cooperating.
    Secretary Jewell. Okay, great.
    Mr. Joyce. I am not trying to put you on the spot. We just 
need help. And I yield back.
    Mr. Calvert. Thank you. Mr. Stewart.
    Mr. Stewart. Thank you, Madam Secretary. Again, I 
appreciate, like other members, the call. We had the 
opportunity to talk last week. I suspect you may not look 
forward to these hearings as much as we look forward to them. 
[Laughter].
    Secretary Jewell. I thought you were going to say as much 
like hiking in Utah, for example.
    Mr. Stewart. Yes. It is a tough job. I mean, all politics 
are local, and this is particularly true of this committee. 
Most of us represent some interest that is very important to 
our State, our district, in some cases, and I imagine you feel 
like you get grilled. We have Secretary Kerry upstairs, which 
we are kind of bouncing back and forth. This hearing is harder 
for you so far than his hearing has been for him because of 
that one reason, because of that intense local interest. But 
they do have some important projects to my district that I 
would like to talk about in my State.

                               PRARIE DOG

    I would like to start out with some good news, and 
congratulate you and thank you, if I could. And that is we have 
had real success in a local ESA issue, the prairie dog in Utah. 
Neil Kornze and Dan Ashe have been good to work with us. We 
have made more progress in 8 months than we have made in 20 
years, and we hope to have a conclusion to that, and we are 
grateful for the consolidated effort that we have had in moving 
that forward.

                              WILD HORSES

    I would like to mention just very quickly that we look 
forward to the same kind of success with the wild horses 
issues. It is a huge deal. I mean, they are doubling every 4 to 
5 years. You know that. If you love these animals like I do, 
and I will bet you do. I grew up on a farm and ranching, and 
you see the health of these herds. It is not good for the 
animals, and it is not good for the environment or the range.
    And we believe that we have to have a much more aggressive 
approach to that than what we have seen so far, and we would 
encourage you to look at that, if you would, please. A 10- to 
12-year plan just simply will not work when these horse herds 
are doubling every 4 to 5 years.

                               JUAN PALMA

    And the last thing as far as good news, and that is to 
thank you for the State director there, Juan Palma, who has 
recently retired, he has been excellent. He understands the 
people, the culture. He understands the issues. And I hope that 
your replacement for him will be nearly as good because he has 
been a real advocate that we felt like we could work with.
    So now, the bad news, if you would.
    Secretary Jewell. Keep going. [Laughter].

                          BLM LAW ENFORCEMENT

    Mr. Stewart. Good news and bad news. And I will mention 
these quickly and ask you to respond. I know some of them you 
may be able to, maybe not. One of them is a real concern for 
us, and that is BLM law enforcement, and some strife that we 
have with local personnel, especially the State director. He 
does not answer--I am sorry, the State law enforcement 
director, who has no accountability to the State BLM director. 
And I will just tell you he has lost the trust of local law 
enforcement. He has lost the trust of community leaders and of 
communities in general, and I do not know how you fix that. I 
just think we have to make a change. I do not know if you are 
aware of this before, and I do not want to go into it any more 
than this. But we would ask you to look at that if you have 
not. Are you familiar with this issue there?
    Secretary Jewell. I am familiar, and I will say that I am 
not going to get into personnel matters here.
    Mr. Stewart. I understand, yes.
    Secretary Jewell. But, yes, I am familiar.

                           ENERGY DEVELOPMENT

    Mr. Stewart. Okay, thank you. And, again, we would ask for 
your consideration on that. The second thing would be a problem 
we have with energy development, which I know it is not the 
first time it has come up in this hearing. We have specific 
examples: coal mines in my district in the State, as well as 
some oil and gas.
    But the problem we see is that they will go through the EIS 
or the NEPA process. They will make good progress. As I said, 
we have a good team and a good coalition between those teams on 
the State level. But then it comes to Washington, and it gets 
sucked into this big black hole where we hear very little from 
it after that. There is very little progress. As an example, 
there has been a supplemental draft EIS that has been here in 
D.C. for more than a year, which is far too long. This is 350 
jobs in a rural part of the State. That 350 jobs has an 
enormous impact. I mean, it would be like 100,000 jobs here in 
the District.
    And I would just ask for your support and commitment to try 
to expedite some of those activities, particularly with the 
Alton coal mine.
    Secretary Jewell. Okay.
    Mr. Stewart. And, again, I will not ask you to respond, 
Madam Secretary. It is just you know way down on your radar, 
but your help would be greatly appreciated on that. And the 
final comment on that, we are not asking for any special 
consideration. We are not asking for any exclusions. We are 
just asking for the process as it is outlined by regulations 
and by law to work, and right now it is not. It is going much, 
much more slower, and much less responsive than I think that 
you or anyone else would find adequate.

                          CENTRAL UTAH PROJECT

    And the last thing and then I will be finished, Mr. 
Chairman, and that is essentially the Utah water project. The 
Federal government actually owes my State $48 million. The 
funding on this got cut from $36 million a year to $6 million, 
which allows us to do nothing other than just to keep the 
contractors on hold. Do you know why this funding was cut so 
dramatically for the State of Utah for this project, and can we 
hope that that will be replaced in the next year?
    Secretary Jewell. I am going to let Mike answer that last 
question first, and I would like to make a quick comment on 
some of the other stuff if that is all right?
    Mr. Stewart. Yes, please.
    Secretary Jewell [continuing]. Because Mike has been very 
intimately familiar with CUPCA.
    Mr. Connor. When we had CUPCA in the budget around 2012, 
2013, we really ratcheted back on the Central Utah Project 
under the theory that projects we were paying for and getting 
repayment from or where we were cost sharing a certain 
percentage of the costs, and local entities were coming up with 
the balance, were a lower priority than other obligations we 
had. I think you may remember we cut back to, I think, $3 and a 
half million a couple of years ago. Since that time, that has 
sparked.
    We are trying to build that back up because I think there 
were some very productive discussions with the conservancy 
district out there. I think if we could complete the Utah Lake 
system, that triggers repayment to the Federal government. I 
think it makes financial sense for us to do that, and then work 
out a new cost-sharing strategy. I think we have been in good 
discussions. It is something I want to continue to work on 
during the next couple of years because I think it makes sense 
for everybody if we can bump back some funding.
    Mr. Stewart. And if I could just reiterate that because 
that is absolutely true. You took my words exactly. This is in 
everyone's interest to have this project complete. The Federal 
government, the State repays this substantial amount of money. 
We are all interested in conserving water especially in the 
West, especially now under drought conditions. There are 
positive environmental outcomes that comes from this as well. 
But we cannot do it with the funding that is provided in the 
last few years.
    Mr. Connor. Yes.
    Mr. Stewart. And, Madam Secretary, did you want to respond 
to some other----

                           ENERGY DEVELOPMENT

    Secretary Jewell. Yes, just quickly. On the energy 
development side, because you got this to us in advance, we did 
a little bit of background research. This may not be a 
satisfactory answer to you.
    Mr. Stewart. I will just stop you there then and turn my 
time back over to the chair.
    Secretary Jewell. Well, no, let me just say, in the Alton 
coal situation, because we have got a massive effort right now 
that we are undertaking around the greater sage-grouse, they 
need to do a review of how that mine impacts sage-grouse 
habitat. That is not normal, you know. This is an unprecedented 
effort, and we have all these BLM plans that are undergoing EIS 
right now, and we just need to cross check those, too. So that 
is what happening there.

                               JUAN PALMA

    On Juan Palma, he is fantastic. I cannot say we can replace 
him, but we are sure as heck going to try. But we have a lot of 
people retiring with a lot of experience, and it is one of the 
biggest risks that we have frankly.
    Mr. Stewart. Yes. Well, I know you will miss him. And just 
in conclusion with the sage-grouse and the coal mine, what we 
would ask for as a minimum is just some predictability because 
it seems to us that the process is excruciatingly slow, and 
that things change mid-stream. We are told X, and 6 months we 
are told Y, and then we are told Z, and that is very 
frustrating for everyone, I think.
    Secretary Jewell. I get that, and I think that we are very 
much in a different place right now than we have been in this 
process through a huge amount of hard work on the part of the 
States, and my team, and BLM, and the Fish and Wildlife 
Service. Hopefully that will be in the past.
    Mr. Stewart. Thank you, Madam Secretary.
    Secretary Jewell. Thank you.
    Mr. Calvert. Mr. Amodei.
    Mr. Amodei. Thanks, Mr. Chairman. Madam Secretary, thank 
you for your reaching out. I also want to say a few months ago 
I would have thought maybe in speaking like Mr. Stewart did, 
this might be more fun for us than you. And I am thinking it is 
probably not much fun for anybody.

                             WILDLAND FIRE

    But I want to thank you for your leadership. You say why is 
this guy saying that? And, you know, we have been working on 
this issue since I got here, which seems like about 41 years 
ago instead of 41 months ago. And, you know, things have 
started in the intermountain West where you sit there and you 
take the facts. And I kind of want to go on the things change 
mentality where you take the facts, and go, wow, Secretarial 
order. It talks about the importance of suppression. It talks 
about the order of fuels management. It talks about the 
importance of habitat restoration. And I am thinking, that is 
pretty good. Head person at the Department of Interior. Yay, 
thank you from Nevada.
    And you say, why is that? Because Nevada is a State, as you 
well know--you indicated in your testimony yesterday--87 
percent owned by the Federal government, not all by the 
Department of Interior, but a lot of it. And you say, why do we 
have a habitat problem? We have a habitat problem because our 
indication from the BLM is that we have burned between six to 
seven million acres in the last 20 years, not that it's 
anybody's fault, but that is just the fact. That is a lot of 
acreage. You start out with 56 million, and we have burned six 
or seven million. And so, you sit there and go, we got to 
address fire. And so, you have done that, and I appreciate 
that.
    But when Chris talks about things changing, we sit there, 
and Neil the Director of BLM and his folks are modifying their 
Resource Management plans and all, great. But I am sitting here 
going, the number one threat, and I do not think there is much 
argument about it, is catastrophic wildland fire. And so, when 
I sit there and I look at things like we have to limit or 
prohibit surface disturbance, and the map focuses on these 
three million acres, I sit there and go, so we ask BLM, how 
many acres have those district managers and those Forest 
Service district rangers permitted for anything in the last 20 
years? A couple hundred thousand, mining, recreation, etc.
    And I go, okay, that is well and good. But when I look at 
those threats and I see Director Ashe's people going we need to 
exclude this from these three million acres, I go, you know 
what? If that would solve the problem, if that would stop the 
lightning from striking, if that would stop the moisture from 
being low, if that would stop the wind from blowing, then let's 
do that. But I try to connect the dots on that stuff, and I go 
absolutely you should manage those manmade things. But the 
primary thing, if I am saving priority habitat is I need stop 
the primary threat first. Thank you for acknowledging and 
concentrating on that.
    So my first question is, do you have any influence with the 
folks at Fish and Wildlife Service in terms of secretarial 
order? Before you answer, guess what Exhibit A is going to be 
when I talk to Dan? Hey, Dan, that Sally person that is a few 
floors above you seems to think that fire is pretty important, 
and she is talking about restoration, and she is talking about 
fuels management. And the reason that is important is because 
nobody wants to continue to lose habitat, and that is going to 
stop the major source of habitat fragmentation.
    And so, when you deal with that directly, I think that is a 
pretty strong fact for those guys in Fish to go, you are right. 
And I like your word ``unprecedented.'' So how is 
communications going with Fish on fire?
    Secretary Jewell. Communications are great with Fish on 
fire.
    Mr. Amodei. Good.
    Secretary Jewell. We need strong State plans. We need 
strong Federal plans. The Federal plan is a higher need in 
Nevada than it is in Montana just, you know, based on the land 
distribution. We have big issues with fire in Nevada, in 
Oregon, in Idaho, and I have seen that on the landscapes. We 
have different issues in Wyoming. What we are trying to do 
collectively in support of what the Fish and Wildlife Service 
needs is to feel confident the habitat will be okay for the 
species is certainty.
    My secretarial order gives them certainty we are 
prioritizing our resources on rangeland fire so they can say 
this is in writing, there has been action, and we can rely on 
that. When the Governors of the States issue executive orders, 
as has happened in a number of States, the Fish and Wildlife 
Service will look at those executive orders. If they are 
written in the way we hope they are, we are working closely 
together with the States, they can say, all right, there is an 
executive order in place. We can count that.
    It will also say when you look at the historic range of the 
sage grouse and you look at the current range, the biggest 
challenge is habitat fragmentation. There is a lot less habitat 
than there used to be, and the habitat that remains that is 
strong so it has not yet been burned is really important to 
maintain. That is where the surface disturbance issues come in.
    If there is strong critical habitat right now, we do not 
want to disturb that by fire or by development, so we want to 
work with those critical areas and the States to say, how does 
that align with where the minerals are, for example, or not? 
Are there places that we can direct development where there is 
less impact? And this is really landscape level on the grandest 
scale that has probably ever been done in the United States, 
and there has been excellent cooperation in the States.
    Mr. Amodei. And I would agree, and I appreciate that. I 
think the point that I would like to make in closing is this. I 
think your BLM district manager and your Forest Service rangers 
historically have done a pretty good job. We have almost no 
sheep left. Cows are down 20 percent for reasons that are not 
really much to do with you folks, other stuff. But when we sit 
there and you hear about things from other districts about 
things change, and it is like, listen, there has been a lot of 
money spent in Nevada on mapping. That is a good thing. We need 
to know where the resources are.
    So when you go from COT to Fish and Wildlife to coates, and 
then a map comes out with three million acres that is kind of 
on the Idaho-Oregon-Nevada border, this three million acres is 
critical. You are like, listen, I do not know whether it is or 
it is not, but it is a little late in the process to be going 
to a new map that is offered by Fish when the State spent 
$800,000 to create their own.
    So, now to Dan's credit, in the meeting we had a little 
while ago he says, hey, we are coates. But when you look at 
non-Federal habitat, a bunch of stuff has come up in the last 
90 days where you are going where has this data been for the 
last 3 years? So I would just ask that you continue to show 
leadership and allow everything to be on the table, but we have 
to show some leadership in terms of where the threats are, and 
be transparent in our processes in terms of where something 
comes up.
    Thank you for your access and for the access of your staff. 
It has helped us to try to focus on the facts, and we look 
forward to working with you.
    Mr. Calvert. I thank the gentleman. Mr. Simpson has a quick 
question for you.

                   BUREAU OF INDIAN EDUCATION SCHOOLS

    Mr. Simpson. I just have a quick question. And, first of 
all, thanks for coming out to Hopi Navajo land with us and for 
your staff for coming out. It was very educational for all of 
us that were there. And thanks for the budget that you put in 
Indian education. It is very important to this committee.
    A recent newspaper editorial in the Minneapolis Star 
Tribune stated that while the President's Fiscal Year 2016 
budget requests additional resources for school construction, 
it would still take an estimated 30 years to replace all BIE 
schools that need rebuilding. Why did the Administration not 
request enough money, and is that true?
    Secretary Jewell. You want to pile on with the same 
question?
    Ms. McCollum. My new brother from Minnesota. [Laughter].
    Secretary Jewell. Yes, your new brother from Minnesota.
    Mr. Simpson. I just believe everything that comes out of 
Minnesota.
    Secretary Jewell. The Minneapolis Star Tribune did all of 
us a service by shining a national spotlight on this issue that 
the committee is well aware of. The short answer is it makes 
progress, continued progress, but it is nowhere near what we 
need to do to fix this problem. I look forward to working with 
you on a longer-term solution that gets the kind of money in 
the budget, and more creativity on how we might go about using 
different sources to address these challenges we have with 
schools.
    We do have money to build the remaining schools on the 2004 
list. We are in the process of coming out with a final criteria 
on how to prioritize the remaining schools, and we will make 
progress on planning for the top ones on the list with this 
budget. But this is really a drop in the bucket compared to the 
bigger problem, and we are going to need to work with you on a 
longer-term solution.
    Mr. Simpson. Thank you, and thank you for the efforts and 
support you have done on wildfire fighting. It is very 
important to us. And also the link to try and fund LWCF and 
PILT is very important. So thanks for the job that you do and 
your staff. They do a great job. Thanks.
    Mr. Calvert. Ms. McCollum, any parting comments?
    Ms. McCollum. Just thank you very much to you, Madam 
Secretary, Deputy Secretary, and the staff for all the 
preparation and outreach you did on the meeting. Mr. Chairman, 
I will be submitting a question for the record on inspection 
fees because I want to understand more on how oil and gas 
inspection fees can protect the environment and keep us from 
having a potential disaster, which would set everything 
backwards. So, Mr. Chair, with that, I will be submitting that 
to the record, and I thank you for your courtesy.
    Mr. Calvert. I thank the gentlelady, and I am sure there 
will be a number of questions that will be submitted for the 
record. And so, we will be getting that from members for the 
Secretary to answer.
    Given votes and your schedule, we are going to adjourn the 
hearing. Before we do, I want to mention that members will have 
additional questions, as I mentioned earlier, and they will 
submit those for the record.
    Mr. Calvert. We thank you for your time and your courtesy. 
This hearing is adjourned.
    Secretary Jewell. Thank you.
   
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
   
                                       Thursday, February 26, 2015.

                    ENVIRONMENTAL PROTECTION AGENCY

                               WITNESSES

GINA McCARTHY, ADMINISTRATOR, ENVIRONMENTAL PROTECTION AGENCY
DAVID BLOOM, ACTING CHIEF FINANCIAL OFFICER, ENVIRONMENTAL PROTECTION 
    AGENCY

                  Opening Remarks of Chairman Calvert

    Mr. Calvert. Good afternoon and welcome to the fiscal 2016 
budget hearing for the Environmental Protection Agency. Before 
we begin I just wanted to let everyone know that we are 
expecting votes at some time. I do not know when. So I hope we 
can get through the opening statements before then and I hope 
that there are only two votes, so we will just have a short 
recess and come right back. I would like to thank everyone in 
advance for their patience.
    Good afternoon and welcome to the fiscal year 2016 budget 
hearing for the Environmental Protection Agency. Today we are 
joined by Administrator Gina McCarthy and Acting Chief 
Financial Officer David Bloom to discuss the President's 
proposal for EPA's FY 2016 budget. Welcome to the both of you.
    Last year, the President proposed a budget that operated 
within the boundaries of the bipartisan Ryan-Murray Budget 
Agreement that established how much the Federal government 
could spend. That budget proposal offered some choices which we 
agreed with and many others which we did not agree with.
    This year, the President sent a budget to Congress that 
substantially increases both the national debt and the deficit, 
and fails to balance. Also with this year's budget the 
administration has shown a willful ignorance for existing 
spending caps by proposing to spend $74 billion more than what 
current law allows. It is out of bounds and it offers 
unrealistic expectations for discretionary spending. Therefore, 
I suspect that a policy discussion will dominate today's 
hearing given that there is little merit in discussing the 
agency's proposed budget in depth.
    EPA's budget request is $700 million more higher than it 
was last year. I am skeptical that the agency needs $700 
million more than last year's request, but there is an 
additional $74 billion in the President's budget, so it had to 
be spent somewhere. If enacted, this would be EPA's third 
highest budget ever, falling behind fiscal years 2010 and 2011, 
and we have no interest in returning to those spending levels.
    The agency is proposing to hire more lawyers to work on 
more rules in what would be the largest regulatory budget ever. 
Meanwhile, the budget again proposes cuts for water 
infrastructure and Great Lakes funding.
    Further, the budget again proposes to cut diesel emission 
reduction grants despite the fact that only 30 percent of 
trucks and other heavy-duty vehicles have transitioned to 
cleaner technologies. We need to follow the science and 
increase funding for the DERA Program to accelerate the 
replacement of older engines with newer, cleaner engines.
    So for a multitude of reasons, the President's budget is 
not a serious proposal. It cuts bipartisan programs in order to 
fund a partisan agenda. Thankfully, Congress will have the 
final say.
    Turning to policy, you may recall that we had a lengthy 
debate last year about the proposed Waters of the U.S. Rule, 
which I believed helped alert the general public to several 
critically flawed assumptions and proposals within the rule. 
That debate has intensified, to say the least, throughout the 
past year, prompting more than one million public comments on 
the proposed rule and congressional direction to EPA and the 
Corps of Engineers in the fiscal year 2015 Omnibus to withdraw 
the interpretive rule.
    Also, debate has continued on the greenhouse gas power 
plant rules, prompting some serious questions about whether EPA 
has the legal authority to embark on what had been proposed, 
and those legal questions remain unresolved. When the President 
directed your agency in June 2013 to propose a rule to regulate 
greenhouse gases from existing power plants by June 1, 2014, 
then it is clear that the White House has little interest in 
how the rule is structured, what the rule says, or the impacts 
the rule has on American jobs. The White House is more 
interested in circulating a regulation on a timeframe that is 
convenient for a term-limited administration.
    Similarly, when the White House directs you to finalize a 
regulation by June 1, 2015, then I question whether the 
administration has any interest in giving you the time you need 
to incorporate what the States and public have to say. The 
White House has locked your agency into an arbitrary deadline 
in order to lock the rest of the country into yet another bad 
decision on its watch.
    Just last month, the agency indicated that more time was 
needed to review more than one million comments on the 
greenhouse gas rule. And shortly thereafter, some groups 
criticized EPA for stalling. The June 1st deadline is a 
manufactured deadline. The agency is trying to do too much too 
fast and the consequences will be too costly.
    So we disagree in the strongest possible terms with the 
agenda this administration has adopted for your regulatory 
programs. This anti-jobs, pro-regulatory scheme has forced the 
agency to set aside day-to-day permitting operations consistent 
with your statutory responsibilities in order to pursue a 
grossly unpopular agenda that, if implemented, would be 
devastating to our national economy.
    You have a tough job, Administrator McCarthy, and I know 
you are going to have to defend the indefensible here today. We 
all want clean air and clean water and a strong, robust 
economy. It is not a Republican or Democratic issue, and I know 
that is something you have often said. We both want a healthy 
environment and job creation, and we just disagree on the best 
way to achieve those outcomes, but it starts by living within 
our means. The people I represent in California have to live on 
a budget that reflects what they can afford and so, too, does 
the Federal government.
    Now, I know all the Members are interested in discussing 
various issues with you today, so I will save additional 
remarks for the period following your testimony. I am pleased 
now to yield to my friend and our distinguished Ranking Member, 
Ms. McCollum.

                    Opening Remarks of Ms. McCollum

    Ms. McCollum. Thank you very much, Mr. Chairman. And I join 
you in welcoming Administrator McCarthy to the subcommittee 
this afternoon.
    The Environmental Protection Agency has a vital and 
important mission: protecting human health and the health of 
our environment. And that means clean air and clean water for 
our families and for our children.
    The EPA does not exist to kill jobs. Rather, the EPA plays 
a critical role in our economy. The EPA does this by leveling 
the playing field, ensuring that honest, hardworking men and 
women and their families do not have their lives or livelihoods 
put at risk by unscrupulous polluters. It also provides clear 
and consistent regulation to tackle complex issues across State 
and national borders.
    In 1990, Congress amended the Clean Air Act so that the EPA 
could address acid rain, urban air pollution, and toxic air 
commissions. Through a coordinated effort with industry, State, 
and local governments, the EPA has made substantial progress in 
all of these areas. Nationwide air quality has improved 
significantly and there has been a dramatic reduction in the 
effects of acid rains in our community.
    The EPA succeeded in addressing some of this country's most 
intractable environmental challenges and now it must turn its 
attention to the most pressing environmental crisis of our 
generation: climate change. The effects of climate change are 
real and they are being felt by Americans every day. According 
to NASA, climate change is causing drought, increasing forest 
fire frequency in the west and flooding in the Midwest, and 
declining water supplies in the Southeast. In fact we are 
spending more and more money in other parts of the Interior 
bill to cope with the devastating effects of climate change.
    Since 2013, fire costs have risen in the Interior bill by 
$1.5 billion. In addition to that, in fiscal years 2013 and 
2014, we also had to provide over $1 billion to repay fire 
costs in previous years because the fire outpaced the 
appropriated amounts. It's raging wildly.
    It makes no sense for us to shortchange the EPA or the 
funds necessary to address the challenges of climate change 
when a strong Interior budget depends upon reducing the 
disastrous impacts of climate change. The President's fiscal 
year 2016 budget requests $8.59 billion for the EPA. That 
amount is $451 million above fiscal year 2015.
    Administrator McCarthy, it is very encouraging for me that 
this is the first time that the EPA is requesting an increase 
in its appropriation. With the way that the EPA has been 
targeted for cuts over the past decade, this increase, in my 
opinion, is desperately needed. Adjusting for inflation, even 
the requested increase would still put the agency almost $1 
billion below its funding level in 2005. I want to say that 
again. Adjusting for inflation, we're now $1 billion below 2005 
funding levels in 2015, a lost decade.
    The EPA has been significantly constrained by sequestration 
and has weathered furloughs and significant workforce 
reductions. Currently the EPA staff is at historic lows, 
equalling those of the 1980s. The EPA's proposed budget 
increases in other areas are for important investments, 
dedicating $85 million to addressing the threat from climate 
change and providing an additional $105 million for grants to 
states and tribes, so that they can implement their own 
environmental programs.
    I'm particularly pleased to see an additional $30 million 
has been proposed for brownfields redevelopment. This funding 
provides an opportunity for communities to clean up pollution 
and toxins in their neighborhoods and put brownfield sites back 
into productive use and create jobs.
    Conversely, I am concerned though that the administration 
is backing off its commitment to the Great Lakes by proposing a 
$50 million cut from the Great Lakes Restorative Initiative. 
The Great Lakes Restorative Initiative has made measurable 
strides in protecting and restoring the Great Lakes' ecosystem. 
As a result of this funding, approximately 100,000 acres of 
habitat have been protected or restored. Twenty-one Beneficial 
Use Impairments have been removed, which is almost triple the 
number removed in the preceding two decades.
    President Obama's pledged $5 billion for the Great Lakes 
Initiative during his time in office--however, I would point 
out, just under $2 billion has been appropriated. So we're far 
from achieving the President's target. Much work remains to be 
done. So I'm very concerned about the proposed cut. This 
program is one of the few EPA programs that enjoys great 
bipartisan support. So I look forward to working with the 
chairman to resolve these cuts. Mr. Chairman, I thank you for 
the hearing today. I look forward to working with you, to do 
our part in tackling our nation's most pressing environmental 
needs. And with that, Sir, I yield back.
    Mr. Calvert. I thank the ranking member and we're pleased 
to announce our chairman of the full Appropriations Committee, 
Chairman Rogers is here with us today. Thank him for taking 
time to be here. Chairman Would you like to make any opening 
remarks?

                   Opening Remarks of Chairman Rogers

    Chairman Rogers. I would Mr. Chairman. Thank you very much 
and thanks for doing a great job of chairing this important 
subcommittee.
    The Environmental Protection Agency was created for the 
purpose of protecting human health and the environment by 
writing and enforcing regulations based on laws passed by the 
Congress. States like Kentucky have benefited from a number of 
partnerships with EPA over the years. For example, your agency 
has provided much needed grants aimed at preventing radon 
related lung cancer in Eastern Kentucky.
    You've also worked collaboratively with the Kentucky Rural 
Water Association to ensure the cleanliness of our drinking 
water and upgrade waste water systems. My constituents and I 
have been supportive of these programs and our partnership in 
these efforts for years, and we'd like to see them continue.
    However, the EPA also has the ability to regulate a broad 
swathe of economic activity in this country, from mining, to 
drilling, to farming. Each of these industries is fighting 
every day to manage the onslaught of federal regulations 
promulgated by the EPA. These industries are critical to the 
national economy. This is why I found myself year after year, 
having to take deliberate steps to protect these industries and 
their jobs from the draconian actions the EPA has carried out.
    The activities that you regulate sustain thousands of 
families and communities across the country. So it's important 
that we get things right here in Washington. That starts with 
setting the right priorities in the budget. Despite the fact 
that Congress, on a bipartisan basis, has reduced your budget 
request for five consecutive years, the fiscal year 2016 
request we're considering today, if enacted, would be the third 
largest in EPA history.
    And if that wasn't enough, the budget request also includes 
$4 billion in new mandatory spending, to implement the 
greenhouse gas regulations that are shuttering power plants all 
over the country and causing coal mines to close. Any proposal 
involving mandatory spending programs, as you know, requires 
legislative action, outside of this committee's jurisdiction.
    And you know as do I, that that's not a real proposal until 
it's authorized. As I've expressed to you many times, I 
continue to be disappointed with the way this agency approaches 
its regulatory mission. I simply cannot accept a 6 percent 
increase in your funding, when by all accounts the EPA is still 
working hard to eliminate more steady, well paying jobs in the 
coal industry.
    This administration's attack on coal country has left 9000 
miners jobless, just since the president took office. And while 
it's refreshing to see the administration take ownership of 
these devastating losses in coal country through its so-called 
Power Plus Plan, the president is missing the point. For 
centuries this country has run on coal. Businesses large and 
small rely on cheap, reliable energy to remain competitive in 
the world and at home.
    Drawn out rule making processes and bureaucratic overreach, 
create uncertainty that will inevitably raise energy costs and 
threaten American jobs. Not to mention the threat of brownouts 
and blackouts in the power of America's grid. For the life of 
me, I can't understand why you continue to wage this war, 
despite the outcry from Congress and the American people, in 
the name of climate change, global warming. I remind you that 
just this past week in my district in the middle south of the 
country, we had two consecutive nights of 17 below zero with a 
foot and a half of snow on the ground. It has been there for a 
month or more.
    Global warming?
    Not only is EPA appending the permitting process for new 
applicants. The agency is now retroactively denying permits 
that the Corps of Engineers had already approved years before. 
How can an American business operate in that kind of an 
environment? Knowing that this agency could shut down their 
operation despite their adherence to regulatory requirements?
    That comes on top of looming proposals to shut down coal 
fired power plants by creating standards that can only be met 
by employing technology that's not yet available. It's 
impossible. Now we have before us your budget request calling 
for the largest regulatory budget ever for your agency, so it 
can continue to carry out these wrong headed policies.
    I'm even more concerned about your efforts to redefine, 
``waters of the US.'' And expand your regulatory jurisdiction 
over thousands of streams and tributaries across the country. 
Since your agency proposed this new rule around this time last 
year, you've received almost one million comments on that 
subject. These comments are from cities, states, businesses, 
coal miners, utility providers, farmers, countless other 
industries, all concerned about the potential impact of this 
rule on their livelihood.
    Assistant Secretary of the Army for Public Works, Jo-Ellen 
Darcy testified here two weeks ago that the overwhelming 
majority of these comments were made in opposition to your 
proposal. Roughly 60 percent in fact. A large part of this 
criticism stems from the level of uncertainty that this 
proposed rule has generated.
    Supposedly this proposal was issued to clarify 
jurisdictional boundaries for property owners and governing 
bodies. In reality it's done just the exact opposite. This 
committee has been consistently asking for more clarity on some 
of the terms utilized in the proposal, such as ``tributary, 
ephemeral stream,'' but we haven't got that yet. And that's all 
important.
    We just continue to hear promises from your agency that 
answers are forthcoming. That you'll get them to us. Well, our 
employers in the country can't do business with this kind of 
uncertainty. Employees in the mining industry certainly can't 
get peace of mind as jobs continue to disappear all around them 
due to this agency's policies.
    These topics are critical to the survival of thousands of 
families throughout the area that I represent and all of 
Appalachia and other energy producing regions across the 
country. I look forward to hearing your testimony and hearing 
how you plan to work with the states and with employers in the 
country to get our energy economy moving again. Thank you.
    Mr. Calvert. Thank you Mr. Chairman and thank you again 
Administrator McCarthy for being here to testify today. Please 
share with us your thoughts regarding EPA's proposed budget for 
its fiscal year 2016.

               Opening Remarks of Administrator McCarthy

    Ms. McCarthy. Thank you Chairman Calvert, ranking member 
McCollum and members of the committee. I appreciate the 
opportunity to appear before you to discuss the Environmental 
Protection Agency's proposed fiscal year 2016 budget, and I'm 
joined by the agency's acting Chief Financial Officer David 
Bloom.
    The EPA budget of $8.592 billion in discretionary funding 
for the 2016 fiscal year provides the resources that are vital 
to protecting human health and the environment, while building 
a solid path for a sustainable economic growth. Since 1970 when 
Environmental Protection Agency was founded, we have seen over 
and over again that a safe environment and a strong economy go 
hand in hand.
    This budget supports essential work to address climate 
change, improve air quality, protect our water, safeguard the 
public from toxic chemicals, support community's environmental 
health, maintain core enforcement strength, support needed 
research and work towards a sustainable future for all 
Americans. Effective environmental protection is a joint effort 
of the EPA, states and our tribal partners.
    We're setting a high bar for continuing our partnership 
efforts in looking for opportunities for closer collaboration 
in targeted joint planning and government processes through 
efforts like e-enterprise governance approach. That's why the 
largest part of our budget, $3.6 billion or 42 percent, is 
provided directly to our state and tribal partners.
    The fiscal year 2016 request includes an increase of $108 
million for state and tribal categorical grants. This budget 
request, $1.1 billion to address climate change and to improve 
air quality. Those resources will help those most vulnerable to 
climate impacts and the harmful health effects of air pollution 
through common sense standards, guidelines, as well as 
partnership programs.
    Climate change is not just an environmental challenge. It's 
a threat to public health, our domestic and global economy and 
our national and international security. The request supports 
the president's Climate Action Plan and in particular, the 
Clean Power Plan, which establishes carbon pollution standards 
for power plants.
    In addition, the president's budget calls for a $4 billion 
Clean Power State Incentive Fund to support state efforts to 
accelerate carbon pollution reductions in the power sector. 
Protection the nation's waters remains a top priority for the 
EPA. In fiscal year '16, we will finalize and support the 
implementation of the clean water rule, which will clarity 
types of waters covered under the Clean Water Act and foster 
more certain and efficient business decisions to protect the 
nation's waters.
    Recognizing the need for water infrastructure, the SRF's 
and related efforts are funded at over $2.3 billion, and we 
will work with our partners to help communities by focusing on 
issues such as financial planning for future public investment 
infrastructure investments and expanded efforts with states to 
identify financing opportunities for resilient drinking water, 
waste water and storm water infrastructure.
    Last month the agency's a Water Infrastructure and 
Resiliency Finance Center, a key component of our expanded 
effort. We are proposing a multifaceted effort to help our 
communities, including low income neighborhoods, rural 
communities and communities of color. This includes targeting 
funding in on the ground community assistance through EPA's 
regional coordinators in a network of circuit riders.
    An investment of $16.2 million will help local communities 
improve safety and security at chemical facilities and to 
prevent and prepare for oil spills. These efforts represent a 
shared commitment, among those with a stake in chemical 
facility safety and security, ranging from facility owners to 
our first responders.
    The fiscal year 2016 budget request will let us continue to 
make a real and visible difference for communities every day. 
It will give us a foundation to improve infrastructure across 
the country, and it will sustain state tribal and federal 
environmental efforts across all our programs.
    With this budget, the president is not only sending a clear 
signal about the resources EPA needs to work effectively and 
efficiently with states and tribes to protect public health and 
the environment, it is also part of an overall federal budget 
proposal that does not accept the bad public policy embodied in 
sequestration and does not hold back needed resources in non-
defence spending in order to increase needed defence spending 
or vice-versa.
    Instead the president's proposed fiscal year 2016 budget 
finds a path forward to avoid sequestration and properly 
support both domestic and national security interests. Mr. 
Chairman, I thank you for the opportunity to testify, and I 
look forward to answering your questions.
    [The statement of Gina McCarthy follows:] 
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    Mr. Calvert. Thank you for your testimony. First we're 
going to recognize the chairman of the full committee, Mr. 
Rogers.

                    CLEAN AIR AND CLEAN WATER RULES

    Chairman Rogers. Thank you Mr. Chairman. Let me talk to you 
a bit about the Waters of the US proposed rule. EPA has been 
driving the ship on this effort with the Corps to redefine 
Waters of the U.S. under the Clean Water Act. That new rule 
would constitute the largest increase of federal jurisdiction 
over our country's public and private water ways in history, 
even allowing federal regulators to police so-called seasonal 
or rain dependent streams.
    In the omnibus bill that we are operating under now, we 
included a bipartisan provision requiring the Corps and EPA to 
withdraw certain portions related to agriculture. And just 
yesterday our colleagues in another house committee had some 
very strong words about the onslaught of federal regulations 
coming from EPA and other agencies that constrain how we mine 
coal in this country, how we burn coal, even how we will export 
coal to developing nations in desperate need of affordable, 
reliable energy options.
    Obviously, many have concerns that you're circumventing 
Congress's clear opposition to these extreme environmental 
regulations, and considering that your budget request includes 
millions of additional dollars for lawyers to defend and 
litigate these rules, I think it's fair to assume from that 
that you're also concerned about their legality.
    Despite these concerns and despite the strong criticism 
from Congress and the public, your testimony today maintains 
that the EPA's clean air and clean water rules are actually 
helping the U.S. economy. Can you explain, ma'am, how these 
rules are helping the 9000 laid off miners in my district who 
are now out of work?
    Ms. McCarthy. Well, sir, the efforts that you identified 
are part of EPA's efforts to both reduce pollution that is 
impacting public health and damaging the environment, but to do 
it in a way that actually is very cost-effective, that is 
reasonable, that's appropriate and that continues to recognize 
the great need to continue to grow this economy and jobs.
    Over the course of EPA's history, since 1970, we have 
reduced air pollution by 70 percent while the GDP has tripled. 
We are looking in each and every major rule to ensure that we 
do it in a way that is specifically cognizant of reliability 
and affordability of our energy system, as well as impacts to 
the local economy and to jobs as well. So we are doing our best 
to protect public health in a way that is consistent with a 
growing and sustainable economy.

                        WATERS OF THE U.S. RULE

    Chairman Rogers. Well, the proposed Waters of the U.S Rule 
was put forth, allegedly, to alleviate confusion over 
jurisdictional boundaries. However, this proposal, which I call 
the largest jurisdictional grab in recent history, seems to 
have only created more confusion over what will and will not be 
excluded under federal jurisdiction.
    Industries and private landowners are alarmed that nearly 
every tributary would now be heavily regulated. And if they 
wanted to try to use some of that land for a shopping center 
development or a farm or a covert on a farm or an irrigation 
canal or the like, they would have to come to D.C. to get a 
waiver or some sort of license or permission to proceed. No 
wonder they're confused and scared and frightened. I mean 
that's an alarming possibility for almost every American.
    Are you planning to maintain your definition of terms that 
have contributed to that confusion, such as a ephemeral 
streams? Is that the way you say it?
    Ms. McCarthy. Ephemaral.
    Chairman Rogers. Can we expect any clarifications on these 
broad terms that seem to include just about every body of 
water, so far.
    Ms. McCarthy. Let me try to clear up a few things, Jim. 
First of all, we believe that this is actually not an expansion 
of jurisdiction, and I think we can show that. I do know there 
has been confusion. One of the reasons to do this Rule was to 
respond to many requests for clarity and for consistency. We 
have received a lot of comments on the Rule. And if I could 
just clarify one thing, I know in your opening remarks you 
mentioned about the breakdown of positive and negatives in 
terms of our response.
    I just wanted to clarify that I know that Assistant 
Secretary for the Army, Jo-Ellen Darcy, will be responding to 
this and she is going to be clarifying the record. Actually, 87 
percent of the comments we have received and processed have 
been supportive. So I just want you to know that we've done an 
extensive outreach on this.
    We will look at all the comments that came in. But 
recognize we are also continuing with the exemptions, like for 
agricultural return flows and those things that are in the 
current Rule. So we are not limiting any of those exemptions. 
We're trying to provide clarity here, not regulate land, but 
regulate waters that are necessary to protect drinking water 
and our natural resources.

                    WATERS OF THE U.S. RULE--CLARITY

    Chairman Rogers. My understanding is that 60 percent of 
almost a million responses have been negative.
    Ms. McCarthy. I can't explain the numbers that Jo-Ellen 
provided but she will be clarifying this. My understanding is 
we have received a total of 1,046,217 comments. 87.1 percent 
were positive. Some were neutral, very small. Some were opposed 
in the total of 12.4. So far, we are still categorizing just a 
little bit over 4100 of those. So that's the breakdown I have 
up until now. As you can see, the ones that we are still 
looking at wouldn't tip the scale much.
    Sir, it doesn't mean that there aren't a lot of comments 
and questions that are coming in from this rule and that we 
won't be properly looking at those in doing our best to clarify 
as much as possible, because we will. There's a responsibility 
for EPA to do that and we will take our responsibility very 
seriously and make sure that when this rule goes out, there's 
significant clarity beyond what's been proposed brought to this 
issue.
    Chairman Rogers. It's incredible to me how the EPA and the 
Corps look at the same data, the same responses and come to two 
vastly different interpretations. I mean one of you is wrong.
    Ms. McCarthy. I think one of us might've had a subset. I 
will let Jo-Ellen speak to that issue, if I could, when she 
comes to you. But I do know that the Corps and EPA have been 
working hand-in-hand on this rule since day-one because we both 
recognize that additional clarity is essential, not just for 
the agencies to appropriately implement the Clean Water Act, 
but for our outside stakeholders who need to be certain that 
they can farm and ranch the way they've always done that and in 
a way that's protective of the natural resources that we both 
value so highly.

                            NAVIGABLE WATERS

    Chairman Rogers. How would you go about determining exactly 
which kinds of tributaries, streams or even ditches, dry 
ditches, would be classified as either exempt or as part of 
your jurisdiction? How do you go about that? I mean we are 
talking hundreds of thousands of streams and bodies of water 
and dry ditches that get water once every 20 years or less. How 
do you go about doing that?
    Ms. McCarthy. Well, I think it's done in two ways. It's 
done by providing clarity about the information that we have 
available to us, the science that tells us what rivers and 
streams and tributaries need to be protected in order to make 
sure that our navigable waters aren't significantly impacted. 
That means that we need to look at them and determine what type 
of mitigation, if any, is necessary. Beyond that, it's done, 
and in the vast majority of cases today, on a case-by-case 
basis. It's done by calling the Corps and by looking at these 
issues.
    What we are attempting to do is provide a lot more up-front 
clarity and provide enough direction so that people understand 
what rivers and streams are important for drinking water 
protection, for flood control and a variety of other functions 
that these resources provide so that they themselves can 
understand where they are, where they need to be more cautious 
and where we need to work together to make sure that those 
waters are protected.

                    WATERS OF THE U.S. RULE--PERMITS

    Chairman Rogers. Well, just in my mountainous Kentucky 
district, there are thousands of little creeks and streams and 
rivulets flowing through private property, alongside private 
property, tens of thousands of them. How would that farmer that 
lives on Buck Creek in Pulaski County, how is he to know 
whether or not he needs to come up here and get your 
permission?
    Ms. McCarthy. Well we are doing our best to define that. I 
think that, from my standpoint, if a farmer was relied on 
exemptions in the current rules, they can rely on those very 
same exemptions today. If they needed a permit yesterday, they 
can rely on that, as well. What we tried to do is to look at 
the science, Mr. Chairman, which is what we were directed to 
do. The science is very clear in some areas We make that 
clarity known and will in our final rule.
    In other areas, we know what to look for. For example, if a 
small river is only flowing intermittently and at famarol 
stream, if it doesn't have all of the designations, all of the 
characteristics like an ordinary high-water mark and it doesn't 
have the kind of characteristics that indicate that the 
duration, the frequency in flow is there sufficiently to have 
an impact downstream, then it would not be a waters of the U.S. 
So we are trying to identify those characteristics.
    Chairman Rogers. Why do we need to change the way we are 
doing business now?
    Ms. McCarthy. Because we are missing things and because 
people are confused. I think you saw some of that when the 
proposed rule went out. People didn't understand what was 
currently, clearly jurisdictional and what has been 
jurisdictional for decades. There were areas where people were 
unsure. There's a lot of effort spent on case-by-case analyses 
and case-by-case mitigation that people expect to have to pay 
for when that's just not the case.
    So it's an opportunity for us not only to be clearer from 
our perspective, but to also send a clearer signal for 
businesses about when they can pass go without having to move 
through EPA or the Corps. I think, that's an important cost 
savings to consider here.
    Chairman Rogers. I think you're into a really big-time 
briar patch that's going to be really difficult, impossible, I 
think, to do. Not to mention that it's infringing on private 
property rights, states' rights and the like. Even our military 
bases are concerned that they can't use the land they have to 
operate and train.
    Ms. McCarthy. Well, one of the things that we did after the 
proposal went out, it was pretty clear that people were 
confused by some of the language, not understanding what the 
agency's intent was. We, as a result of that, did over 400 
public meetings and also reached approximately 2,500 
individuals. We did all that we could before and after the 
proposal went out to make sure that we were listening to the 
states, and that we were listening to all of the key interests 
here. I think we've received considerable comments that will 
help us provide a path forward.
    But as you suggest, this is not an easy rule. If it were 
easy, it would've been done--we are talking about a law that's 
over 43 years old. It would've been done before if it was easy. 
But court rulings continue to confuse this and challenge us, 
and we need to be better. This is an attempt to make sure that 
we are protecting what we need to protect and sending a clear 
signal on all the other waters that don't fall within those 
categories.
    Chairman Rogers. Mr. Chairman, I have other questions I'll 
delay until later.
    Mr. Calvert. Thank you, Mr. Chairman. Ms. McCullum.

                 WATER QUALITY STANDARDS AND WILD RICE

    Ms. McCollum. Thank you. Administrator McCarthy, I have an 
issue that I feel very strongly about, as do many members on 
this subcommittee. It's the government-to-government 
relationship between federal agencies and sovereign tribal 
nations.
    As you know, in Minnesota and across the Great Lakes 
Superior Basin, mining companies are seeking opportunities to 
mine cooper and nickel, which has a very high potential to 
contaminate our waters. For tribal nations in Minnesota, wild 
rice is a traditional crop with important economic, sacred and 
cultural significance.
    Let me be clear. Without the full consultation and consent 
of impacted tribal nations, the EPA should not even consider 
lowering water quality standards for wild rice. Instead, the 
EPA should be promulgating a wild rice water quality rule 
across the Great Lakes Basin with full consultation with 
tribes. This, for many of us on this committee, is an issue of 
fully honoring and respecting treaty rights with sovereign 
tribal nations. And I just wanted to clear up any confusion 
that there might be about respecting nation-to-nation 
agreements.

                            CLEAN POWER PLAN

    Last summer, the EPA rolled out the Clean Power Plan, which 
will help cut carbon pollution from America's largest source 
power plants. Power plants contribute one-third of the nation's 
greenhouse gases emissions, and limiting their carbon pollution 
is vital to reducing the impact on climate change.
    As part of the Clean Power Plan, the EPA proposed two rules 
to regulate carbon emission from power plants. Could you please 
let us know if the EPA is on track to finalize its power plants 
rules this summer? These rules require states to submit 
compliance by 2016 in the summer. So over the next two years, 
how will the EPA be working with states to help them develop 
these plans?
    And then a concern that I have is, the past few years the 
subcommittee has included a rider that prohibits the EPA from 
using funds to regulate greenhouse gasses and power plants. 
Thankfully, this rider has been dropped each year. But if it 
were to be enacted, would states still be required to submit 
plans, regardless of the rider? Would you be prohibited from 
helping states with their plans? Because the state of Minnesota 
is very eager to work with you to do what we can to improve our 
air quality.
    Ms. McCarthy. Well thank you, ranking member. First of all, 
we are on track for a midsummer effort to finalize the Clean 
Power Rule. That will be moving forward.
    In terms of assisting states, we have done it in a number 
of different ways. First of all, we have part of the increase 
that you see, in our budget is to help set aside $25 million to 
actually provide to states themselves so they can work on these 
plans effectively.
    We also have additional funds that we are requesting so 
that we can have, and that's in the order of $25 million that 
we can have an increase in our staff to be able to respond to 
the needs of the states. We can have the tools and the 
technologies and the on-site technical assistance to help 
states and tribes develop proposals. I should've just said 
states. I apologize.
    Then we also have a proposal that the president put in, 
that would be a $4 billion plan to actually support the states 
who want to either move faster or farther. So that is all in 
the proposal as the proposed Fiscal Year 2016 budget.
    We are also looking at an additional part of the legal 
staff issues as to make sure that there is no bottle-neck in 
our ability to provide good advice and to look at all of the 
rules, as well as the permits across the agency that are not 
moving as quickly as we can because we don't have the resources 
assigned. So, we are looking at beefing that up so that permits 
can go more quickly and approvals of these plans can happen 
more quickly.
    The last issue is on the rider. If that rider should be 
proposed and succeed, the states would still be required to 
submit those plans. EPA would be precluded from providing 
resources and helping them the way that this proposal is 
looking to do because we are in partnership with the states on 
this effort. We have been in partnership with them before, 
during and after the close of this comment period, or even the 
development of this proposal, and I want to keep it that way.
    It is a collaborative approach that is enormously 
respectful of state needs and I want to make sure that we 
continue to work with them in partnership.
    Ms. McCollum. Thank you. And Mr. Chairman, I'll leave the 
Great Lakes question to Mr. Joyce, unless we miss it, and I'll 
catch it on the second round. Thank you.

                        WATERS OF THE U.S. RULE

    Mr. Calvert. Thank you. Administrator McCarthy, over the 
past years, I believe, you've fielded every question imaginable 
regarding agencies Proposed Water of the U.S. Rule, and you've 
tried hard to clarify what the rule does and what it does not 
do. Unfortunately, a year later, I believe we are even less 
confident in what the Rule purports to do. If anything, it 
clarifies that more water bodies will be regulated, resulting 
in more EPA permits.
    You just testified that, of the one million comments, you 
believed 87 percent were positive responses where the Corps 
said that almost 60 percent were negative responses. So 
obviously, the two agencies are confused and can't agree on 
what the comments even say. So it's my hope that the EPA would 
heed these comments, withdraw the proposed Rule and identify 
where there is common ground before taking additional actions. 
So on that score, does the EPA plan to repropose the rule after 
it's finished reviewing and incorporating the comments received 
on the Rule?
    Ms. McCarthy. Well, we have had significant opportunity to 
review the comments and believe that we can finalize this Rule 
that is very respectful of the comments we received. That is 
what we intend to do, sir.
    Mr. Calvert. So what's the opposition to just withdrawing 
and reproposing the revised Rule?
    Ms. McCarthy. Because we have waited now with a statute 
that's 43 plus years old, I think we have been asked to do 
this. We have been requested by, not just members of Congress, 
by states to actually do a rule-making to provide this level of 
certainty. We believe that we should respond to those requests 
and make sure that we are protecting the drinking water--
    Mr. Calvert. Because I understand the majority of the 
governors in the United States are opposed to this.
    Ms. McCarthy. I'm not aware of what figures that you may 
have available. I feel badly that there's confusion about how 
we've bucketed these rules into what's positive or negative. I 
will tell you that Assistant Secretary Darcy will respond to 
this, but my understanding is that all they had completed was a 
review of two percent. I don't know what two percent they chose 
of the comments, but I do know that we have fully looked at 
them and are happy to share the information and will make sure 
that the corrections are in the record.
    [The information follows:]

                           Waters of the U.S.

    Question. Provide information on percent of negative comments 
received for WOTUS rule.
    Answer. The vast majority of the more than one million public 
comments received (approximately 86 percent) were supportive of the 
proposed rule. The base line includes all comments received, including 
mass mail-in campaigns. Approximately 13 percent of comments raised 
concerns with the proposal, and approximately 1 percent of commenters 
were neutral.

    Mr. Calvert. Well, certainly, from my perspective, I'm very 
sympathetic to small businesses.
    Ms. McCarthy. Me too.

              SMALL BUSINESS ADMINISTRATION RECOMMENDATION

    Mr. Calvert. And a comment submitted to EPA in October, the 
Small Business Association believes that EPA should have 
conducted a small business advocacy review panel prior to 
releasing the waters of the U.S. rule. The Small Business 
Administration recommends that EPA withdraw the proposal and 
conduct a panel prior to proposing the rule, re-proposing the 
rule. How do you intend to respond to those comments from the 
Small Business Association to conduct the small business review 
panel prior to taking additional steps on this rule making?
    Ms. McCarthy. Well, it actually was comments received by 
the SBA's Office of Advocacy. We had worked both with the SBA 
as well as with our Office of Management and Budget that 
actually dictates what rules need to have a panel established 
and what ones do not, and we followed their direction. But we 
have done extensive outreach to small businesses and I would be 
happy to provide that to you, because we believe that it was 
the correct decision to move forward, but certainly that did 
not mean our obligation to do outreach to the small business 
community and make sure that their comments were heard and that 
we provide whatever clarity we need to assure them of that.
    Mr. Calvert. Well, Administrator, it seems that no matter 
what the comments are, no matter what the opposition may be, 
this train is on the track.
    Mr. Israel, you are recognized.

                           LONG ISLAND SOUND

    Mr. Israel. Thank you, Mr. Chairman. Administrator 
McCarthy, I want to talk to you about the Long Island Sound, 
something that is not just important to me as a Representative 
from Long Island, but important to the entire nation. It is a 
$9 billion generator of economic activity; it is a critical 
estuary that is important to our ecosystems, and to our 
national environment. For the past few budget cycles the Long 
Island Sound has been funded at about $4 million, and this year 
the President's budget requests a little less than $3 million. 
Members on both sides of the aisle who represent the Long 
Island Sound area have long believed that the minimum level of 
funding to preserve and protect the Sound, not just 
environmentally but economically, is about $10 million, and 
that is what we have been pushing for. Can you tell me the kind 
of effect the reduction in the budget will have on Long Island 
Sound restoration and protection efforts if that lower figure 
is what is included in whatever funding proposal we settle on 
this year?
    Ms. McCarthy. Well, first of all, Congressman, I share your 
love for Long Island Sound. It is one of my favorite water 
bodies as well and I understand how precious it is and how 
challenging it is to have that many people living on your 
shores. I do not have exact figures on how the Long Island 
Sound Committees that are looking at this will manage on a 
tighter budget. I will say that difficult decisions were made 
in this budget despite the fact that we are requesting more 
resources and will be working with the adjoining states and 
with all of the study groups to make sure that we can 
prioritize effectively under this type of a budget constraint.
    Mr. Israel. Well, I would invite you to Long Island to meet 
with our stakeholders and member of the bipartisan Long Island 
Sound caucus. Again, both sides of the Sound, but also both 
sides of the aisle, and hope that we can work together with you 
on passing the Long Island Restoration and Stewardship Act, 
again a bipartisan bill; Congressman Peter King has been one of 
the co-sponsors. I hope we can work together in getting that 
passed and reauthorizing that program. So we will send an 
invitation to you to come to Long Island. I will even give you 
some good pizza while you are there. Thank you.
    Ms. McCarthy. I appreciate the invitation.
    Mr. Calvert. Thank you, gentlemen. You can bring pizza to 
this Committee sometime and share it.
    Mr. Israel. Done deal.
    Mr. Calvert. Mr. Simpson.

                    REGION 10 EMPLOYEES APPRECIATION

    Mr. Simpson. Thank you, Mr. Chairman. First let me say I 
appreciate your employees out in Region 10; Dennis McClaren is 
doing a great job. I enjoy working with him. We sometimes 
disagree about what the EPA has to do or what he has to do, but 
I have always found him to be a gentleman that is willing to 
sit down and talk to us and try to work out any differences. We 
have done some good things with Dixie Drain in Boise to help 
reduce the cost of having to remove phosphate from the river 
before it goes into the Snake River.
    Ms. McCarthy. Thank you. I will pass that along to him. He 
certainly reflects the kind of leadership that we are looking 
for in the Agency.
    Mr. Simpson. Now let me ask you a couple of questions.
    Ms. McCarthy. Does it go downhill from here?
    Mr. Simpson. It goes downhill from here.
    Ms. McCarthy. Just checking, just checking.

                    CLEAN AIR ACT RULE CLARIFICATION

    Mr. Simpson. I will get into the Clean Water Act in just a 
minute. But yesterday you testified before Chairman Whitfield's 
Subcommittee, and I have heard from a couple of sources 
including the Chairman and a couple of others who listened to 
it--and I want to give you a chance to clarify this statement 
for me--that when asked about the power plant rules, clean coal 
fired power plant rules, that your response was these rules 
were not put in place because of pollution, they were about 
investment opportunities.
    Ms. McCarthy. No. Let me try to clarify that.
    Mr. Simpson. I thought you might want to.
    Ms. McCarthy. This is a Clear Air Act rule that is 
following the Clean Air Act as Congress authorized EPA to 
implement it. It is a technology based standard that is looking 
at reducing carbon pollution. That is the four corners of the 
effort. The question was asked of me as to why I think this 
is--if I may paraphrase, why I feel so positive that this rule 
provides the flexibility that states need, why am I saying it 
is not about pollution control technology. I indicated that the 
flexibility in our proposal took it away from needing as our 
standard programs usually do. It is about putting a scrubber on 
an end of the pipe, which we can all agree is a cost. Instead 
if we look at this as an opportunity to invest in energy and 
our economy in a way that states believe is beneficial to them 
both environmentally and economically, that can grow jobs, that 
there are opportunities for this to be a real investment that 
the states would want to make regardless of the carbon 
pollution requirements. That is an investment in renewable 
energy, energy efficiency programs that keep our energy system 
reliable and affordable. I believe that it is a much more 
positive way to look at it, and one that is closer to reality 
of how states are looking at it as well.
    Mr. Simpson. Okay. Well, thank you for that clarification 
because I did not think it could be accurately reflected in 
what I said.
    Ms. McCarthy. I appreciate the opportunity.
    Mr. Simpson. When we talk about the Clean Water Act I think 
it is always important to remember, and nobody ever seems to 
state it, but we are not talking about waters that were 
unregulated before.
    Ms. McCarthy. That is correct.

                      CLEAN WATER ACT JURISDICTION

    Mr. Simpson. These were regulated by the state, just not 
under the Clean Water Act by the federal government. I find it 
hard when you say it does not represent an expansion of the 
EPA's jurisdiction. I think it is a vast expansion of the EPA's 
jurisdiction. In fact when you talk about the connectivity rule 
I do not know how you inevitably get to the point where you are 
going to start regulating groundwater also. And I will tell you 
what, a real short story, when I first got elected to the 
legislature in the State of Idaho, I drew up a Constitutional 
Amendment, and it had to do with hunting and fishing. And it 
had a line in it that said federal waters. All of my colleagues 
in the legislature that agreed with what I was trying to do 
said they could never vote for that because they would not put 
in our Constitution anything that said federal waters because 
there were no federal waters, they were state waters. That is 
how strongly the state feels about that. And so when they look 
at expansion of the Clean Water Act, they get very, very 
concerned. And I realize that we had to clarify what navigable 
was, in terms of navigable to what, or to who. I do not know 
why the Court said that. But the answer seemed to be let us 
regulate everything and that clear it up. I do not think that 
is what the Court said, and it is up to us to come up with a 
rule that more accurately reflects the role of the states and 
the role of the federal government.
    As an example, the Supreme Court in the SWANCC decision 
specifically rejected the Agency's assertion because that when 
you say this is not an expansion of jurisdiction, it is just 
those waters that the EPA has historically claimed 
jurisdiction, the SWANCC decision specifically ``Rejected the 
Agency's assertion that use of an isolated wetland by a 
migratory bird was a sufficient basis to establish federal 
jurisdiction. The proposed rule being considered now suggests 
that the movement of wildlife including birds between one water 
and another, or the reliance on a particular water within a 
watershed by a species or for any part of the species' life 
cycle can be used as evidence of the connectivity of waters for 
purposes of asserting federal jurisdiction.'' Can you explain 
how that is not an expansion of federal jurisdiction?
    Ms. McCarthy. I am happy to. Let me take these issues one 
at a time. This is a rule to identify the jurisdiction under 
the Clean Water Act using science to the best of our ability. 
What is regulated depends on what needs a permit. So if you are 
not doing anything to a water to either pollute it or degrade 
it, then there is no conversation that needs to be had. So 
there are differences in the terms that we need to recognize. 
We are specifically making it very clear that we are not 
regulating groundwater under the Clean Water Act, that is not 
part of the----
    Mr. Simpson. But how do you not eventually regulate it?
    Ms. McCarthy. Because it is not jurisdictional. We do not 
believe that is part of the jurisdiction of the Clean Water 
Act. It has been one of those things that has been up in the 
air. What we tried to do was nail it. We have clearly stated 
that. If there are other things like that that we need to 
resolve we want to do that.
    Now the relationship between the states and the federal 
government, I think we recognize that states are really primary 
in many of the issues related to waters and water quality. We 
recognize that and this rule does not change that. We recognize 
that some states had questions as to whether or not this would 
change their rules. We are going to be resolving those issues 
in the final. It was clearly not our intent. Maybe we did not 
say it as clearly as we need to and we will take care of that 
as well.
    Relative to SWANCC and isolated wetlands, SWANCC said 
that--you correctly raised their issue which was the migratory 
birds issue is not sufficient to determine jurisdiction. What 
the next decision, Rapanos, said was much more clearly what you 
need to do to establish jurisdiction. That means you have to 
establish that the connectivity not just connected, but they 
need to be connected in a way that impacts significantly the 
downstream waters. They do not say it exactly that way, but the 
connection needs to be there. So what the science tells us is 
what is connected, but that is on a gradient, and we know that 
just being connected is not enough. It needs to be more than 
just connected so that we can actually determine whether or not 
it would impact if it were polluted or degraded, would it 
impact the actual biological, chemical, physical 
characteristics of the receiving water, because if we do not 
think it would then that connection is not sufficient for 
jurisdiction. So now you know why this is a confusing issue to 
try to resolve through rule making, but you also know why it 
has been confusing for a long time and people are asking for 
clarity. So we realize that while we may not have cleared 
everything up there is an opportunity to get a lot clearer and 
we will try to do that as effectively as we can in the final 
rule.
    Mr. Simpson. Okay. Thank you.
    Ms. McCarthy. All right.
    Mr. Calvert. Thanks, Mr. Simpson. Next is Mr. Kilmer.

        NATIONAL ESTUARY PROGRAM AND PUGET SOUND GEOGRAPHIC FUND

    Mr. Kilmer. Thank you, Mr. Chairman, and thanks for being 
here, Madam Administrator. I also want to thank you for coming 
out to Puget Sound this past summer and for the work you and 
your Agency are doing to help us recover that important body of 
water. That is not just an economic engine for the State of 
Washington, but it is also a complex ecosystem in need of 
protection.
    I was pleased to see that the President's budget included 
an increase for both the National Estuary Program and for the 
Puget Sound Geographic Fund. And I have got a couple of water 
related questions. One, I just want to get a sense from you of 
how we can better highlight our needs in Puget Sound and 
continue to work with the EPA to move forward with the recovery 
efforts there and the funding of recovery efforts there. What 
do we do to ensure both the Geographic Program and the National 
Estuary Program remain sustainable and funded? We also see in 
our neck of the woods not just point source pollution issues, 
but non point source. And we have got an entity in our neck of 
the woods called the Washington Stormwater Center that is 
looking at innovative efforts to address stormwater. To what 
extent does the EPA fund stormwater related activities, and are 
you doing work around finding solutions to stormwater financing 
and innovation? And, I guess, aside from funding constraints 
how can Congress help advance those efforts?
    Ms. McCarthy. Well, thank you for asking the question. It 
was great to go out to Puget Sound to see the resource that is 
really so need of protection. There are many challenges up 
there.
    I think we all need to keep highlighting these issues, not 
just highlighting them to EPA, but clearly all of these 
geographic initiatives are worthy of support. The question is 
how much can we actually afford to do within the budget 
constraints that we all face. One of the things we are trying 
to do is recognize that there is a collaboration between state, 
tribal, and federal levels that needs to happen so that we are 
not duplicating efforts. We are spending a significant amount 
of time becoming a better partner for states and tribes so that 
we can work more collaboratively and not duplicate and make our 
funding go further.
    The other thing we are trying to do is establish 
opportunities for financing strategies for all of these efforts 
that also bring private dollars to the table because the 
private sector has a large stake in the quality of these large 
water bodies. They are not just iconic to environmental 
advocates or you and I, they are necessary for the economic 
vitality of the regions that surround them in the business 
community. So we have put together some new financing centers. 
First of all we have brought together one that I mentioned 
earlier, that is our Water Infrastructure and Resilience 
Center, because it is an opportunity to work more creatively on 
different financing strategies. We are trying to stand up what 
Congress asked us to do which was a WIFIA program so that we 
could also look at opportunities that are more directly related 
to state programs and interests. So we are working together to 
try to address these issues as well as we can, recognizing that 
in all cases our needs are great, but there are wonderful ways 
for us to continue to work together more efficiently and 
effectively with the resources that are reasonable for us to 
ask.
    Mr. Kilmer. Are any of those efforts being undertaken in 
Region 10?
    Ms. McCarthy. Many.
    Mr. Kilmer. Okay.
    Ms. McCarthy. Many. And many of them will be related to our 
work with both the states and Region 10.

                   INVESTMENTS IN STORMWATER UPGRADES

    Mr. Kilmer. The other thing I wanted to ask you about is 
that as I travel around my district I have communities that 
want to make investments in stormwater upgrades, businesses 
that are struggling to keep up with environmental compliance 
costs, and tribes on the coast that are literally working to 
relocate schools because of persistent flooding. I think these 
are important challenges for the EPA to take on and I would 
like to get a sense from you how the EPA plans to engage with 
communities and what initiatives the EPA is looking to pursue 
in that regard. I know that one of your goals is making a 
visible difference in communities across the country, so can 
you talk about how you are working with communities that are 
struggling with these challenges?
    Ms. McCarthy. I can because water ends up being an 
incredibly important issue, especially with the changing 
climate, and resilience is going to be important. We have 
established an opportunity to work, or a focus area to work 
more effectively with communities. We have identified almost 
$47 million to be able to go to this effort in addition to 
other work that we might do, but work that is coordinated with 
it but not duplicative.
    What we are trying to do is work with our regions to 
actually work in a multimedia capacity with communities so they 
understand the opportunities they have, not just with us but 
across the federal government to leverage resources to help 
integrate both their planning efforts--they need to look at 
water, wastewater and stormwater so that we can work more 
effectively together. We are going to be creating a network of 
what we call circuit riders which are folks that are expert in 
these community issues so that they can use their expertise in 
more than one place and be able to share what they learned in 
the prior one with the next community that they work in. We are 
looking at opportunities for advancement monitoring and 
decision making tools. As you know we have put out things like 
the Stormwater Calculator, so that as communities are looking 
to take efforts themselves they have tools readily available 
for them.
    And we have also increased our brownfields project funds by 
$30 million specifically targeted at really good community work 
that will help advance all these goals.
    You know I could go on and on, but we have more money for 
states and tribes, $108 million more in stag money that we are 
looking for. This will amount to a more than 30 percent 
increase for tribes, in how we are supporting them. We are 
looking at superfund increases so that we can get at those 
superfund sites as well. We are looking at opportunities for 
new technologies moving forward that we can advance with 
states. We are truly in a partnership not with states but local 
communities that benefit from the funding that we send to the 
states.
    Mr. Kilmer. Thank you. Thank you, Chairman.
    Mr. Calvert. I thank the gentlemen. Next, Mr. Stewart.
    Mr. Stewart. Thank you. Did we skip someone, Chairman?
    Mr. Calvert. Sorry. Okay. Then we will go with Mr. Cole.
    Mr. Stewart. I defer to the more senior member, sir.
    Mr. Calvert. Okay.
    Mr. Stewart. I do not want to get the Chairman of the----

                           BUDGET CONTROL ACT

    Mr. Cole. What a nice way to put that. Thank you very much, 
Colonel. (He was a Major)
    Thank you very much, Administrator McCarthy, for being 
here. And I want to make a point that actually is not directly 
on your budget, but I think it bears repeating because I have 
heard this from a number of administration officials when they 
come in to present their budgets in front of the various 
Subcommittees. I do not think you would find any of us that 
disagree: we would all love to get rid of sequester. I do not 
know an appropriator that would not like to do that, but it is 
the law of the land, and it is a law that the Congress passed, 
that the President signed. And frankly if you go back and read 
Bob Woodward's book if I recall, The Price of Politics, the 
sequester is actually an administration or presidential idea 
and suggestion in that negotiation; it is not going to be 
wished away. And with all due respect to the President, the 
various mechanisms that he is proposing in his budget, to 
provide additional money, are not going to pass the Congress, 
and he knew that when he put them in there. I do not know if we 
will do this again, but in the past, when we have put the 
President's budget up on the floor, most Democrats have not 
voted for it. And if most Democrats will not vote for it, 
neither will Republicans. I think where we are headed is the 
default position: the Budget Control Act. Any budget that is 
not based on that, or if there is not a negotiation going on, 
to me is not likely to reflect reality. I think it is going to 
put you in a difficult spot as an administrator. I think it 
puts the public in a difficult spot; it looks more like a 
political document than a real budget. I think we are playing 
with a house of cards here that is going to collapse pretty 
quickly; we are making requests and the money is not there. 
Absent a change in the law, I think you are going to be 
basically where you were in the last budget cycle.
    Having said that, and I say that again not directed at you, 
it is just something I am routinely saying to people, maybe we 
actually get that negotiation into a realistic format. We did a 
Ryan-Murray deal a couple of years ago, which I think was a 
very good deal, and two sides can work together. But at some 
point that has got to start. My guess is it will not start 
until after we go through the appropriations process. So we 
will actually be living within the law.
    I do want to thank you personally for working with us to 
get a permanent lab director at Kerr Labs in Oklahoma. Your 
department was extremely helpful in making that happen and we 
are very pleased with the Director that you chose and sent down 
there.
    Ms. McCarthy. Good.
    Mr. Cole. Absolutely. The staff there is a terrific staff 
and it has the most active alumni association of any federal 
facility I have ever seen because people that retire continue 
to take a deep, deep interest in the groundwater work, and 
world class scientific work on water quality takes place. So 
thank you.
    Ms. McCarthy. That is great. Thank you.

                                TITLE 42

    Mr. Cole. To that point, and this might help the rest of 
the Committee, I made myself familiar with the Title 42 hiring 
in this process, and what an important tool that was for you in 
being able to get us the kind of Director that we needed. So is 
that a tool that you use elsewhere?
    Ms. McCarthy. It is a tool that we use at our office of 
Research and Development which oversees labs as well. It just 
provides us an opportunity to more effectively compete to get 
the world-class scientists that we need working in the agency 
in these vital positions.
    It has been authorized for an additional five years. We 
only use it when we need to because we understand that we are 
all budget constrained but I couldn't be more pleased that we 
have been able to fill that position and with somebody with 
credibility that we see. And really, without that opportunity, 
it would have been extraordinarily difficult.
    Public service is wonderful. Lucrative is not part of 
wonderful.
    Mr. Cole. Well, yeah, I am sure you know that from 
firsthand experience. Tell me a little bit, we had a flap last 
year that I think, depending on how many rural fire districts 
you have in your district, became a considerable concern. And 
there was a temporary suspension of military surplus vehicles 
and what was going to rural fire departments. And these are, 
again, self-supporting entities that really do great work. We 
have had a great relationship with the military providing 
vehicles.
    I know the EPA had some concerns. Can you tell us where we 
are at today?
    Ms. McCarthy. Yeah, we have resolved that issue and thank 
you for raising it. I think it was raised quickly enough that 
we realized what the concern was and we were able to address it 
very quickly. It had to do with a Clean Air Act obligation for 
vehicles or engines and I don't remember exactly how we fixed 
it. All I remember is when it got raised everybody said we have 
to fix this. And so, I appreciate it very much.

                                 TRIBES

    Mr. Cole. Well, you did, so thank you as well. There was 
some concern that the vehicles were not environmentally safe 
and so, thanks for backing off that pretty quickly. You 
mentioned some of the things you are interested in doing with 
tribes and a number of us up here, Mr. Simpson I know in 
particular, when he was Chairman of Interior. We have visited 
reservations and seen some of the infrastructure problems they 
have in terms of clean water and water distribution systems. So 
I would like to know what you are planning to do in your 
budget, and what you think is necessary.
    A lot of these are, as you know, very remote locations with 
very inadequate infrastructure. There has been very little 
federal investment and obviously, in many cases these are very 
poor tribes. They don't have funds of their own.
    Ms. McCarthy. And thank you for recognizing that. We have 
been working very hard with the tribes to make sure that they 
are--the money that they can use for infrastructure purposes is 
increased. We are looking at a $96 million increase under our 
tribal gap program, I'm sorry, $96 million this year which is a 
$31 million increase over what was enacted in 2015.
    You know, we are trying to also make sure that we are 
bolstering the ability for tribes to deal with some of their 
solid waste issues. We have proposed $3 million in extramural 
funds just to make sure they have some core services that the 
rest of us sort of take for granted. And they need some help 
there.
    We also are working with Puget Sound to dedicate some 
additional resources to the tribes to allow them to keep 
participating in that effort and to benefit from the clean-ups 
that are essential for Puget Sound. And that will also ensure 
that we meet our trust responsibility to the tribes.
    And we also have some set-asides under the Drinking Water 
Fund where we are making sure that $20 million, or two percent, 
of the appropriated funds are set aside for Indian tribes and 
Alaskan native villages. They have unique and critical needs 
that we need to fund.
    Mr. Cole. Well, appreciate that last question in this 
regard and then, I will yield back. Could you enlighten me, or 
enlighten us a little bit, regarding how you plan to prioritize 
these requests? We know the needs are always going to be 
greater than the dollars you have. When you are looking at a 
reservoir on an Indian reservation, or water infrastructure, 
how do you make those choices?
    Ms. McCarthy. Well, we have to actually set it up as a 
competitive process where we describe the criteria. We even 
take comment and publicly put those out. The challenge for 
dealing with tribes and Alaskan native villages is their 
ability to be able to compete effectively given their limited, 
you know, resources to be able to hire consultants and do the 
work. Which is why both in the funds that I have recognized but 
also in the Clean Water revolving fund, the SRF, we do set 
aside----
    Mr. Cole. Do you do----
    Ms. McCarthy [continuing]. So they are competing against 
each other.
    Mr. Cole. Right.
    Ms. McCarthy. We can help them and provide them technical 
assistance. But the criteria----
    Mr. Cole. That is what I was going to ask.
    Ms. McCarthy [continuing]. Is publicly available. It is 
discussed. There is nothing that doesn't make this a totally 
competitive process. But we do set asides for the tribes. It is 
appropriate. It is necessary to do that. And it has provided 
them opportunities to compete effectively against one another 
for what is the highest priority items that we can take care 
of.
    But it also gives us a sense of what the needs are in the 
tribes and what we might want to request in the next year which 
is why I think it is important for these funds to go through so 
we continue with our commitment to the tribes to get them under 
the standard of living that the vast majority of people in this 
country enjoy.
    Mr. Cole. Well, thank you for that and thank you for your 
efforts in that regard. And I yield back, Mr. Chairman.
    Mr. Calvert. Thank you, Mr. Cole. Next Ms. Pingree.

                        NATIONAL ESTUARY PROGRAM

    Ms. Pingree. Thank you, Mr. Chair. Thank you very much for 
being here today and for the tough challenges you take on. None 
of the work that you do is easy and I appreciate all the 
answers you have had for questions today and many other things 
we have worked with you on.
    I just want to bring up a couple of things and I was glad 
my colleague from the other coast talked about the National 
Estuary Program. And I just want to say that has been very 
beneficial to us on the Maine coast. The Casco Bay program is 
funded through the NEP and they have at least two initiatives 
going on right now and it is critically important as we are in 
this very difficult time for a lot of ocean waters and 
certainly off the Northeast. We are worried about estuaries in 
relation to that.
    They are doing a study on the green crabs which is an 
invasive species and has seriously had an impact on our mussel 
population. And just recently, I heard that many of the natural 
mussels are not there and not harvestable and I would hate to 
think that Maine would have to lose yet another species.
    I also saw a recent extreme sea level rise. We are already 
up five inches and I think people, whether we agree with 
everything about climate change or not or, however we perceive 
this, five inches of coastline is a very serious business to a 
coastal state and will continue to have huge impact for us.
    The one thing I wanted to ask you to talk a little bit 
about, and again, just thanking you for your commitment to 
climate change and the President's budget focusing on this and 
making sure that we are better prepared or working on these 
issues. Like I said, we don't always all see this from the same 
way but I go back to my home district and see a stark change in 
the people who have to deal with the natural resources.
    The farmers who deal with more extreme weather, and 
certainly, out west with the drought, foresters who have issues 
with fire and a whole variety of species that weren't there 
before invasive pest species and then, certainly our fishermen. 
Representing a fishing state, I have never seen fishermen so 
worried about the species they never saw before coming up in 
their lobster traps, worries about diseases coming to the 
lobsters that used to be much further south along the coast, 
losing species like shrimp to northern waters.
    So these things are very real to us and are very worrisome. 
Just recently, I learned a little bit more about the existence 
of blue carbon and the role that salt marshes, sea glass 
meadows and wetlands have in absorbing, processing and storing 
that. I would like to hear you talk a little bit more about 
what you are doing with coastal communities around blue carbon 
and what kind of research that you are doing to discover more 
about it.
    We have so many salt marshes and estuaries in our state and 
they play such a critical role. I am interested in your take on 
the science and some more information about it.
    Ms. McCarthy. Well, thank you for raising all of these 
issues because I do agree that people across the U.S. are 
worried about the changing climate and the extreme weather 
events we are seeing because they recognize that global warming 
is not exactly the term to come out of the gate with. It is 
really all about extreme weather whether it is the snow that we 
are seeing or the heat that we are experiencing and the 
droughts.
    On blue carbon, the good news is that this is something 
that I think many people are now attuned to and are doing 
research on. As you know, across the U.S. government, in 
particular, in NOAA, they take really a leadership role in some 
of the research activities here. But I do also know that there 
has been a national conference that was sponsored on ocean 
acidification in the U.S. that drew a number of countries in 
with experts and researchers and scientists to begin to make a 
concerted international effort to take a look at this issue.
    It is one of the, I believe, one of the least studied areas 
is to understand what ocean acidification means and how the 
lack of salt marshes and other opportunities for buffering 
those issues, what it actually means. It could end up being one 
of the most difficult issues for us to get our arms around but 
there hasn't been the kind of research effort that is 
necessary.
    And in terms of working with coastal areas, we have been 
supporting not just technical assistance and research but also 
tools that are available to understand what the challenges are 
and how we can more effectively look at these. Everything from 
mapping that is done across the U.S. government to all of us 
categorizing the impacts and also looking at what you can to 
avoid those. And how do we more naturally look at resiliency in 
our coastlines to protect our property and our lives.
    It is a significant challenge because so much of the 
northeast is our coastlines. But being from the northeast 
myself, I will do everything I can to work.
    Ms. Pingree. I recognize the accent.
    Ms. McCarthy. Yeah, did you? I thought I really carefully 
covered it.

                             CLIMATE CHANGE

    Ms. Pingree. Well, I will just say again, thank you. I 
think that is one of the big challenges of dealing with the 
science around climate change and certainly from an 
environmental perspective is that we are all familiar with the 
idea of something polluting our air coming out of a smokestack 
or an automobile or polluting our water coming out of a leaking 
oil tank or something else. But this is such a different, 
complicated issue and you talk to people about ocean 
acidification and their eyes glaze over and they think, ``that 
is a vast ocean, what should I care about it?
    In the oyster fisheries, shellfish not being able to make a 
shell and all kinds of impacts that we haven't even seen yet 
are going to be huge for our economy, our jobs, our coastal 
communities. So there is a lot of work to do.
    Ms. McCarthy. As Congressman Kilmer will tell you, 
Washington and Oregon are losing oyster beds to Hawaii these 
days, right?
    Ms. Pingree. Yeah. That is just very difficult. Well, thank 
you. I yield back.
    Mr. Calvert. Thank you. Mr. Stewart.
    Mr. Stewart. Thank you, Mr. Chairman, Madam Administrator, 
it is good to see you again. We appreciate your service. I wish 
there was more that we agreed on but we recognize that you 
represent the administration and his goals and objectives and 
that puts us at loggerheads. I appreciate these hearings. I 
don't suppose that you like them a whole lot. You come and you 
read your statements and we read our questions and you answer 
those questions sometimes. Sometimes you do a masterful job of 
answering in a somewhat ambiguous way which we respect and 
appreciate as well. I don't suppose we change your mind and I 
don't suppose you probably change ours.
    But I would like to ask you a question and in doing so, I 
want you to know I am sincere in this question. I am not trying 
to paint you into a box. I am not trying to--it is not a gotcha 
question at all. I really do want to understand if you agree 
with this but I need to set the question up quickly if I could.
    I was an Air Force pilot for 14 years. I flew one of the 
most sophisticated weapon systems ever built. I know a little 
bit about national security, I think. I sit on a House-Selected 
committee on intelligence right now and in that I am reminded 
every day, as I think most of us are, that we live in a 
dangerous, a chaotic and an unpredictable world. And we could 
go down a long, long list, ISIS, the possible nuclearization of 
Iran, a war in Ukraine, the rise of terrorist threats around 
the world, a generational skip in the weaponization of China. 
And I would also add an unsecured border to that.
    Which brings me to my question now and that is in the fact 
of all this, senior administration officials, including the 
President himself, have said climate change is the greatest 
threat that we face. And I just find that stunning. And I could 
quote them. Secretary Kerry recently said climate change is now 
considered the worst and most fearsome weapon of mass 
destruction.
    The President, in a State of the Union, said no challenge. 
And he reiterated it, no challenge poses a greater threat than 
climate change. And then, Vice President Biden speaking to a 
group of college students says global warming is the greatest 
threat of your generation, of anything at all.
    And I would like to emphasize, they didn't say it is one of 
the greatest threats. They didn't say it is one of our primary 
concerns. They said it is the greatest threat. And again, I 
just find that stunning. And I wonder if you agree with that 
assessment.
    Ms. McCarthy. Well, I don't know if I am close enough to 
make a comparative statement. I am sure that the folks you 
recognized are working on all of those issues. What I do know 
is that the President is very serious when he says that climate 
change is an issue that is not just an environmental one but 
one that is fundamental to our economy, fundamental to national 
security. And I have been in other countries where I have been 
most recently to Vietnam where I went there to talk about their 
water quality challenges within Hanoi and to work with them on 
a variety of issues. They couldn't stop talking about the 
impacts of sea level rise in the Mekong Delta.
    Mr. Stewart. Well, I understand there are those who have 
concerns as we all do.
    Ms. McCarthy. Yes.
    Mr. Stewart. You started out by saying that you didn't know 
if you were close enough, indicating you didn't have enough 
background or expertise in that but honestly you do. Every one 
of us do. I would think every American has the capability of 
looking at these threats and in a reasonable fashion saying, 
this one is greater than this one.
    Ms. McCarthy. I feel--
    Mr. Cole. And I can't imagine any one of saying that this 
is the greatest threat that we face.
    Ms. McCarthy. If you look at, sir, and I would ask you to 
take a look at the national security strategy that was recently 
laid out. It is all about water and the expanding areas of 
drought that will impact economies and lives. It is all about 
the displacement of large populations that will provide a level 
of insecurity that will be extraordinary as sea levels rise.
    There is a very large challenge with climate change and the 
impacts are here today. You can count them. You can look at 
them. You can cost them out. Many people have.
    Mr. Stewart. So I am assuming----
    Ms. McCarthy. They think it is a threat to national 
security as well as the environment and the economy here.
    Mr. Stewart. So I am assuming from your response that you 
would agree with that analysis that it is the greatest threat 
then?
    Ms. McCarthy. I would agree that it is certainly the 
greatest challenge that my agency is facing at this point in 
terms of what we can contribute to some of the solutions and 
the actions moving forward.
    Mr. Stewart. Okay. Well, and I would appreciate that, that 
you are representing your agency. Referring to the other 
members of the administration including the President himself, 
though, who is not representing your agency, he is representing 
national security and our national interest. Again, it stuns me 
that he would draw that conclusion.
    If I could, in 30 seconds, and our timer is not working or 
not activated, Mr. Chairman.
    Mr. Calvert. I'm the timer.

                 NATIONAL AMBIENT AIR QUALITY STANDARDS

    Mr. Stewart. Okay. I will do this quickly. We have this 
proposed ozone rule through the National Ambient Air Quality 
Standards and it is, you know, growing from 70 to 65 parts per 
billion and we have discussed this, Madam Administrator, 
actually is--when I was subcommittee chairman on last year and 
there are major parts of the west that it is virtually 
impossible for them to meet these standards. There is more 
naturally occurring ozone than there would be allowed. And 
there is not a thing in the world they can do about it.
    And I am wondering if you could update us on your 
proposed--or your intentions on this proposed rule and if you 
intend to go forward with that, what would we say to those very 
rural parts of my district, for example, that simply have no 
choice? They would be out of compliance.
    Ms. McCarthy. Well, the recommendation that EPA, that I 
made, in the proposed rule was to consider a range between 70 
and 65. And if you look at all of the national rules that are 
in place today and what we expect to see moving forward, we do 
know that by 2025, at the range of 70, that you are likely see 
nine counties in non-attainment by 2025 at that level because 
of all of the efforts already underway to reduce that 
pollutant.
    And so, I don't necessarily believe that there are no ways 
to achieve attainment out west. I do know California, that was 
with the exception of California, nine counties, has particular 
challenges but they are looking at an attainment date of the 
year of outside of 2037. So this is a health-based standard 
that we will work with states as we have done before to try to 
make sure that they are not trying to do anything that is 
outside of their authority or purview. They certainly don't 
have to get down to levels that are not attributable to them. 
And we will work at looking at the costs associated with those 
and be as reasonable as we can moving forward.
    But this is what the health studies are telling us are 
necessary to protect public health and welfare.
    Mr. Stewart. I look forward to a further conversation with 
you on that issue.
    Ms. McCarthy. Okay. Thank you.
    Mr. Stewart. I don't think we will settle it here but thank 
you.
    Ms. McCarthy. But thank you so much for the questions. I 
appreciate it.
    Mr. Calvert. Thank you, Mr. Stewart. He is modest. He still 
holds the world speed record for flying around the globe so we 
congratulate our colleague. We will take this as far as we can, 
we may have to recess for a little while and come back. But go 
ahead, Mr. Jenkins.

                          SPRUCE MINE PROJECT

    Mr. Jenkins. Troubles in West Virginia, Greenbrier County, 
Fayette County and your EPA folks on the ground have been very 
helpful in the water quality testing and, you know, it kind of 
reminds me of what the core functions of the EPA are and those 
are important functions and I appreciate that kind of work. My 
concern is that there are a number of actions and activities of 
the EPA that I simply can't agree with. I am very familiar with 
what I believe and so many others believe is agency overreach 
as it comes to the Buffalo Mountain Project, and the Spruce 
Mine Project. It is just incredible to me that you can have a 
Corps-issued permit and then turn around and have the EPA 
retroactively veto it.
    With both of these projects and so many others, the message 
coming out from this EPA and their actions are having, 
candidly, a devastating impact on my state and my people. This 
is real as you well know, I am sure. We have lost 9,000 jobs in 
West Virginia just in the last few years that have been 
impacted, in my opinion, in a large degree--but I don't think 
anybody would dispute at least some degree--by the actions and 
behaviors of the EPA.
    And I am glad you are nodding your head.
    Ms. McCarthy. I am listening.
    Mr. Jenkins. Well, okay. I was hoping that the nodding 
meant you agree. But I am very troubled. Our production is down 
20 percent in just the last few years and now you are proposing 
a water rule and a power plan that is going to exacerbate the 
unemployment, the underemployment of the people of West 
Virginia. And I simply can't support that. You know, as a new 
member of Congress, I get a justification of appropriated--this 
is your justification, supposedly, for what I call your war on 
coal.
    And it is a war on coal. It is a war on the jobs of the 
people of West Virginia. You went on your listening tour but 
you didn't come to West Virginia and you were challenged 
yesterday by the congressman from Ohio who just simply asked, 
would you come to my state? You could not bring yourself to 
say, yes, I will come to Ohio.
    So let me ask you, will you come to West Virginia?
    Ms. McCarthy. So let me----
    Mr. Jenkins. And I saw how you worked with the congressman 
yesterday. Just simply, will you come to West Virginia to hear 
the voices of the people of our state of the impact on the coal 
and water plan and rules that you have got? Will you come to 
West Virginia personally?
    Ms. McCarthy. Sir, my answer is the same as yesterday is 
that we have done extensive outreach. We have hearings all over 
the U.S. If there is a stakeholder group that I have not heard 
from that you think was precluded from commenting, we are happy 
to address that issue.
    Mr. Jenkins. The stakeholders that I care about are the 
hardworking men and women of West Virginia. It is incredible to 
me that the administrator wants to go off and meet with groups. 
Why don't you want to meet with the people? Meet with the 
people of West Virginia. Look at that coal miner in the eye.
    That coal miner may not be with a stakeholder group but 
they have got to put food on their table each and every day and 
that hardworking miner needs to get government off its back. So 
what I am asked to do as an appropriator now is say, do I agree 
with your justification for your budget.
    So let me ask you, number one, does your budget, if we 
approve it as requested, give you the third largest budget in 
EPA history?
    Ms. McCarthy. I don't know how it is clarified, sir, how it 
ranks.
    Mr. Jenkins. Okay, the next question then.
    Ms. McCarthy. Yes. Yes.
    Mr. Jenkins. Okay, well, great.
    Ms. McCarthy. That was a good one.

                            PROPOSED BUDGET

    Mr. Jenkins. Does your budget propose a $58 million 
increase to fund the President's climate action plan?
    Ms. McCarthy. Just short of 58.
    Mr. Jenkins. Okay. This budget increase proposal increases 
your budget by almost a half a billion dollars.
    Ms. McCarthy. Yes.
    Mr. Jenkins. And but it also cuts, does it not, it cuts out 
$54 million from the State Revolving Funds Program?
    Ms. McCarthy. As opposed to 2015 enacted but it is a 
significant increase over the presidential request----
    Mr. Jenkins. And your budget sets forth that you are not 
growing the number of FTE workers. Instead what you actually 
are doing, while you take pride in maybe not growing your 
employment, you actually are asking for funding for lawyers to 
carry out the regulatory and the legal challenges that you are 
faced with, are you not?
    Ms. McCarthy. That is not correct, sir.
    Mr. Jenkins. Well, so you are not asking for new money, I 
think it was $27 million to fund a new FTE lawyers----
    Ms. McCarthy. That is correct.
    Mr. Jenkins. Okay, well----
    Ms. McCarthy. But I wanted to explain. EPA has shrunk its 
workforce significantly because of budget constraints. We are 
trying to hire to keep our work moving forward. The lawyers you 
are referring to are not specifically dedicated to rulemakings.
    We have identified that in order to serve the public, 
including the business community, that our ability to assess 
the legal viability of permits and other things, it is 
necessary to have more legal staff to be able----
    Mr. Jenkins. Less--you want more lawyers----
    Ms. McCarthy [continuing]. To get our job done in a 
variety----
    Mr. Jenkins. Well, I don't want to fund more lawyers to 
defend what I believe is overreach and improper action. Last 
question.
    Ms. McCarthy. Yep.

                                JOB LOSS

    Mr. Jenkins. Yesterday I was stunned, stunned, you said 
``In the data we see, job loss is not a consequence of an 
environmental rule.'' So you are saying the actions of your 
agency and environmental rules have no impact on job losses?
    Ms. McCarthy. I do not know whether--what specific quote 
you are using but I indicated that we do a thorough analysis of 
costs and benefits for our major rules----
    Mr. Jenkins. Well, let me ask you just simply----
    Ms. McCarthy [continuing]. And I indicated that----
    Mr. Jenkins [continuing]. I know my time is up. Let me just 
simply ask you because I have got the audio for it and I would 
play it for the speaker right now. You said, ``In the data we 
see, job loss is not a consequence of an environmental rule.'' 
And that, to me, showed an incredible lack of sensitivity and 
awareness and concern about the actions of this agency.
    Because if you go into your rulemaking process with an 
attitude that nothing we do impacts jobs, then you don't care 
about jobs and I do. Thank you, Mr. Chairman. I yield back.
    Ms. McCarthy. You may want to listen to the rest of the 
conversation, sir, because we care deeply about economic 
implications and jobs. Care deeply about it.
    Mr. Calvert. All right, we are going to take a short recess 
for approximately 15 minutes. We have some votes. We will be 
right back. Thank you.
    [Recess.]
    Mr. Calvert. The hearing will reconvene. Sorry for the 
absence. Mr. Joyce, you are recognized.

                   GREAT LAKES RESTORATION INITIATIVE

    Mr. Joyce. Thank you very much, Mr. Chairman. Good 
afternoon, Administrator McCarthy, and I am sorry you had to 
wait for us.
    As you know, the Great Lakes Restoration Initiative or 
GLRI, has provided approximately $1.96 billion toward 
restoration efforts since the initial year of funding in fiscal 
year 2010. In the current fiscal year, the GLRI receives $300 
million in funding. The President's fiscal year 2016 budget 
requests $250 million for the GLRI.
    Given that the EPA is the lead Federal agency implementing 
and administering the GLRI, how is this proposed $50 million 
decrease expected to impact the EPA's efforts to restore and 
maintain the chemical, physical, and biological integrity of 
the Great Lakes Basin ecosystem?
    Ms. McCarthy. First of all, let me thank you for your 
service on the task force, a significant amount of your time I 
know is spent here.
    There were some very difficult decisions that needed to be 
made in the budget, and I do recognize that any decrease will 
have to come with a prioritization among the agencies on what 
is focused on.
    I also recognize that this is an aggressive schedule of 
work to get done and a lot of needs. I think we will have to 
work with the agencies and also with the task force to make 
sure we are prioritizing resources effectively.
    Mr. Joyce. It just does not make much sense to me that our 
President, being from Illinois, a border state of the Great 
Lakes, initially this being one of his projects, and we realize 
the funding should be $475 million, and last year he proposed 
$275 million, this year $250 million.
    We rely on the bipartisanship of this committee and the 
people who care about the Great Lakes to continue to come up 
with the funding. Obviously, they want to reprioritize that 
somewhere else because Secretary Jewell told us yesterday these 
budgets are set to their priorities, and I think the Great 
Lakes should be the number one priority. I do not think of it 
is as a lake or a series of lakes. I think of it as a national 
treasure that we need to take care of.
    Ms. McCarthy. I understand your feelings.
    Mr. Joyce. Is the EPA prepared and able to use GLRI funds, 
if needed, to support key actions to prevent Asian Carp and 
other invasive species from entering the Great Lakes from the 
Mississippi River Basin? For example, if funding for the Army 
Corps of Engineers in fiscal year 2016 is inadequate to move 
forward quickly with the development of near term control 
measures at the Brandon Road Lock and Dam, would GLRI funds be 
provided to supplement their budget for this work?
    Ms. McCarthy. We could certainly talk through that with the 
task force.
    Mr. Joyce. Let's move on to another Great Lakes issue, if I 
could, the algal blooms. Can you talk about specific provisions 
within the budget request that will help the EPA prevent, or 
respond to, the contamination of drinking water from harmful 
algal blooms, such as occurred last summer in Toledo, Ohio?
    Ms. McCarthy. Yes. I do know the agency is actively looking 
at this issue in a number of different ways. We are looking at 
a cross agency strategy to identify and map where harmful algal 
blooms are already happening.
    We are taking a look at what source waters those harmful 
algal blooms might impact. We are taking a look at the 
treatment facilities at those source waters so we can make sure 
that drinking water systems are highlighted. Needs for 
upgrades.
    As you know, we have asked for a significant amount of 
state revolving funds to be able to support drinking water. For 
the first time in I do not know how many years, drinking water 
is actually a larger portion of the budget on SRF than 
wastewater, than clean water activities, because we need to 
address them.
    We are also looking at some guidance for individual 
communities on what the levels are they should be testing to 
and thinking about, and we are working with Congress as well on 
a number of other initiatives that we need to undertake.
    I think this is a new phenomenon and one that we are 
getting our arms around, but we are trying to be as aggressive 
as we can not just in responding to where the blooms are 
happening but understanding what is the cause, and getting at 
the root cause of those problems, which is very complex in some 
areas.

                     DRINKING WATER PROTECTION ACT

    Mr. Joyce. This week, the House passed the Drinking Water 
Protection Act, with my support, by a vote of 375-37, which in 
my two years around this place is big numbers.
    This bill would direct the EPA to develop and submit to 
Congress a strategic plan for assessing and managing risks 
associated with cyanotoxins in drinking water provided by 
public water systems.
    What is the current status of efforts to establish national 
health advisory levels for microcystin and other cyanotoxins?
    Ms. McCarthy. Yes. We are looking at developing an advisory 
now. As you know, when the incident in Toledo happened, we were 
relying on the World Health Organization, and the standards are 
advisories that they have. We think we can do a better job at 
that and continuing to advance the science moving forward. We 
are looking at that now.
    The development of an actual water quality standard is 
something that I know folks are anxious about. It is quite a 
lengthy process. We need to just keep moving forward and 
provide advice and look at what we do with our states and our 
local governments moving forward.
    Mr. Joyce. Thank you. I was wondering if I could yield some 
of my time to the distinguished lady from Minnesota if she has 
further questions.
    Mr. Calvert. Actually, I was going to recognize her right 
after you.
    Ms. McCollum. I will under his time.
    Mr. Joyce. Thank you. I yield back.
    Mr. Calvert. Ms. McCollum.

                  CLIMATE CHANGE AND NATIONAL SECURITY

    Ms. McCollum. Thank you, Mr. Chair. I do have a question, 
but I am going to do a little bit of a redirect. I am going to 
quote from the President of the United States. ``No challenge 
poses a greater threat to future generations than climate 
change.'' When we take the President's words, I believe we 
should take them in the full context.
    As a member of the Defense Committee, I would also quote 
the Department of Defense, page one of their climate change 
adaptation roadmap, ``Climate change will affect the Department 
of Defense's ability to defend the nation and pose immediate 
risk to the United States' national security.'' There is a 
whole report.
    Another item I would quote from is from Navy Admiral Samuel 
J. Locklear, III, in an interview at a Cambridge hotel on a 
Friday in March, 2013. He is talking about climate change. 
``This is probably the most likely thing that is going to 
happen that will cripple the security environment, probably 
more likely than any of the other scenarios we talk about.''
    Our military along with the President does realize that if 
we do not address climate change, for future generations, it 
puts us in a very, very dangerous place with our national 
security.

                              BROWNFIELDS

    Let's go back to today. We know you have a budget that is 
below 2005 levels, so this is not an extravagant budget or 
anything like this. It is below 2005 levels. I want to talk 
about 2005 levels and Brownfields, because this is not an 
extravagant budget.
    Brownfields' redevelopment benefits communities. We know it 
enhances our economic ability to grow, retain jobs, and create 
new jobs. I am pleased that you have $110 million for 
Brownfields' state or tribal grants.
    This is, to quote one of the other members, large. This is 
the largest Brownfields' request under this Administration, but 
here again, the total budget for the EPA is below 2005 levels 
when adjusted for inflation.
    Here is my concern. There is an estimated 450,000 
Brownfields in this country, and the EPA, with the funding that 
it has, has the result of only 118 clean ups per year. This is 
a terrible ratio, and you are working within the budget 
constraints that you have, but many of the states, communities, 
and tribes that I work with and hear from all around the 
country are really eager to redevelop.
    This increase is a good start, but if we do not really jump 
start this, how do you envision the EPA to ever facilitate 
reducing this backlog in Brownfields and putting America's 
lands back to work for good American jobs for families?
    Ms. McCarthy. I think you are raising a very important 
question because our Brownfields' funds have been extremely 
important for economic development, not just in our urban areas 
but our rural communities.
    I think the challenge is that many of us spend a 
significant amount of our Brownfields' resources to do 
assessments and plans. It is carrying out the clean up efforts 
associated with those that are most challenging.
    That is why in fiscal year 2016 we are requesting a bump up 
of $30 million to $189.1, but a total of $49.5 million has been 
requested to support approximately 150 state and tribal 
response programs, of which a $1.7 million increase from fiscal 
year 2015 will be used to prioritize efforts to small and rural 
communities, as well as funding for new tribal grantees.
    We are doing what we can, but you are absolutely right, the 
challenges are large, but we are trying to find ways in which 
we can coordinate our funding most effectively and not just 
identify the problems and solutions but bring them to the 
table.
    Ms. McCollum. Are you waiting for Mr. Rogers to come back 
or are you getting ready to wrap up?
    Mr. Calvert. I am going to ask a question, too.

                               LEAD PAINT

    Ms. McCollum. I had another question because it comes up 
and is something I think we would all like to see solved and 
that is lead paint. We know how dangerous lead is. It affects 
every organ, it affects the developmental abilities of our 
children. People want, to shorthand it, to get the lead out. We 
do want lead to be removed from the environment in which our 
children are.
    But there is so much confusion in the information 
surrounding the lead renovation, repair, and painting rule. 
There are testing kits, and certification of who can remediate 
lead. But people are confused about it.
    If a rider prohibiting ``lead-safe'' progress were to be 
enacted, I think it would really impair your work to certify 
workers, to do training and outreach, to work with states in 
doing it.
    What the heck is going on with the lead kits? Are the lead 
kits safe to use? Do they really let you know what is going on? 
Quite frankly, I think if this is confusion, we need to end the 
confusion. We need to figure out how to stop this constant 
rider from popping up when I think there is consensus on both 
sides of the aisle. We do not want our children exposed to 
lead.
    How can you help us clear this up to stop these riders? 
Because if they were to be enacted, I think would have an 
outcome that people would not want with our children being more 
exposed to lead.
    Ms. McCarthy. Ranking Member, I think everyone agrees that 
we need to address lead paint and we need to keep our kids 
safe. That is something I think we can all agree on.
    The agency did create some alternatives to help ensure that 
the lead renovation, repair and painting rule could be done and 
carried out in a cost effective way.
    There are now two currently available test kits. Those are 
an opportunity to screen so you can understand and a contractor 
can easily detect whether or not there is any opportunity for 
lead paint to be there so they can properly conduct their work.
    The second thing we did was we provided an alternative to 
collect paint chips, so they could then take it to an EPA 
accredited lab, which is also a cost effective way to 
understand and detect whether there is lead paint and then to 
subsequently make sure you are protecting kids as it is being 
removed.
    The third was you could hire a lead paint inspector. There 
is an x-ray florescent analyzer, which is something that can be 
brought into the home and easily detect where lead paint 
exists.
    We think we have provided a range of cost effective 
alternatives for implementing this rule, and we think it is 
extremely important for us to move on and provide stability 
here to the contractors that are trying to do the right thing 
and to families that are trying to protect their kids.
    Ms. McCollum. Does the rider shut down your ability to move 
forward with training, if it was to go on? My understanding is 
it takes us backwards.
    Ms. McCarthy. The ones that we are familiar with--I am 
hesitating because I do not know the exact one that might be on 
the table, but the ones that have been proposed in the past 
would preclude us from moving forward.
    Ms. McCollum. Would you provide us in writing those three 
alternatives and also where the EPA lead testing facilities 
are, if someone can mail something in, and what the cost would 
be to use the lab?
    Ms. McCarthy. Absolutely.
    Ms. McCollum. Thank you. Thank you, Mr. Chairman.
    Mr. Joyce. Can I piggy back one question on Brownfields?
    Mr. Calvert. Mr. Joyce.

                              BROWNFIELDS

    Mr. Joyce. Can you tell us what plans you have to leverage 
the funding for Brownfields by partnering with states, 
municipalities, and private investors, to further advance the 
clean up efforts?
    Ms. McCarthy. We tend to almost always leverage our 
Brownfields' funds. If you will give me a second, I will see if 
I can identify the numbers.
    I guess I do not have it with me. I will follow up with you 
and let you indicate--the thing that we have done a study of, 
which may be of interest to you, is that when Brownfields have 
been redeveloped and also when Superfund sites have been turned 
over, we have some wonderful economics of what it does for the 
area in terms of economic vitality, what the subsequent 
investment is in that area and what it provides.
    I am happy to share that information with you, and I 
apologize that I do not have it on hand.
    Mr. Joyce. No worries. I have seen this work in my own 
district, and I would be glad to emphasize that to the people 
where the sites exist now as to how they could work in 
conjunction with you to clean up those sites.
    Ms. McCarthy. That would be great. Thank you.
    Mr. Joyce. Thank you. I yield back.

                            CALIFORNIA WATER

    Mr. Calvert. Everybody up here knows that I cannot have a 
hearing without bringing up California water. This is my 
opportunity.
    Ms. McCarthy. I want it noted that it was not me who 
groaned.
    Mr. Calvert. Administrator, I am sure you are well aware 
that my home State of California is suffering the most severe 
drought conditions the West has faced in recent years. 
California's biggest water challenge is in Northern California 
where the rivers of the Sierra Nevada merge into the 
Sacramento/San Joaquin Delta, the hub of the state's water 
system.
    State and water projects draw supplies that travel through 
the Delta to provide for 25 million people, three million acres 
of agriculture, 750 different types of plants and animals, and 
California's $1.7 trillion economy.
    Over the years, the Delta's ecosystem has deteriorated, and 
its 1,100 mile levy system is increasingly vulnerable to 
failure caused by earthquakes, floods, and other forces of 
nature.
    The decline of the Delta's ecosystem has led to historic 
restrictions in water supply deliveries, and it cannot be 
stressed enough the pressing need to improve California's water 
reliability.
    Absent a new course of action, we will have to steal all 
the water from Idaho. No, that is not the case.
    Who put that in?
    Ms. McCarthy. I wrote that down.
    Mr. Calvert. Absent a new course of action, we will have an 
economic and environmental collapse in California, and that is 
true. In response to this need, Federal and state officials, 
water agencies, and other interested parties have undertaken 
comprehensive efforts to fundamentally and systematically 
improve both the state's water reliability and restore the 
Delta's ecosystem.
    This effort is the Bay Delta Conservation Plan. Today is 
the result of more than seven years of collaboration, 
scientific analysis, policy review, public input. The BDCP 
would simultaneously protect California's water supply, improve 
the Delta ecosystem, through what would be the largest 
ecosystem restoration project on the West Coast, remove 
pollutants, invasive species, other stressors harming the Delta 
environment, and create up to 17,000 jobs.
    More than 400 public meetings and briefing's have taken 
place over the past seven years, and in July of 2014 we saw the 
close of a 228 day public review and comment period on the 
draft BDCP and its associated environmental impact report.
    In August, your agency raised last minute concerns that 
have now delayed the progress in getting closure on a new 
course of action. This is very disappointing to all the 
stakeholders that have been participating for many, many years.
    Administrator, my question for you is does your agency 
understand the urgency of the situation in the Delta, because 
without the strategic investment in the Delta, the water supply 
and ecosystem will continue to deteriorate and jeopardize the 
delivery of safe, reliable drinking water to 25 million people.
    Is your agency actively working along with the other lead 
Federal agencies, the National Marine Fisheries Service, the 
U.S. Fish and Wildlife Service, and the Bureau of Reclamation, 
to resolve the BDCP concerns in a timely manner? We need to get 
this done.
    Ms. McCarthy. Yes, sir, I do understand the seriousness of 
the issue, and yes, we are working very closely with all of the 
agencies engaged to make sure that the supplemental draft EIS 
resolves some of the issues that have been raised, frankly, not 
just by EPA but by many other agencies.
    We are confident we can do that and we are at the table in 
the most positive productive way we can be, and we will stay 
there until we get these issues resolved.
    Mr. Calvert. I have heard from a number of critics, and 
they felt somewhat that they have had this open process for a 
number of years, EPA has been at every single meeting, they 
thought everything was merrily going around, and then all of a 
sudden, the rug was ripped from underneath the process, and it 
just kind of halted progress on something that is significantly 
important to the State of California.
    Ms. McCarthy. It is not often that the agency sees the lead 
agency developing an EIS, a draft EIS, to agree that a 
supplemental was necessary. I do think it was not just EPA but 
other agencies that identified there were some gaps in the data 
or in the systems.
    I will make sure that the agency offers no surprises moving 
forward. We want to be at the table and we want to be 
participating. I think our region out there feels like they 
have been doing that all along, but if there is any question of 
that, you can be assured that I will be watching it as well.
    Mr. Calvert. Thank you. Mr. Simpson.

                             REGIONAL HAZE

    Mr. Simpson. Thank you, Mr. Chairman. Just for the benefit 
of my good friend from Minnesota, the Ranking Member, I just 
wanted you to know that one of our Admirals, the Chairman of 
the Joint Chiefs of Staff, Admiral Mullen, said the biggest 
threat this country faces is the debt and deficit that we 
currently have.
    That is the challenge that we face. We can all point out 
issues that need to be addressed. The question is how do you 
get the money and so forth to do it? Which is a primary concern 
of this budget--$71 billion, is above the budget caps.
    Let me ask you about three questions that deal with this 
budget. The fiscal year 2014 omnibus included directives to the 
EPA to solicit comments from the states and stakeholders and 
update the air modeling tool, CALPUFF, and the cost manual, 
which are the two components that factor into EPA's decision on 
regional Haze regulations.
    Can you update me on steps the EPA has taken to update this 
modeling tool and the cost manual?
    Ms. McCarthy. I am sorry. I do not have all the details on 
that. I certainly remember from the time that I was the AA for 
Air that we started on both of those projects moving forward. I 
know we have been working hard on the cost manual in 
particular, but if it is okay with you, Congressman, I am happy 
to send you back an exact status on both of those.
    Mr. Simpson. Okay.
    Ms. McCarthy. As soon as I can.

                   IRON AND STEEL/EPA DRINKING WATER

    Mr. Simpson. Secondly, the budget removes the Fiscal Year 
2015 appropriations language, applying American requirements 
for iron and steel used in EPA drinking water, state revolving 
loan fund projects which is the Aderholt-Visclosky amendment. 
Why? What are the problems that this presents?
    Ms. McCarthy. I will let David approach this.
    Mr. Bloom. We traditionally exclude language added by 
Congress such as that.

                               WORKFORCE

    Mr. Simpson. I am not sure that is the answer you want to 
be giving.
    But I suspect that there will be efforts to, and probably 
successful efforts to put the language back in. And I 
understand that it causes some challenges because there are 
some things that are difficult to get from America and so 
forth, and you have to exclude them and all in that kind of 
process. But I understand that. I am sure that will be an 
effort of this Committee.
    The other question, your budget assumes a relatively flat 
workforce, but it does shift some employees around. The budget 
proposes shifting or creating 65 new FTEs for greenhouse gas 
regulatory work and 24 FTEs that are attorneys to assist the 
legal and regulatory needs. Why is that?
    Ms. McCarthy. Actually, these are not litigation attorneys. 
Again, these are attorneys that we feel we need to properly do 
our core work. There is a legal review of permits when they go 
out. There is a legal review of plans that need to be approved 
by the agency, and we have heard from states over and over 
again, as well as many of you, about getting quicker in terms 
of the work we do. We have been doing an exercise within the 
agency to look at our decision-making processes and find where 
we need to add resources so that we can be assured of getting 
them done in a quicker way, and many times it is because our 
attorneys are not available and focused on some of these key 
deliverables that we need for the business community and our 
states. We are trying to do what we are supposed to do, 
Congressman, which is to expedite things like this so that we 
can show that we are working effectively and efficiently. It is 
a switching of resources. But remember, I cut down the FTEs in 
the agency considerably. We had in excess of, I think, 18,000 
staff at one time. You know, I am down in the 14,000s trying to 
work my way back up to the 15. So I am trying to do everything 
I can to expedite. And when I say that I need resources from 
the attorneys, it is because it is where we see the roadblocks 
happening and where we see the shifts, not because we are using 
them for added litigation purposes.
    Mr. Simpson. Well, you have been successful. You are back 
up to 15,000 now, 15,034.
    Ms. McCarthy. Well, that is what we can--that is our 
ceiling that we are looking at. It is not where we are hiring.
    Mr. Simpson. But you can assure us that if we allow the 
shifts to occur, and you get the 24 attorneys and 65 greenhouse 
gas regulatory people working in that arena, that we can speed 
up the permitting process and you will be able to demonstrate 
that next year when you come back?
    Ms. McCarthy. We will give it our best shot. I do believe 
it. And I think we have already--we will be able to show some 
really added expedited scheduling for what we do just working 
with the states and making things work. I am trying not to ask 
for more people. I am trying to be able to shift resources 
effectively to where I see efficiencies can be had.

                             INFRASTRUCTURE

    Mr. Simpson. And one final question if I could, Mr. 
Chairman, and that is your budget proposes, during a time when 
we have asked for the third highest EPA budget in history, 
which is what this budget request would be, proposes to reduce 
the Clean Water State Revolving Fund by $333 million and 
increase the Drinking Water State Revolving Fund by $297 
million. So there is a net decrease of funds in the State 
Revolving loan funds. I have got to tell you, I think one of 
the biggest challenges we face in this country now is the 
infrastructure of the water and sewer systems in this country. 
Engineers will tell you there is roughly a $700 billion backlog 
out there. What we put in at the federal level, plus what the 
states add to it and local communities means that if we kept 
doing that, at this rate we could address the backlog that 
exists in roughly 100-150 years. That is the backlog that 
exists today. Somehow this agency needs to be at the forefront 
of deciding how we are going to address that need because the 
state revolving loan funds, while a great idea when they 
started, are insufficient to address the need that exists out 
there. Would you agree with that?
    Ms. McCarthy. I think that we see ourselves facing more and 
more of a backlog of work that needs to get done. Specifically, 
I know that the backlog on the drinking water is probably $348 
billion, and the need on the clean water SRF is $298. I think 
it's clear that the SRFs are not the only tool that we need to 
bring to the table. So we are also standing up that new center 
that is going to look at water, infrastructure, and resiliency 
financing, because we need to bring public-private partnerships 
to the table. The private sector benefits as much as we do when 
you look at how much water the private sector utilizes. And I 
am not suggesting that we do not want them to have it; just 
that we cannot always rely on public sector funds to get this 
done, even though we do our best to leverage those funds. And I 
also do not want you to think that the rest of the agency is 
growing while the SRF is staying more stagnant than you would 
like. I realize that when you look at it dollar for dollar, you 
may be looking at the third largest budget, but if you look at 
this, it does not adjust for inflation at all. And if you look 
at our 2016 total budget, if you adjust it for inflation, it 
becomes the ninth largest over the last 12 years. And you know 
what has happened over the last 12 years. The requirements for 
EPA and the responsibilities we have been given by Congress 
over the last nine years have been considerable. So we are 
looking at the new challenges. We are looking at the new 
contaminants and the new challenges we are seeing moving 
forward. And this is not a budget that I think is overly 
inflated in any way. And in fact, I think it is a reasonable 
approach to trying to get us on a trajectory where we can do 
what Congress gave us to do in a responsible and efficient way.
    Mr. Simpson. Thank you. Thank you for being here today and 
for your testimony and putting up with our votes in the middle 
of it all.
    Ms. McCarthy. That is quite all right.
    Mr. Simpson. Thank you.
    Ms. McCarthy. Thank you for the opportunity.
    Mr. Calvert. I thank the gentleman. And we certainly thank 
you, Administrator McCarthy, for coming here today.
    I am sure there are a number of other questions that need 
to be answered for the record, so we will keep the record open 
for five days. And we look forward to your timely responses to 
those questions.
    Ms. McCarthy. Thank you so much.
    Mr. Calvert. And we will need to work together to find out 
what your priorities are as we move forward because, obviously, 
your budget request is not the budget we will be working under, 
so.
    Ms. McCarthy. It would be my pleasure to continue the 
conversation. Thank you.
    Mr. Calvert. So we will be getting our allocations, I 
suspect, late March, or early April. We will have to meet again 
after that and find out how we are going to approach all of 
this.
    Again, thank you for your courtesy, and we are adjourned.
   
      [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
                                           Friday, February 27, 2015.

                        BUREAU OF INDIAN AFFAIRS

                       BUREAU OF INDIAN EDUCATION

                               WITNESSES

HON. KEVIN WASHBURN, ASSISTANT SECRETARY, INDIAN AFFAIRS, DEPARTMENT OF 
    THE INTERIOR
CHARLES ``MONTY'' ROESSEL, DIRECTOR, BUREAU OF INDIAN EDUCATION, 
    DEPARTMENT OF THE INTERIOR
MICHAEL BLACK, DIRECTOR, BUREAU OF INDIAN AFFAIRS, DEPARTMENT OF THE 
    INTERIOR
MELISSA EMREY-ARRAS, DIRECTOR, EDUCATION, WORKFORCE, AND INCOME 
    SECURITY, GOVERNMENT ACCOUNTABILITY OFFICE
    Mr. Calvert. The Committee will come to order.
    We have a number of appropriation hearings going on at 
once, and so we will have other members coming in at various 
times. I know Defense has a hearing, we just left, to come over 
here.

                  Opening Remarks of Chairman Calvert

    Good morning, and welcome to today's hearing on the fiscal 
year 2016 budget proposal for Indian Affairs. This is an area 
within the subcommittee's jurisdiction which is a nonpartisan 
funding priority, and together we have been making a concerted 
push over the past several years to make incremental 
improvements in the lives of American Indians and Alaska 
Natives, particularly in healthcare, education, and law 
enforcement.
    This has been a partnership. I want to thank several of our 
key partners for being here today to testify. Our first panel 
includes Kevin Washburn, Assistant Secretary of the Interior 
for Indian Affairs; Michael Black, Director of the Bureau of 
Indian Affairs; and Charles ``Monty'' Roessel, Director of the 
Bureau of Indian Education. Gentlemen, thank you for being here 
today.
    For the past few years, at this subcommittee's request, the 
Government Accountability Office has been another key partner 
on Indian education matters. What started in 2012 with a 
seemingly simple question of comparing per-student funding, 
inside and outside the BIE system, has grown into something 
much more complex. The GAO is currently in the middle of a 
study on BIE facilities condition and management, and I have 
asked them here today to be on the second panel and to give us 
an update on their progress.
    Before we begin, I will just make a few comments about the 
fiscal year 2016 budget proposal for Indian Affairs. This 
Administration has put its partners on this subcommittee in a 
tight spot, by raising expectations throughout Indian Country 
that we will struggle to meet. The President's budget 
disregards the spending caps that he signed into law. That is 
how he is able to propose a $323 million increase for Indian 
Affairs and a $461 million increase for the Indian Health 
Service without an offset. But current law requires 
discretionary spending to stay relatively flat in fiscal year 
2016 in comparison to 2015. So this subcommittee's challenge 
will be to find the money from within, to pay for the ``have-to 
do's'' and make progress on the ``should-do's,'' all without 
cutting the popular ``nice-to-do's'' by so much that we cannot 
pass a bill.
    Mr. Calvert. Before we turn to our first panel, let me 
first ask our distinguished ranking member, Ms. McCollum, for 
any opening remarks she may wish to make.

                    Opening Remarks of Ms. McCollum

    Ms. McCollum. Thank you, Mr. Chair, and welcome to the 
panel. I appreciate all of you being here to discuss the fiscal 
year 2016 budget request for the Bureau of Indian Affairs and 
the Bureau of Indian Education.
    While Native American programs in this budget request are a 
trust responsibility of the Department of the Interior, I 
believe that they are a moral responsibility for each one of 
us, and I am pleased to see the increases proposed in this 
budget to help advance the social and economic well-being of 
Native Americans. I especially want to commend you on the 
additional funds aimed at improving Indian education.
    Mr. Washburn, last August you and Secretary Jewell visited, 
as we affectionately call it, the Bug School on the Leech Lake 
Reservation in Minnesota. You and the Secretary saw firsthand 
the deplorable conditions that these students and faculty have 
to put up with every day, and that is why I am very pleased to 
see the proposed $58.7 million increase in the Indian Education 
School construction and appreciate the mention of the Bug 
School in Secretary Jewell's testimony on Wednesday. It meant a 
lot to those children.
    There is a lot to like in this budget. It brings broadband 
to all BIE schools over 3 years. It funds contract support 
costs fully. It increases Native American scholarship, expands 
social services including Indian and child welfare programs, 
increases energy development in Indian Country, and enhances 
tribal law and order.
    Now, my enthusiasm for these increases is tempered by the 
fiscal and political climate in which we are operating. On 
Wednesday, our chairman, Chairman Calvert, told Secretary 
Jewell, and I think he wisely did so representing the views 
within his caucus, that many of the budget increases that the 
Secretary was proposing were unattainable in the current budget 
situation.
    Now, I believe President Obama has offered a plan to 
eliminate sequestration and get us out of this fiscal 
straitjacket that the Budget Control Act puts us in. Now 
members on the other side of the aisle may not support the 
President's plan, but I do believe, as the chairman said, that 
it is incumbent on all of us to address these problems.
    I for one do not want to have to say that we cannot have 
these needed increases for Indian Affairs or that we can only 
do them with radical cuts to other important programs in the 
Interior and Environment appropriations bill. This is not a 
process I will be able to support.
    But I want to be clear: This is not an extravagant budget. 
Like many other parts of the Interior budget, when adjusted for 
inflation, we are currently spending on Indian Affairs less 
than we did in 2005. In fact, even with the proposed increases 
in Indian construction, we would be spending just half of what 
we spent on construction in 2005. I have always appreciated and 
I am very proud of the bipartisan manner in which this 
subcommittee has worked together to address Native American 
needs and programs, and we work together to strive for 
solutions that enhance and protect Indian self-government and 
self-determination.
    So Assistant Secretary Washburn, I think you would agree, 
money alone will not solve this problem in Indian Country but I 
believe that you understand that there need to be significant 
reforms in the delivery of service to Native Americans.
    So I appreciate you and the other witnesses being here 
today. I look forward to your insights on these important 
matters. I look forward to your testimony, and Mr. Chairman, I 
look forward to us working together to find solutions.
    Mr. Calvert. Absolutely. Thank you.
    Mr. Washburn, you are recognized.
    Mr. Washburn. Thank you, Chairman, Ranking Member, former 
Chairman, Mr. Cole, and other members. I want to thank you for 
your support.

           Assistant Secretary Indian Affairs Opening Remarks

    I have to begin by thanking you really seriously. In recent 
years, this committee, on many issues, has been out in front of 
the Administration on leadership and support for Indian 
Country, and the roughly 8,000 employees of the Bureau of 
Indian Affairs and the Bureau of Indian Education and my own 
staff thank you for your support of our work. It has meant a 
lot to us and it has meant a lot to everyone in Indian Country.
    I want to tell you, this year the President's request 
matches your own leadership in Indian Country. The President's 
budget request totals $2.9 billion for Indian Affairs programs. 
That is $323.5 million more than the current enacted level. I 
thank you for your past support and hope that you will continue 
your strong bipartisan support for Indian Country.
    You and I know that many of the programs, in fact a 
majority of the programs, are actually run by tribes out in 
Indian Country. About 68 percent of this budget will 
effectively go directly to tribes so they can run our programs 
because they do a lot better running our programs than we do in 
many respects.
    Our Federal appropriations have sometimes run on a time 
principle which is slow. It is what some of my friends in 
Indian Country have started calling Federal time. We are often 
late in doing our jobs, and let me own a lot of that on our end 
because after the money gets apportioned to us, we are 
sometimes slow getting it out the door. My Deputy Assistant 
Secretary, Tommy Thompson, is working really hard so we can get 
the money out faster. Part of that is on Congress, though. This 
year we did not get a fiscal year budget until the middle of 
December. When that happens, when we have a continuing 
resolution and then we get a budget, we have to do everything 
twice, and sometimes three times. It really helps us if you 
will have a budget, even if is not everything you want, ready 
to go October 1 and we do it once because that makes life a lot 
easier for all those people who have to push money out every 
time there is a change in the budget. So I encourage you and 
urge you to try to help us get a budget out once. It will be 
good for Indian Country.
    Let me give you some good news about this year's request. 
And I would like to help this subcommittee out of that tight 
spot that you mentioned, Mr. Chairman, when you gave your 
opening remarks. The President's budget supports a real all-of-
government approach to Indian Country and so I want to talk 
first about what is not in the Indian Affairs budget. Let me 
tell you how this came about. Indian country is proposed to get 
a lot of new funding that helps us but it is in other parts of 
the Federal budget.
    President Obama set up a White House Native American 
Affairs Council and appointed Sally Jewell as the Chair of that 
council. One of the first things she did was to say to OMB we 
need to be breaking down silos in the Federal government. One 
of the best places we can do that is with budgeting. So for the 
first time in history, this year as we prepared our budget, OMB 
brought multiple agencies together and started talking about 
the President's priorities in Indian Country and asked how can 
we all work together to meet them. For example, one of the 
things we got out of that and something that helps my budget 
very much, or helps the problems I am trying to address very 
much, is funding for teacher housing. There is $10 million in 
the HUD budget for teacher housing in the President's proposal 
which will not come to this subcommittee but nevertheless will 
help us meet these goals.
    Some of you were at the State of the Union address. I think 
I saw you on TV. One of the things the President's request for 
community colleges does is support tribal colleges. The 
President has asked Congress to provide for tuition for 2 years 
for community colleges which will include tribal colleges, so 
that is a huge boost for tribal colleges. That funding comes 
out of--well, Mr. Cole, I am sorry to put that on you but I 
think that comes out of your subcommittee's budget. But we are 
trying to spread this around. We are trying to take care of 
these priorities by looking beyond just the Indian Affairs 
budget.
    One other big avenue in that respect is the Department of 
Education. Arne Duncan is proposing to change some eligibility 
rules for their early childhood education programs. It used to 
be that only states could apply for the money in those 
programs, and he is changing those eligibility rules so tribes 
can apply for those programs too, and you all know how 
important early childhood education is. I know you personally 
know that. So tribes will have more access to that kind of 
funding so it is not just in our early childhood development 
program line but there will also be Department of Education 
money.
    Those are all things that are not in our budget but are 
nevertheless very, very helpful. The funding requests are not 
in your specific committee assignments with the exception of 
Tom over there. We put a lot on his plate.
    Our budget request for the Bureau of Indian Education, 
which is really our highest priority this year, would increase 
our budget to about a billion dollars. A lot of this is for 
school construction but it is for a lot of other things as 
well. We are working diligently to make the Bureau of Indian 
Education more effective. The Secretary more than a year ago 
started an education study group and made me the Chair. Mr. 
Roessel has been on that group as have several other people 
including one formerly from the Department of Defense which 
recently upgraded their schools and someone from the Department 
of Education. We have a really good team working on how we can 
improve education. There are a lot of increases in the BIE 
budget proposal but we are also trying to clean up the house at 
the Bureau of Indian Education so it works better. I will not 
go through line by line but there is a huge increase requested 
to support a better performing BIE, to ensure that we can spend 
funding properly, and make things better for Indians on the 
ground.
    I think you all know the importance of contract support 
costs so let me just quickly mention the Appropriations 
Committees' report language which alluded to mandatory funding 
for contract support costs. We are working with our authorizing 
committees to try to get that off of the Appropriations 
Committees' plate and into a different pot so that it makes it 
easier for tribes to count on that funding. I know that is a 
big lift. I know it needs your support. I know it is not in 
your portfolio but it needs your support.
    We have a bunch of specific things in the budget that are 
very, very important. For example, the budget includes a $4.5 
million increase to establish an Indian Energy Service Center. 
We have heard for a long time that we need to help tribes with 
permitting which cuts across several Interior agency lines, and 
so that $4.5 million request is really important to support not 
just us but also the Bureau of Land Management and other 
agencies that have so much work to do in Indian Country.
    I do not want to go on and on and on and filibuster this 
thing so I am going to stop here. I have Director Mike Black 
and Director Monty Roessel with me, and I will be asking them 
to help me answer your questions because we want to make sure 
you get good answers today. Thank you.
    [The statement of Kevin Washburn follows:]
   
      [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
      
    Mr. Calvert. Thank you for your testimony.

                      INDIAN AFFAIRS ORGANIZATION

    With regard to the 183 elementary and secondary schools in 
the Bureau of Indian Education system so we can direct today's 
questions accordingly, please differentiate and clarify for us 
the various roles and responsibilities of the Assistant 
Secretary's office, the BIA and the BIE.
    Mr. Washburn. Okay, Mr. Chairman. I could answer that 
question in about 3 hours, but what I have done is----
    Mr. Calvert. How about 3 minutes?
    Mr. Washburn. Fair enough. That is a big part of the 
problem, frankly. We have given you this 2\1/2\ inch budget 
justification that hopefully is more than a doorstop. There is 
an org chart in this book that partially answers that question. 
The problem with fully answering that question is that Indian 
Affairs is really evolving right now because we have published 
a blueprint for Indian education that will change these things 
dramatically, and hopefully align accountability a little bit 
more clearly with powers and responsibilities in Indian 
Country.
    So we are working really hard on that. On a weekly basis we 
have been having big meetings of our team that is trying to 
implement the blueprint. There are a lot of subcommittees to 
that team too. I think some of those changes are going to 
require reprogramming requests coming over to the committee. It 
is difficult to change anything in the Federal government. It 
takes a lot of ``mother, may I's'' and many people can veto it, 
so it has been, I have to say, one of the most challenging 
things I have ever seen in my life trying to get this done. We 
are trying to realign the Bureau of Indian Education, the roles 
and responsibilities there, as well as within the BIA to be 
more supportive of education. It has been really challenging 
but it is very much an evolving process right now.

               BOND FINANCING FOR BIE SCHOOL CONSTRUCTION

    Mr. Calvert. While we are on the subject of education, we 
were out recently in Navajo country and Hopi country, and we 
saw the condition of some of the schools and obviously 
throughout Indian Country. It is one of the big issues that is 
obviously in need of addressing. Ms. McCollum has a school that 
desperately needs to be replaced. But this list is a lot longer 
than just those schools. And we had a discussion about thinking 
outside the box about how--we had a similar situation a number 
of years ago with Department of Defense schools' condition, and 
we came up with an interesting way to finance this. As you 
know, most schools in America are not paid for on an annual 
budget process. They are paid through bond financing over a 30-
year period, and how we can potentially set up a financing 
mechanism where we do not have to account for the full dollar 
amount but be able to expand a number of schools that we are 
attempting to renovate and replace, and get maybe some expert 
outside financial help to come up with a model maybe looking at 
the Department of Defense and get a resolution to a large 
number of these schools quickly rather than just having to come 
back here hat in hand year after year chipping away at this 
iceberg. Have you put any thought into that?
    Mr. Washburn. Mr. Chairman, yes, a little bit, and you 
raised that with us, and we have been looking into it. We 
talked to the folks at the Department of Defense that assisted 
with that. You know, they did a big makeover of their schools 
to the tune of, I believe in excess of $1 billion and perhaps 
in excess of $2 billion. They looked at some similar financing 
arrangements. When we talked to the person on our staff who 
worked on the reconstruction of defense schools, she said, 
there are 17 different reasons why alternative financing models 
do not work. We are still looking at it, and we have raised it 
with OMB as well. We do want to be creative here, but we have a 
different problem than what state schools have because we do 
not have a tax base for floating bonds and that sort of thing. 
We want to commend you for your creative thinking around these 
things and we need to be doing creative thinking too. So if you 
keep putting those things on our plates, we will keep 
considering them.
    Mr. Calvert. I am going to look into this more because I 
think you have got to find a way to yes on something like this. 
There has got to be a better way than the way you are doing it 
now. That is not working. It will be 100 years before we take 
care of the necessities that you have on the brick-and-mortar 
side. I mean, that does not address the other issues you have 
in education but certainly the brick-and-mortar issue has to be 
resolved. From a business guy's point of view, I would think 
that would be a relatively simple thing to do if you focus in 
on it, and understand how you do it and try to get people to 
yes to get this thing fixed because as Mr. Simpson said, some 
of these schools are just beyond an embarrassment.
    Mr. Washburn. They are, Chairman. On the Defense side, they 
largely ponied up the money to do it and they did it over 
multiple years. That is kind of what we have in mind, that it 
is probably a 5- to 6- to 7-year plan for reconstructing our 
worst schools, and then we definitely need more attention to 
maintaining those schools, the preventive maintenance-type 
stuff.
    Mr. Calvert. Well, I have some other questions but I am 
going to turn it over to Ms. McCollum right now and we will get 
to the panel. Ms. McCollum.

                    SCHOOL REPLACEMENT PRIORITY LIST

    Ms. McCollum. Thank you, Mr. Chair. Kind of following up on 
that, you just mentioned the increase for replacement school 
construction. Is that sufficient to finish up the priority list 
developed over a decade ago in 2004?
    Mr. Washburn. Yes, ma'am, it is, and it would also allow us 
to plan for those schools that will be on the next priority 
list so that we can be out of the gates with construction for 
the next fiscal year.
    Ms. McCollum. Well, I was pleased to see that, so that we 
have both lines moving forward, so I was happy to see that.
    What is the timetable for developing a new school priority 
list? It is something we are being asked all around Indian 
Country because we would like to know if we are going to have 
time to consider incorporating that preliminary funding into 
the bill that we are going to be working on here in this 
committee.
    I had a great conversation with Secretary Jewell and we 
talked about how you brought people in from DoD, from the 
Department of Interior Parks Service to help develop this list, 
so when do we expect to see it? Will we have a clear, 
understandable list of criteria that everybody can rally 
around? I am not being pie in the sky here, but is this going 
to be clear?
    Mr. Washburn. Well, the criteria was developed according to 
a negotiated rulemaking that we were required to do by 
Congress. We had a team put together a formula. The team was 
representative of members from Indian Country including 
Director Roessel in a former job. The formula was developed by 
a committee in all the best ways because it is widely 
representative.
    We are currently trying to make sure we have got good data 
to plug into that formula, and actually we are making great 
progress there. We certainly intend to have that list out this 
year. We probably will have it out this summer. I hate to make 
promises about anything that is not entirely within my control 
but we are working diligently to try to get that list out.
    I am responsible for holding that up because I did not want 
to put a new list out until we had made a commitment to all the 
schools that were on the 2004 list and got that done because I 
thought that that was really important before we start 
developing new expectations.

                     JOHNSON-O'MALLEY STUDENT COUNT

    Ms. McCollum. All right. Well, as everybody here has been 
pushing, as you said, we need to get off of federal time on 
doing this.
    On the topic of schools and counts, another count we have 
been waiting for is the Johnson-O'Malley. Since I have been on 
the committee, the Johnson-O'Malley, is pending, it is coming, 
it is coming. So my question is, what is the time frame for 
that new count? But then I have a question about the counting 
itself.
    The Census Bureau is changing the way in which it collects 
its information, and I wonder if we had better census 
information for Indian Country, it would give you folks here at 
the table a much clearer picture and help us plan better for 
all your needs and services. So what has been your interaction 
with the Census Bureau, and whether it is Johnson-O'Malley or 
when I had the honor of being with Ms. Pingree at Beatrice 
Rafferty or whether we are in Hopi or Navajo Country? I mean, 
the principals there are saying that what you are projecting 
for enrollment, they know is wrong. So how do we get our counts 
straight?
    Mr. Washburn. Well, let me say this, and I am going to ask 
Director Roessel to address the Johnson-O'Malley question, but 
let me talk more broadly about the census question.
    Tribes don't fully trust the process that the Census Bureau 
uses. I think that the Census Bureau is the expert on these 
things and we have to work with the Census Bureau but we----
    Ms. McCollum. But the new form does not ask the question, 
are you Native American.
    Mr. Washburn. Well, that is interesting, and we need to 
talk to them more about that. We have to work with Census 
because they truly are the experts. You all require us to be 
experts in nearly everything under the sun in Indian Country. 
Consequently, we do nothing well in Indian Country. If you ask 
us to be an expert in everything, we cannot be, and we will do 
nothing well if we are spread too thin. This is one of our 
great frustrations, and so we have to work with other experts 
in the Federal government like the Census.
    Let me turn it over to Director Roessel to talk about the 
JOM count.
    Mr. Roessel. Thank you. We just completed the JOM count for 
2014. We are in the process of going out for consultation to 
tribes on JOM issues and a notice for the consultation has been 
published in the Federal Register. We are looking at two 
different things. One is, we have the count to talk about it: 
we have some discrepancies there. A lot of new contractors have 
submitted a count and some tribes or school districts did not 
submit a count. Trying to figure out why they did that and why 
they did not do that, is one of the issues that we are faced 
with.
    The other issue is how we distribute the JOM funds. That is 
part of the consultation process. Rather than make that 
decision ourselves, we want to go out to consultation and hear 
from the tribes and the schools on what is the best way to 
distribute those funds once we have them.
    In terms of the Census and JOM, one of the issues is that 
in the census in prior years race was self-identified. With 
tribes, there is a definition of who is an Indian. So there are 
two different criteria that are used. And so again, we want to 
take that question out to consultation and hear from tribes 
because there are a lot of definitions out there of who is an 
enrolled member. We are doing the consultations in April so we 
are moving on it quickly right now.
    Ms. McCollum. Thank you, Mr. Chair.
    Mr. Calvert. Thank you.
    Mr. Cole--oh, Mr. Simpson. Excuse me.
    Mr. Simpson. There is nothing more former than a former 
chairman.
    Mr. Calvert. Sorry about that.
    Mr. Simpson. No, no, no problem. I am going to submit 
several questions for the record dealing with questions from 
the Shoshone-Bannock Tribe in my district about the 6th grade 
expansion and grant programs. I appreciate your help in making 
sure that was accomplished. Currently we are concentrating on 
schools, and if you look over the last several years at this 
committee, we concentrated on healthcare because that was 
substantially under par and needed to be brought up. So we have 
increased funding for that and contract support. Now we are 
concentrating on schools while maintaining the concentration on 
healthcare, but that does not cover all the issues that need to 
be addressed.
    I am also concerned about the police protection and so 
forth on reservations, or the lack thereof and the incredible 
distance that area that tribes have within reservations and 
with very few officers and the danger that that causes and the 
violence against women that occurs on reservations. There are 
also alcohol problems that occur just on the border of the 
reservation when somebody sets up a community there and that 
causes problems. I still remember from when we were visiting, I 
think it was the Indian Reservations in South Dakota--and we 
talked to a police officer there--and they lost a police 
officer that had been on duty for too many hours and he 
basically fell off the road. So it is not to suggest that 
education is the only thing we have got to deal with. There are 
a lot of other things that we need to deal with also.

                    SCHOOL REPLACEMENT PRIORITY LIST

    But we have been focusing on education, and the article 
that I mentioned the other day when Secretary Jewell was here 
about--it was in the Minneapolis paper that while I 
congratulated the Administration for their education budget, 
said that at this rate, it will take 30 years to address the 
needs that exist currently. We cannot wait 30 years. At that 
rate, we will have kids going to schools now whose kids will be 
going to schools that have not been fixed yet.
    So we have got to find a better way to do this, and what I 
would want is the Administration and the Department to place 
before us a plan of how are you going to replace these schools 
and bring them up to speed. As the ranking member, Ms. 
McCollum, has said before, and I agree with it, where you send 
our kids, the conditions of the schools that they go into says 
a lot about what we think about our kids. It also says a lot to 
them about what we think about them. So we need to do a much 
better job, and I think we have to have a shorter time frame in 
how to address these schools. I am going to be a little bit pie 
in the sky in that we have got to find a plan to do it and fund 
it, and I do not have the answer yet. I know the chairman has 
some ideas, but we need to start debating this, and how do you 
put together the priority list and how far down does it go. I 
want to know what the whole realm is, and I am not talking 
about building castles. I look at it sort of like when a school 
district goes out for a bond, they put everything out there 
that they would like and the voters reject it because it is too 
much, and then they come back and pare it down and say okay, 
what is necessary and I suspect if you put out a list of 
schools that need help, every tribe in the country would say we 
need this done and we need this done right. But how do you put 
together a priority list and how far down does it go? Because 
there are needs all across the country.
    Mr. Washburn. Well, Mr. Chairman, you are absolutely right. 
It is a real challenge. I want to thank you for all the support 
of IHS for the last few years because that has made a real 
difference in Indian Country. We need to make the same kind of 
difference in Indian education for sure, but we just do not 
have the resources to be fully holistic on everything we need 
to do.
    We need to focus on poor schools, but we also need to be a 
lot more strategic, and so one of the things we have added to 
our budget this year is a new line. We have always had the 
school construction line which we have never funded nearly 
enough, but it looks at whole campuses. We have added a line 
for facility construction. So for example, take the Bug School. 
The elementary school is actually fairly nice. The high school 
is deplorable, but we average out that school and consider what 
the condition of the campus is. We need to have the ability to 
be more strategic and go in and surgically improve buildings. 
When there is one bad building that is really bad, we need to 
be able to do that.
    We have over 1,700 school buildings and it is overwhelming. 
It is really overwhelming. But we have to be strategic. We do 
think it is a multiyear plan. If you gave us a billion dollars 
for next year to address all the backlog, we would not be able 
to spend it responsibly. We do not have the infrastructure to 
do that. And you know, we have to develop that infrastructure, 
and I think the GAO has pointed out well the things that we 
need to do. We know what we need to do. So we will not ask for 
you money that we cannot responsibly spend, but we do need to 
have a serious focus on this over the next 5 years, at least, 
and probably more like 6 or 7.
    Mr. Simpson. Well, what I would like to see before the 
committee is a plan to address it in as short of a time frame 
as we could do it. I realize it is not going to be done in one 
year but we could actually debate it here in committee and say 
okay, where are we going to come up with the funds and get it 
done. That is the only way you are going to do it. It is the 
same way we did it with healthcare. And then, as I said, there 
are a lot of different issues that need to be addressed. We 
cannot ignore safety on the reservations and many other things.

                           DETENTION CENTERS

    Are we using regional detention centers, to any extent? And 
I know that it causes challenges because every tribe wants 
their own. Well, we cannot afford to build one everywhere. So 
it seems like it makes sense to me to utilize regional 
detention centers. Are we doing that at all?
    Mr. Washburn. We are doing that, and we are actually even 
using private detention facilities to some degree too because 
it is cost-effective. Let me say, if you look back over the 
last 10 years, we have rebuilt about 40 schools, and a lot of 
that was with ARRA money. DOJ and BIA have built about that 
many detention centers. Do you want to be building detention 
centers or do you want to be building schools? That is the 
issue that we face directly, and that is a challenge because 
you do need detention centers. You saw the one at Hopi. That 
one needs to be, replaced. However, how cynical do you want to 
be? Do you want to build schools or detention centers? Do you 
want to add anything to that, Director Black?
    Mr. Simpson. Well, let me just say before you do, one of 
the other issues is the education in those detention centers 
that we need to address.
    Mr. Washburn. Thank you, and we actually are working 
directly on that. We have put Directors Black and Roessel 
together to work on those issues, so we now have the BIE 
working much more closely with our juvenile detention centers.
    Mr. Calvert. Before I go to our next--Mr. Kilmer, one point 
that we saw when we were up at the Navajo-Hopi country is that 
there apparently was a Navajo detention center that was 
underutilized but they did not want to put the Hopis in the 
Navajo--from our perspective, that did not make a lot of sense 
but there may be other reasons.
    Mr. Kilmer.
    Mr. Kilmer. Thank you, Mr. Chairman.
    Since we are talking about detention centers, I actually 
had a question about that. I am concerned that the BIA budget 
does not request any additional funds for the operation of 
tribal detention facilities. We have got one that was located 
in my state operated by the Puyallup Tribe, and you know, 
despite the fact that the facility was constructed in close 
coordination with BIA and the Division of Justice Services, the 
tribe has only been given less than 30 percent of the funding 
needed to actually operate the facility, and frankly, had they 
known that it was going to depend on tribal resources to 
operate it, I am not sure they would have moved forward with 
it.
    So does the BIA believe that there is a need for additional 
funding for operations of tribal detention facilities? And, you 
know, after having supported construction, how do we make sure 
that this does not become a burden to the tribes that are 
operating them?
    Mr. Washburn. Congressman Kilmer, I am going to ask 
Director Black to address your question because that is 
entirely within the BIA, but thank you for the question.
    Mr. Black. Yes, thank you very much for that question. I 
think that is something we have been able to identify over the 
few years. Speaking specifically to the Puyallup facility, we 
have been working very closely with the tribe since they began 
the planning on this facility to identify funds, and quite 
honestly, you are right. We do have a situation when new 
facilities have come on board.
    I am going to talk to the past a little bit. DOJ was the 
one that was funding a lot of these facilities in the past. We 
had some coordination issues back then as far as ensuring that 
when these facilities were completed that we had identified the 
necessary funds to be able to staff them and operate them. We 
have been able, over the past 4 to 5 years, to work very 
closely with DOJ to bridge that gap and get a better 
coordination and identify funding. We have plussed up our 
detention center operations staffing over the last few years. 
We were able to get some additional funds in there to work with 
the different tribes. So it is an issue that we are well aware 
of and working on and look forward to working with you all.
    Mr. Kilmer. Thanks. I would like to work with you on that.

                     ONE-STOP TRIBAL SUPPORT CENTER

    The BIA was looking to establish a one-stop tribal support 
center to serve as a gateway to services, and I appreciate 
that. I think that makes a lot of sense. I do want to pass on a 
concern that I have, and that is: it appears that one of the 
major features of the one-stop center is the development of an 
online portal, and a lot of the tribes in my district simply do 
not have access to high-speed broadband, and that is a big 
trouble in the rural areas. So what happens when important 
resources like that cannot be accessed by the tribes that are 
most in need? You know, how do we make sure that they are not 
missing out on some of these vital services?
    Mr. Washburn. Well, thank you, Congressman. That is a big 
part of our budget request. My budget is about $2.9 billion 
this year, and the entire crosscut across the federal 
government for Indian Country is about $20.8 billion. The 
programs that I have for Indian Country are about 14 percent of 
the programs for Indian Country by dollar volume. So what we 
have learned is that we do not need to be all in a bunch of 
different silos. So at least for tribes, we need to have one 
place where they can come and we can be the omnibus. We can 
make sure tribes know about all the programs.
    And I think you are exactly right. I think an online portal 
needs to be part of the solution but it cannot be the only 
solution. Tribes need human beings to help them navigate these 
things. So we need both of those things as a part of the 
system.
    It is going to be enormously challenging, not just because 
of these digital divide problems but the digital divide problem 
has plagued us in many areas and so a lot of our schools do not 
have good access. The Macaw Tribe in the State of Washington 
has had challenges and we have helped them modestly with 
funding. We have been looking for funding from the FCC and 
their E-rate program. We have been getting help from Verizon 
for computers and online services within schools. We have been 
turning over every rock we can because we do have to solve the 
digital divide problem. Thank you.
    Mr. Kilmer. I sure agree with you.
    Thank you, Chairman.
    Mr. Calvert. Mr. Cole.
    Mr. Cole. Thank you very much.
    Let me start by making you an offer. First of all, I 
appreciate the budget and I appreciate all the Administration 
is doing. Thank you for the very generous words for this 
committee, which, on a bipartisan basis, really has tried to 
prioritize these things under successive chairmen, no matter 
who was in the Majority. I think we actually have seen some 
tangible results from sustained attention, and if we can just 
keep that, and broaden that focus, hopefully we can do more.

                  FEDERAL TRIBAL PROGRAMS COORDINATION

    Actually, if I can leave this subcommittee's jurisdiction 
to my own for a minute, we will later have a hearing on Native 
American programs that span Health and Human Services. I would 
very much like to work with you and OMB and whatever sort of 
unitary thing. I know Ms. McCollum has worked for many years to 
identify where the different streams of revenue are, and why 
can we not put them into an overall budget for Indian Country. 
So at least in the areas where I have jurisdiction, we are 
going to try to do that, and we want to do it obviously in 
cooperation with you. So if you can just help us figure out 
where these things are, we can bring them together.
    We are going to have, I think, a difficult appropriations 
process because, with all due respect, the President submitted 
a budget, on political assumptions in terms of what is going to 
pass, in terms of taxes, that are a fantasy. They are not going 
to happen. I mean, we are more likely to be flat-lined. That 
does not mean you cannot prioritize within that, and it does 
not mean later there cannot be a larger deal. That is what I 
would hope for is another Ryan-Murray-type situation.
    Mr. Calvert and I just came from Defense Subcommittee where 
I can tell you there is a lot of pretty worried people around 
that table about the consequences of sequester. It is not 
enough simply to write a budget proposal. You have to have a 
process to negotiate a settlement because it is not going to be 
what is envisioned in the President's budget.
    But again, the amount of money we are talking about in the 
jurisdiction I have is a comparatively small amount when you 
look at how vast it is. So if you would help us identify and 
figure out how to coordinate that, and as a matter of fact, if 
you want to come over and testify or Secretary Jewell did or 
you guys put your heads together, we would love to have that so 
it is not just a block here from this and a block here from 
that but we had somebody from the Administration's standpoint 
that talked about a unitary approach. Is that possible to do?
    Mr. Washburn. Mr. Chairman, absolutely. We have been noting 
so many places in Federal programs that tribes just are not 
able to participate in. Some programs serve states or other 
governments or other groups, so lots of places just need to 
make sure tribes are eligible to apply as well. We would be 
delighted to help you with that.
    Mr. Cole. Well, let us have that conversation.

                  VIOLENCE AGAINST WOMEN ACT PROGRAMS

    One quick question, if I may. Could you give us an update--
I know we have a number of tribes that are working on VAWA that 
are trying to get themselves where they have the judicial 
capacity and the law enforcement. How are we doing where the 
rubber meets the road?
    Mr. Washburn. We have three tribes that have taken on pilot 
programs, but come the middle of March or so, every tribe in 
the country that wants to do it can start doing VAWA 
prosecutions in theory. They have to put a lot of things in 
place to do that, so we think that will go slowly at first 
because it is quite expensive at the tribal level. We have 
funding this year in our fiscal year 2015 budget, a million 
dollars, to help train tribal courts so they can handle this so 
they can, exercise this responsibility. So we are conducting a 
lot of training to try to make sure that tribal courts have the 
resources they need to put that into place properly.
    Mr. Calvert. We are going to recess for 10 minutes and 
return to this panel for Ms. Pingree, and then we will have our 
second panel.
    [Recess.]
    Mr. Calvert. The hearing will reconvene. Ms. Pingree, I 
will let you catch your breath, and you are recognized for your 
questions.
    Ms. Pingree. Thank you very much, Mr. Chair. Thank you for 
being here today and for your answers to the previous 
questions.

                        BEATRICE RAFFERTY SCHOOL

    I appreciate we have had a lot of focus on Indian 
education, so I cannot help but ask a question about the 
Beatrice Rafferty School. I think you all know a lot of the 
background, and we are extremely excited for the Passamaquoddy 
Tribe that this money is funded and very grateful to the 
Committee for the hard work that they have done and the ranking 
member for coming up to visit and I think the Secretary was up 
there once. They have got a lot of really great attention, 
which they deserve, and hopefully as people have been talking 
about, there is going to be some real opportunities to clean up 
the rest of that list.
    I am going to try to ask this question as articulately as I 
can but I will admit, I am slightly confused myself, but here 
you are, so it is a good chance to ask the question. So the 
disappointing thing is that since the announcement was made in 
December, they have not been able to move forward with 
construction because they have not gotten a sign-off from 
either the BIA or the BIE, but I know you are going to answer 
that question to me, who actually gets to manage construction. 
But that said, from our conversations with the tribe, the 
representative that was supposed to meet with them has failed 
to appear in at least two meetings, so they have had a hard 
time just in the communication and contact, and the challenge 
is over the number of square feet in the school. So we have got 
an 11-year-old--this goes back 11 years, and the BIA or the BIE 
has said the current design is 5,000 square feet too large for 
the financial allocation. So the Tribe wants to negotiate this 
or at least have a conversation about it. My understanding is 
that from the federal government the argument that they do not 
have sufficient funds for that, but their opinion is this 5,000 
square feet, which covers some curriculum areas, jobs for the 
graduates program, some of their mechanical and electrical 
rooms is critical to the design and it is 11 years later.
    I think they are trying to argue that they could do it for 
that dollar amount so it is just an arbitrary number, in a 
sense, on behalf of the BIA. I will pick up the pace here. And 
I am not negotiating for them but I think their other argument 
is, if in fact you do not think they can do it for that amount 
of money, they will use other funds. You know, they will do 
something to access the rest of the funds but then one of the 
arguments from the BIA is, ``well, you cannot use federal 
government money to maintain those last 5,000 square feet.'' It 
is a 50,000-square-foot building so it is only 10 percent. This 
is not like they have doubled the size or anything else.
    And more than anything else, they want to get a decision 
because now they are stuck. They should be going into the 
design phase. They should be starting working on this, and they 
feel like, A, they cannot even get an answer, and B, I think 
they want the chance to argue their point a little bit, and 
more than anything else, I want to see them be able to go 
forward with the construction, given all the backlog we have. 
At least there is a school that should be constructed, and let 
us get it constructed.
    So who does make construction decisions, and why has it 
been so hard for them to get an answer or even my office to 
help out getting an answer?
    Mr. Washburn. I am going to ask Director Roessel to handle 
your question because he is in the weeds on these kinds of 
questions. Keep in mind that he has 1,700-plus school buildings 
and 183 different campuses that he is in charge of as well.
    The quick answer is, we plan for construction, and we had 
plans, and if we want to change plans, there is a lengthy 
process to change those plans. Want to move quickly too. It is 
hard to change the plans when that ball has started to roll. 
But I am going to ask Director Roessel to address your question 
in more specificity.
    Mr. Roessel. Thank you for the question. The BIE has the 
responsibility of approving educational space, and then the 
Division of Facility Management and Construction approves, the 
mechanical space: how much for HVAC systems and things like 
that. Actually, the total amount that is above the square 
footage in the plans is 9,206 square feet. It is not 5,000. 
Five thousand is just going to educational programs that you 
talked about, expanding the gyms, the jobs for Maine program 
and things like that. Our office has approved 52 percent of 
that 5,000 space. So we have actually not said no to it but we 
have been trying to go back and forth.
    We have space guidelines, and the purpose of those 
guidelines is that one point BIE and BIA were accused of 
building buildings too large for our Indian school student 
counts, that there were vacant classrooms and things like that. 
So these guidelines are to help us say, here is the standard, 
for this many students. So that is in place and what we are 
going by. It is not an arbitrary number that we have. These are 
space guidelines that actually are aligned with the standards 
out there. We looked at different states that have guidelines 
and said okay, that state is kind of like our schools and we 
pick and choose from those states to create these guidelines. 
Based on that, we now have these guidelines to ensure we do not 
build schools too big.
    The space that we approve following space guidelines is 
what we can fund for operations and maintenance. Otherwise we 
would just build these really big schools that people want but 
there is no justification.
    Nonetheless, we have agreed to over 52 percent of their 
request. I think right now that a letter has been drafted and 
we have worked with the school and the tribe. We met with the 
tribe. The tribal president came and met with my staff a couple 
weeks ago. We talked about this. I actually was on the trip 
with the Secretary so----
    Ms. Pingree. Oh, thank you.
    Mr. Roessel. I was not able to be there but the staff was 
there. We are in the process now of notifying the school with 
our determination. The plan at this point is to allow the 
school, if they wanted to have something larger, they can do it 
through value engineering or they can do it through an 
alternate. So if they wanted to have a separate building or 
separate classroom that is above and beyond the determination, 
then they can do that and they can build it on top of what is 
allocated. The plans that we have were built and created based 
on the square foot amount generated by the space guidelines. 
Anything above that has to be negotiated.
    My responsibility is just for the educational space. The 
mechanical space is about 4,000 square feet, and that is 
something that the Division of Facilities Management and 
Construction would take care of. So we have now come to that 
final decision. The school should be notified, we are hoping, 
in the next few days in terms of that decision being made and 
they can begin the design process after that.
    Ms. Pingree. So thank you, and I am sure they will be very 
happy to receive the letter and have a more concrete answer, 
and just to clarify, like I said, I am not negotiating. I do 
not know everything about the plan so I do not want to get into 
too much detail here, but did you say that they could do 
something in addition to that and it would not cause you to 
turn down their entire plan, if they had some other source of 
funding for a slightly larger space or there is some other add-
on they want to the building as long as it is not trying to 
come out of the same money?
    Mr. Roessel. If they are able to, for example, through 
their negotiations with their contractors get a really good 
price and build the extra space, they are allowed to do that. 
But this 9,200 square feet actually comes out to about $2.6 
million above and beyond what was allocated and funded.
    Ms. Pingree. Got it, but whatever the thinking was that 
said they would not be allowed to do it because the maintenance 
costs in the future would be a problem, that is not accurate?
    Mr. Roessel. That is a decision that they would have to 
make and figure out how they would handle the operation and the 
maintenance but it would not say--we would not say you cannot 
do anything.
    Ms. Pingree. You would not shut down the whole building 
process. Okay. Well, that is plenty of time. Thank you very 
much. I appreciate that.
    Mr. Calvert. It would be helpful, though, to iron out any 
differences before we appropriate construction dollars on these 
things. If we had known about this, we could have been willing 
to bump up the funding and resolve this, and if we do need to 
do this, we need to do this in fiscal year 2016. So we would 
like to be made aware--
    Ms. Pingree. Thank you, Mr. Chairman.
    Mr. Calvert. Coming from that industry, I would say the two 
happiest words a contractor ever hears is ``change order.'' So 
get your plan set and then build to those plans. Do not modify 
or change in the middle of a construction job.
    Ms. McCollum. Mr. Chair, on this point, two things come to 
mind. You know, Ms. Pingree was pointing out that these plans 
were from 10 years ago. The principal was telling us that they 
really thought the count for the children was wrong; that she 
knew she was going to have more kids coming through that door. 
The other thing is, if we are looking at 10-year-old plans, 
there have been a lot of changes in cutting-edge technology, 
such as with HVAC systems. So as you are going through 
developing your new plans my happy assumption is, you are 
taking as much of that as you can into account. Am I correct?
    Mr. Calvert. Mr. Simpson, you had a question?

                            ROAD MAINTENANCE

    Mr. Simpson. Yeah, I have a real quick question. When we 
were out in the Hopi-Navajo country, we went out to one of the 
schools that is going to be replaced. We rode on a bus out to 
it.
    Mr. Calvert. I have liver damage.
    Mr. Simpson. Now, the interesting thing about that is Ms. 
McCollum and I are sitting on the bus driving for 20 minutes 
out there. We got 500 steps on our Fitbit just sitting on the 
bus----
    Ms. McCollum. One way.
    Mr. Simpson. Yeah, one way, which tells you how bad the 
road was. Tell me about your roads program. And I hear this 
also from the Cheyenne River Sioux and other tribes. In fact, I 
hear it from just about every tribe that I meet with, they are 
concerned about how we fund roads on the reservations.
    Mr. Washburn. Thank you, Chairman. We have been accused of 
putting you on a bus that has square wheels. We have been 
accused of putting you on a box that had no shocks. And that is 
one of our serious problems and it is a problem all over Indian 
Country, especially on large, rural reservations, and frankly, 
Mr. Black and I have gotten an earful about the formula for 
funding roads, and that is a formula developed in Congress, not 
by us, and so we know those are serious concerns.
    Since Director Black is an engineer, I think I will ask him 
to answer this question. But let me just say, we have $26.7 
million in our proposed budget for road maintenance. There is a 
whole other bill that affects this area. I think it is called 
the Grow AMERICA bill, the reauthorization to MAP-21 is an area 
where there is significant money for roads and so we do not 
want to take all of it on ourselves because there are other 
committees and other agencies with important responsibilities, 
and we do spend some of that money that comes from that bill 
but we need to be taking an all-government approach to this as 
well. Mr. Black.
    Mr. Black. May I just add a couple things to that? We 
currently, based on 2014 estimates, have about a $280 million 
backlog in our road maintenance, about 250,000 miles of roads 
in Indian country. About 75 percent of our overall inventory is 
BIA, tribal and county roads, and about 45 percent of those are 
bus routes, and about 45 percent of those are dirt and gravel 
roads with the majority of them being bus routes. So it is a 
problem that we recognize, and under the previous highway 
reauthorizations there was some language put in there that does 
allow a tribe to use up to 25 percent of their highway 
construction dollars toward road maintenance, but as you know, 
we are robbing Peter to pay Paul because we have some extensive 
road construction needs out there as well.
    So road repair is something that is high on our radar as 
far as something that we need to address. It has been an 
ongoing problem for multiple years. I used to be a regional 
road engineer so I have dealt with this for 15, 20 years. We 
have to work closely with the tribes. The authorization of the 
highway bill is important because while our road maintenance 
comes out of our Department of Interior funding, the highway 
bill funds our road construction programs.
    Mr. Simpson. Does the formula need to be reformed? Is there 
an issue with the formula?
    Mr. Washburn. Well----
    Mr. Simpson. Depending on who you talk to?
    Mr. Washburn. There is no perfect formula out there. That 
is right.
    Mr. Calvert. Mr. Joyce, do you have any questions before I 
excuse this panel?
    Mr. Joyce. Yes. Thank you, Mr. Chairman. I would like to 
address one question to Director Roessel.

                   SAFETY AND SECURITY AT BIE SCHOOLS

    The Department of the Interior has recently conducted an 
inspection of the Moencopi Day School, located on the Hopi 
Reservation adjacent to Tuba City, Arizona, to determine the 
quality of safety measures in place at BIE-funded schools to 
prevent violence against students and staff from internal and 
external threats. The OIG found Moencopi Day School's safety 
measures to be inadequate. Specifically, the school did not 
have a comprehensive emergency plan. In addition, training in 
violence prevention and emergency preparedness was found to be 
inadequate. Of the 18 safety measures OIG checked for, Moencopi 
Day School did not have 12 in place. The OIG issued reports in 
2008 and 2010 on this same topic and concluded that schools 
were not prepared to prevent violence and ensure the safety of 
students and staff. Moencopi Day School was not among the 
schools previously visited. This is a serious issue. Can you 
point to specific provisions within the FY 2016 budget that 
will help schools such as Moencopi Day School improve its 
safety measures and its violence prevention and emergency 
preparedness training?
    Mr. Roessel. Thank you for that question.
    Mr. Joyce. I am not trying to put you on the spot, sir. I 
come here after serving 25 years as a prosecutor, and 
unfortunately, this is the three-year anniversary of a school 
shooting in which three kids were killed and many more kids 
wounded, so it is something near and dear to me. I am not 
making light of this or trying to put you on the spot. I just 
want to make sure our kids are safe.
    Mr. Roessel. No, I understand. It is something that we take 
very seriously in the operation of our schools and also in the 
areas where we operate these schools. They are in very remote 
locations. They are in areas like Moencopi. They are in areas 
like Flander, all across this country.
    Specifically, what do we have in the budget? I think I 
would take a different approach. I think it is a collective 
approach that we are looking at. We need to try to improve the 
overall accountability of the BIE, and by doing that, it is not 
focusing just on safety but it is focused on accountability in 
its totality.
    Over the past few years, we have had a drop in employees 
within our system. We need to turn that around and get people 
working in these different areas that have the responsibility 
of overseeing safety measures happening in schools.
    I know when I was a superintendent of schools, we used to 
have the education line officer who was in charge and would 
come out and ensure that we had our continuity of operations 
plan, and that we had our fire drills and all of those things. 
Because there are not the same number of employees there 
anymore, planning has lapsed, so we are trying to get back to 
that, ensuring the accountability.
    The other thing, too, is defining roles and 
responsibilities. One of the problems that we have out in 
Indian Country is that we have everyone doing a lot of 
different jobs. Defining those roles and responsibilities as 
part of this blueprint for reform is actually going to help in 
the areas of safety as well as in the areas of finance, 
curriculum, and instruction. We are really trying to redefine 
what those roles and responsibilities are, clarify those roles 
and responsibilities and then hold people accountable. So a 
specific point in the budget, I cannot do that, but in its 
totality, we can do that, and that is what the blueprint for 
reform is: trying to maintain and create greater accountability 
measures throughout the entire system.
    Mr. Joyce. And you have adequate funding to do that? Well, 
there is never enough. In your funding process, you are looking 
forward to doing that?
    Mr. Roessel. We are prioritizing, and the implementation 
plan will help us do this in phases, and we are positive we 
will get it done.
    Mr. Joyce. Great. Thank you. I have no further questions.

                            EMPLOYEE HOUSING

    Mr. Calvert. Thank you. And one last comment. When we were 
at Moencopi School, we noticed that there were three empty 
houses. You were there, I think, Kevin, and there was this 
dispute between the security people and the teachers and so the 
end result is, the houses are sitting empty for 2 or 3 years. 
It drove us all crazy thinking wow, what a waste, and hopefully 
you fixed it since we left and that it is all resolved.
    Mr. Washburn. Good. Can we leave it there, leave it with 
your optimistic statement?
    We actually have been working on this, and there were two 
houses. We have tried to arm-wrestle with our law enforcement 
folks to get those houses and perhaps make them available to 
teachers. They have said no, we want to keep them and we will 
fill them. You may recall there was an issue about the cost of 
those homes. We are trying to do some creative work to figure 
out how to get the costs down so that law enforcement officers 
can use those homes. We have one rented, and we are working on 
a solution for the other one.
    You know, the local community had a lot to say about that. 
They wanted police officers in those homes and so--
    Mr. Calvert. All right. Well, I just hate to see them 
empty.
    Mr. Washburn. You and us too.
    Ms. McCollum. Mr. Chair, you mentioned whether the police 
officers could afford to live in them. The government and 
county offices determine what the rents are going to be, right? 
Did they actually look at the salaries of the federal employees 
who have to rent them?
    Mr. Washburn. Well, that is a question, and I think it is 
the GSA that is involved.
    Ms. McCollum. Excuse me.
    Mr. Washburn. And honestly, everybody has got some 
responsibility. There are some Congressional formulas that we 
have to follow too--but that is a good question, and we are 
trying to figure out a way to make those spaces more affordable 
for those folks, and we are making some progress.
    Mr. Calvert. Thank you for being here today. Your continued 
efforts to lead in the face of tremendous adversity, the 
traditionally high turnover rate in all three of your positions 
is a testament to the challenges you face. We want to see you 
succeed, and we hope we can continue to be helpful partners so 
that you will stick around for a while and see through many of 
the improvements you are trying to make.
    At this time we will excuse you from the table and invite 
you to take a seat in the front row while I ask the second 
panel to come up. We will have a brief pause and change signs 
here.
    Now we will shift gears and focus in more detail on the 
oversight of BIE facilities condition and management. I would 
like to welcome our witness from the Government Accountability 
Office, Melissa Emrey-Arras, Director of Education in GAO's 
Education, Workforce, and Security team. Thank you for being 
here today, and agreeing to testify prior to finalizing your 
study so that we can have an opportunity to make any necessary 
course corrections in the fiscal year 2016 bill.
    Exactly 2 years ago to the day, in this room, Chairman 
Simpson convened a similar BIE oversight hearing in which GAO 
testified prior to finalizing a study we had asked them to do 
regarding per-pupil spending. GAO's testimony at that time 
helped this subcommittee to push this Administration to make 
Indian education a much higher priority than before. To its 
credit, clearly, the Administration is stepping up. But I think 
as we will see today, clearly, we still have a long way to go.
    I recognize that we can help close part of that distance 
with more funding, but not all of it. There are some management 
and accountability issues and perhaps even some legislative 
issues that must be addressed before significant funding can 
follow.
    So Ms. Emrey-Arras, welcome and thank you again for being 
here today. You are recognized for your testimony.

                   Opening Remarks of Ms. Emrey-Arras

    Ms. Emrey-Arras. Thank you, Chairman. I want to thank all 
those here: Chairman Calvert, Ranking Member McCollum and 
members of the subcommittee.
    As you know, GAO has conducted a body of recent work on BIE 
schools. In prior work, we found that Indian Affairs has been 
hampered by key management challenges, including a lack of 
needed expertise, insufficient oversight of school spending, 
and poor communication with schools.
    Today, I will discuss the physical condition of BIE school 
facilities. The Bureau of Indian Education oversees 185 schools 
that serve approximately 41,000 students on or near Indian 
reservations in 23 states. In 2014, Interior's Office of Indian 
Affairs funded the operations, maintenance, construction and 
repair of close to 1,800 school buildings worth an estimated 
$4.2 billion. My remarks will cover preliminary findings from 
our ongoing study of these schools for your subcommittee. 
Specifically, I will focus on two areas: (1), what is known 
about the condition of these schools, and (2), the extent to 
which Indian Affairs effectively oversees and supports these 
school facilities.
    Unfortunately, Indian Affairs does not effectively track 
the conditions of these schools, which makes it difficult to 
accurately determine the number of schools in poor condition. 
Back in 2003, we reported on inaccurate and incomplete data 
entry by school officials and limited training regarding how to 
use the facilities' database.
    Our ongoing work suggests that the data are still 
problematic. For example, officials at one school told us that 
they did not routinely enter information into the facility's 
database because their staff lacked expertise and Indian 
Affairs had not provided them adequate training. As a result, 
they said that the existing information in the facility's 
database significantly underestimates their repair needs. We 
believe that inaccurate and incomplete data will continue to 
hinder Indian Affairs's ability to prioritize school repairs 
and target funding.
    During our ongoing work, we visited schools in three states 
that reported facing a variety of facility challenges. For 
example, at one school, the old boilers have been deemed a 
major health and safety concern by the BIE school safety 
specialist. You may have seen some of the pictures of the 
boilers in the testimony. In addition, the school often needs 
to close down when they fail to provide enough heat. The staff 
at the same school also showed us exterior doors that did not 
lock properly and had to be chained during school lockdowns. 
Many of the entrances also lacked exterior security cameras, 
which relates to some of the safety concerns we discussed. 
These challenges were actually highlighted during our visit to 
the school when they had to perform a lockdown during our visit 
when a student made a Columbine-type threat.
    At another school, we also observed a dormitory for 
elementary school students with inadequate clearance between 
the top bunk beds and sprinkler pipes on the ceiling. You may 
see a photograph of this in my statement. School officials told 
us that the students had received head injuries from bumping 
their heads on the pipes, and some students had actually 
attempted suicide by hanging from them.
    Preliminary results from our work indicate that Indian 
Affairs has key, longstanding management challenges that are 
impeding its oversight and support for these school facilities. 
These challenges include limited staff and expertise to address 
school facility needs. For example, our preliminary analysis 
shows that about 40 percent of regional facility positions are 
currently vacant.
    We also found inconsistent oversight of school construction 
projects. For example, at one BIE-operated school we visited, 
Indian Affairs managed a $3.5 million project to replace school 
roofs. Yet the replacement roofs have leaked since they were 
installed in 2010, causing mold and ceiling damage in the 
classrooms. BIA officials told us late in 2014 that they were 
not sure what steps, if any, Indian Affairs would take to 
resolve the leaks or hold the contractors or suppliers 
accountable.
    Mr. Calvert. Excuse me. On that question, how big a roofing 
job are we talking about?
    Ms. Emrey-Arras. It is very large. It covers multiple parts 
of the school, including the gymnasium and many classrooms.
    Mr. Calvert. But this is one school?
    Ms. Emrey-Arras. Yes.
    Mr. Calvert. How many square feet in the school 
approximately? Do you know?
    Ms. Emrey-Arras. We can get back to you with that answer.
    Mr. Calvert. And was there any warranty within that 
contract?
    Ms. Emrey-Arras. They are under warranty, and they have 
been asking the manufacturer to come and fix it. It is a patch 
job here and a patch job there, and 6 to 8 weeks later there is 
another leak. They think it has to do with the way that the 
seams were constructed so that it is not a permanent fix, so 
they keep bringing the manufacturer back but nothing happens. 
So there are real defects in how it was installed.
    Mr. Calvert. Excuse me for interrupting.
    Ms. Emrey-Arras. Oh, if there are any other questions, 
please ask. This is all very troubling.
    Mr. Joyce. I have a question. Who represents you?
    Ms. Emrey-Arras. I am sorry?
    Mr. Joyce. Who represents you? Do you have a legal office 
or Department of Justice or somebody that represents you to 
take action on that?
    Ms. Emrey-Arras. Oh, in terms of what the legal options 
are----
    Mr. Joyce. Yes.
    Ms. Emrey-Arras [continuing]. For the Department of 
Interior? That we would leave to the Interior Department to 
respond to, but there are potential legal claims that could be 
made against the supplier or the manufacturer.
    Mr. Joyce. They should. Thank you.
    Ms. Emrey-Arras. Sure. In addition, we found poor 
communication with schools. For example, at another school we 
visited, officials told us that they had submitted a request 
for a new hot water heater because their elementary school 
lacked hot water. Yet Indian Affairs officials were unaware of 
the situation until we brought it to their attention. As a 
result, students and staff at the school went without hot water 
for about a year, and it was not fixed until a month after we 
spoke with Interior officials.
    Mr. Calvert. Excuse me.
    Ms. Emrey-Arras. Please.
    Mr. Calvert. Is that not illegal?
    Ms. Emrey-Arras. It is a serious--we find it troubling.
    Mr. Calvert. Okay.
    Ms. Emrey-Arras. There are concerns about student health 
without the hot water.
    In conclusion, our preliminary findings show that Indian 
Affairs continues to face challenges overseeing and supporting 
school facilities. Unless this is addressed, some students will 
continue to be educated in poor facilities.
    We will continue to monitor these issues as we complete our 
work and consider any recommendations that may be needed.
    Thank you. This concludes my statement.
    [The statement of Melissa Emrey-Arras follows:] 
   
   
      [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
  
    Mr. Calvert. Thank you. Your written testimony states that 
you visited 12 BIE schools. Would you please elaborate on the 
conditions you observed at the schools including any health and 
safety hazards?

                       HEALTH AND SAFETY HAZARDS

    Ms. Emrey-Arras. Sure. We visited 12 schools in three 
states, and we chose them so that they would represent a range 
of conditions. However, some of those that were listed in 
better shape in the database ended up not being so when we 
actually went to see them. We found many things that concerned 
us. For example, we found a high-voltage electrical panel that 
was installed next to a dishwasher at a school cafeteria. This 
is a situation where you have a lot of water in the area, which 
creates potential electrocution hazards. That, I believe, was 
in October. The safety inspector noted it was a hazard. Since 
our visit, it has been fixed but we found it troubling that it 
was there to begin with, and this was new construction.
    We also observed a school that had an antiquated phone 
system that did not allow phone calls between dormitory floors 
and other buildings, making it difficult in case of an 
emergency. So again, here is the safety issue. If there is a 
fire or a security concern, they would not be able to call from 
one floor to the next. So those were some of the things that we 
observed.
    Mr. Calvert. Your statement discusses problems with recent 
construction of BIE facilities. What were some of the other 
specific problems you observed?
    Ms. Emrey-Arras. Unfortunately, there are more examples. We 
went to a school that later sent us information regarding a 
large concrete fragment that fell from the wall of a 
kindergarten classroom. Luckily, the classroom was empty at the 
time, but it is a concern if you have a new building where 
things are falling from the walls. We have also heard from 
multiple schools about reported leaks, again with new roofs 
that were installed in recent years. There was also an incident 
with a bus barn. You may have seen pictures of that in my 
statement where the barn was used--or built--so that they could 
store and repair school buses. Yet it was constructed in such a 
way that it could not fit all the buses when they were on the 
lift. As a result, they need to leave the outside door open if 
they want to repair a large bus, which is very difficult during 
the winter and not very practical.
    So there were quite a few issues that we encountered during 
our visits.

                        FACILITY CONDITION DATA

    Mr. Calvert. Obviously, this is a question. Why does Indian 
Affairs have such poor quality data on the condition of their 
schools?
    Ms. Emrey-Arras. This is a good question, and this is 
something that has been going on for quite some time. We have 
reported on this in the past, and it continues to be a problem 
to this day. Our understanding is that Indian Affairs does not 
routinely monitor whether schools are entering complete data on 
their facilities. At that first step of schools getting the 
information in, it is unclear if it is always correct or 
complete. I think part of it is that we have been told that 
staff have not received training on how to do this, and that 
the last centralized training on the database was offered in 
2012.
    Mr. Calvert. Ms. McCollum.

                        QUALITY OF CONSTRUCTION

    Ms. McCollum. I have been to the Bug School, so I thought 
have seen it all, until I saw the high-voltage next to a 
dishwasher. So wonders never cease.
    One of the things that I have noticed in some of the 
schools that I visited alone and when I have been with my 
colleagues is the amount of poor construction. I am not a 
construction person but I look at these buildings, and I would 
not have allowed this to happen if I was building my home doing 
things with a contractor. So are we allowing principals and 
some tribal leaders out there to negotiate what is good 
construction and not good construction? I know these are 
isolated areas. We build rural schools all over Minnesota. But 
our rural schools are not falling down like this. So what 
happens with the inspection? In your report, you note that we 
do not even return back 10 percent of the payments until it 
passes inspection. But, quite frankly, I do not understand how 
some of these schools are passing inspection to begin with in 
the first place. Now, maybe it is because I come from a union 
state, I do not know. I know that this would not happen because 
we use skilled labor. Is it lack of skilled labor? Is it lack 
of inspections? What is going on?
    Ms. Emrey-Arras. That is an excellent question. We do know 
that there is a skills gap in terms of the agency not having 
enough folks with the right skills to assist with this issue. 
We will be looking at this more in depth as we go forward with 
our study to figure out exactly where those additional gaps 
are.
    I think it all comes down to accountability though. These 
are federal funds, and they are not being used in a way that is 
benefiting children.
    Ms. McCollum. Well, Mr. Chair, I have got an idea. Let us 
take some tribal college resources and funds and let's train up 
Indian Country to be able to go out not only do their own 
construction but be able to do their own inspections. I think 
that this needs to be part of our discussion.
    Thank you, Mr. Chair.
    Mr. Calvert.
    Ms. Emrey-Arras. Mr. Simpson.
    Mr. Simpson. This is actually kind of stunning. I was just 
telling Congressman Cole that I will guarantee you if it was a 
building built or a school built or re-roofed anywhere in 
Idaho, in any community in Idaho, if it started to leak, 
contractor's rear end is in trouble and a prosecutor would be 
after them in a heartbeat as well as the school and attorneys. 
I do not understand why that has not happened here, and it 
reminded me as you were talking about this, the stories in the 
old days about the reservations and we were going to provide 
beef and so people took advantage of it and put spoiled beef on 
the reservations and somebody is taking advantage here. Whether 
it is the contractors or the designers of the roof or whatever 
it is, somehow they have got to be held accountable. Having 
listened to Mr. Washburn and the other witnesses today, these 
are good people, and they are trying to do a good job. They are 
not just putting a blind eye to all these issues. They want the 
best for the tribes and the kids in these schools also. Is 
there something in the organizational structure that you have 
looked at that that could bring more accountability into the 
process?
    And what was the BIA's response to your report here? Did 
they respond? I plan to review it this weekend.

                       DOI RESPONSE TO GAO REPORT

    Ms. Emrey-Arras. We provided a statement of facts to the 
Department of Interior and received comments on those facts, 
and we incorporated any changes in response. I think there is 
general confusion among schools as to who to contact about 
facilities' problems. This is the issue that surfaced in the 
earlier panel about roles and responsibilities needing to be 
clarified, and I think that makes it all the more difficult for 
schools to know who to talk to when there is a problem. So I 
think that is an issue. We have previously recommended that 
Indian Affairs develop a communications strategy so that they 
can avoid some of those communication pitfalls. However, that 
recommendation has yet to be implemented by the Department so 
that is one thing that could be done.
    Similarly, we have made a recommendation that the 
Department develop a workforce plan to make sure it has the 
right number of people with the right skills to do the work. 
That recommendation is still outstanding as well and has not 
been implemented.
    So those are some immediate steps that could be done to 
help improve the situation, and we will continue to look at 
these issues as we move forward.
    Mr. Simpson. I will tell you, it gives me pause to have 
confidence in the list that they are going to put together 
prioritizing needs if we do not have the ability to determine 
what the need is. I will tell you that as we have traveled on 
some of these trips, we have gone to some schools that need 
some improvements, they need some repairs, and you talk to the 
local people and they are saying this needs to be torn down and 
replaced. I look at them and say, I understand why you say 
that, but I have been in some schools that I would not walk in, 
that I do not feel safe walking in, and this is a dream 
compared to them. I am not saying this is good.
    Ms. Emrey-Arras. Right. It is all relative.
    Mr. Simpson. And so it gives me pause as to whether I am 
going to have confidence in the prioritized list that they come 
out with.
    Ms. Emrey-Arras. We also have questions to the extent that 
they use data from the facilities database to create that list 
because our understanding is that there are significant issues 
with that data.
    Mr. Calvert. Ms. Pingree.
    Ms. Pingree. Thank you, Mr. Chair.
    Well, thank you very much for your report, and I am a 
relatively new member on the Committee so I think everyone here 
has much more experience in looking at schools and seeing some 
of these challenges.
    But you heard earlier I am from a state that is about to 
build a new school, and as you kind of mentioned, there are 
already so many questions about who to contact, who makes the 
decision, how does that get done. I can understand that there 
is a lot of general confusion, and I suppose it is not 
surprising that happens again when it comes to oversight. So I 
think the more recommendations that are out there about how to 
streamline the process, how to make it seem more like what 
happens in other school systems when there is oversight and 
inspection, and if a school, does not have sufficient expertise 
in how to make sure they are treated fairly, and if there are 
situations that schools are not being treated fairly or they 
are rural or remote, it seems like it is a perfect storm in a 
way for all kinds of bad conditions. But certainly it seems 
like there is universal agreement on the Committee, you know, 
across the board and across the country that there should be 
more investment in school construction and there should be more 
creative ways to do it, and it just seems like it would be 
logical to build into that, this kind of data collection 
oversight. It is going to make the money be more effectively 
spent and certainly it has got to be disappointing for a 
community that finally gets a school and then the roof leaks or 
is it unsafe or anything else happens. So it seems like this is 
good timing in that way to dig in and make sure these things 
are looked at.
    I am hoping that you will have a lot of recommendations 
about how the Department restructures or conducts it. 
Certainly, it seems logical that there should be more training 
on how people use the database and they should have more of a 
vested interest I guess in making sure that data is properly 
collected.
    Ms. Emrey-Arras. Right.
    Ms. Pingree. But I do not know--I mean, feel free to 
elaborate on that. I do not have a specific question.
    Ms. Emrey-Arras. Sure. I would say that clarifying offices' 
roles and responsibilities is important in addition to 
implementing our prior recommendation on developing a 
communications strategy. They may also want to turn their 
attention to their directory, which has not been updated in 
several years. I think if people have the right contact 
information for folks, that can help with the communication 
process as well. So I think there are some small steps that can 
make a big difference.
    Ms. Pingree. Thank you.
    Mr. Calvert. Before I go to Mr. Cole, if you can get back 
to me on that roofing job, it is driving me crazy.
    Ms. Emrey-Arras. It is not just you.
    Mr. Calvert. I re-roofed a lot of buildings in my lifetime 
and restaurants and industrial buildings and the rest, and so I 
have a pretty good idea of what roofs cost, so there is 
regional differences, and depending on where you put the roof, 
but if you can get the square footage, how big the building is. 
The largest roofing contractor in the State of California is 
one of my best friends. I am going to have him look through and 
see--the bid because he can tell me how bad this probably is.
    Mr. Cole.
    Mr. Cole. Will you share that information with the 
committee? I am sure you will.
    I am sorry, first of all, I missed most of your testimony. 
I apologize. And like Mr. Simpson, I am going to read it, but 
it is pretty easy to catch the flavor of your testimony, both 
your conclusion and in the questions that have been asked.
    A couple of questions. When you look at these schools, and 
obviously you are doing, I suppose, a sort of fiscal--or 
physical and fiscal look, but are there any governance systems 
for these schools? I mean, we normally would think of a school 
board and superintendents and school boards. Tell me how they 
are governed. Do you see any difference(s) when they are? I 
know, for instance, our friends, the Choctaws, run their own 
Jones Academy School. It is an unbelievable school, physically 
first rate. It is wonderful education and they educate Native 
American kids from all over, not just Choctaws.
    And so my experience has been, I have seen this in 
healthcare systems, the more the tribe is actually the manager 
of it--we still have resource questions and taxation questions 
and all that, but if parents can get their hands around the 
neck of somebody that is responsible, or their tribal 
legislators have the authority, responsibility, and know they 
will be held accountable, that tends to make a real difference 
in how any institution I see is managed. Self-governance 
actually is usually very, very good.
    Ms. Emrey-Arras. Well, we can definitely look into that 
more as we continue on. This is really the midway point for us, 
and we have more site visits to do as we go forward.
    I would say that obviously there are differences in terms 
of how the schools are run, whether they are tribally operated 
or BIE operated. That said, in terms of facilities management, 
Indian Affairs does play a significant role in terms of funding 
the schools, regardless of how they are operated, whether they 
are BIE operated or tribally run. Indian Affairs also owns the 
majority of all school facilities, about two-thirds. The tribes 
own about a third.
    So those are some of the things that we have learned so 
far. We are going to continue our exploration.
    Mr. Cole. We really should look at this, particularly in 
healthcare areas. It just--and I do not say this to knock 
anybody here and certainly not Indian Health, but where I have 
seen tribes actively managing--number one, if they have any 
revenue, they usually shift some of their own revenue into this 
because it is for their own people, but even beyond that, it 
just seems to work better, and I would assume the same thing 
here, so I think this is a governance issue as well.

               QUALITY OF CONTRACTORS AND CONTRACTED WORK

    And I do want to pick up on something that Mr. Simpson 
suggested and ask you to also look. There is culture in 
contracting too, and the history of private contractors working 
for the federal government in Indian Country, throughout the 
entire history of this country, has been bad. This is not a new 
problem. This is not something that is this Administration's 
fault. Frankly, I want to commend them for trying to get their 
hands on this and put resources in there and do some innovative 
things, and this committee very much on a bipartisan basis 
wants to do that too. But suggestions you could make about, you 
know, not only this or that--what are the contractor problems? 
What are the availability of contractors?
    Many of these places are going to be built in very remote 
locations. We saw a detention facility that had been badly 
sided where literally half the building was breaking off. It 
was an old facility when we were in Hopi country, and this 
happens time and time again. So what are the best practices 
contracting-wise that we can put in, and are you looking at 
that as opposed to just it is bad here or that but how do we 
actually go about this? How do we choose contractors? Who is 
responsible?
    Ms. Emrey-Arras. I think we will be looking into that, 
especially given the concerns that we found with some of the 
contractors that have put in those new roofs. It definitely 
raises the issue of accountability, on the contractor side or 
the supplier side.
    In terms of promising practices, I want to let you know 
that as we go forward, we are also going to be looking at some 
additional models that are being used to come up with other 
ways of managing facilities. For example, in Oklahoma, I know 
four schools came together to jointly hire two architects and a 
technician to help with their schools. So by having the tribes 
come together, they were able to jointly fund these positions 
so they were able to cover more schools. And so we will be 
looking at that as an alternative model and others that schools 
may be proposing to see if they also offer possibilities for 
the Department to encourage others to adopt as well.

                         POSSIBLE LEGAL ACTIONS

    Mr. Cole. The last thing I would ask you to look at, or 
maybe you are looking at it, again, this goes back to a point 
Mr. Simpson made, you know, there has to be a means, a punitive 
means, whether it is civil fines or criminal activity, where 
when you have got somebody, somebody really has the authority 
or responsibility to go after them, and I think sometimes, you 
know, people with the best intentions may be in Washington, 
D.C., and not see it. Somebody in local ground may see it and 
not have the ability to do it. How do you develop that so that 
they know when they are dealing with, you know, an Indian 
school in any state. It is like dealing with one of Mr. 
Simpson's constituent schools that hey, you come in here and 
mess with our kids, you are going to court, we are going to 
hold you accountable. If we bankrupt your company, that is what 
we are going to do. We expect, you know, value for the dollar 
and we expect these are, you know, kids going here that they 
are going to--somebody is going to look after them.
    Ms. Emrey-Arras. Well, we are definitely talking to our 
lawyers, who are very familiar with options available, and we 
will be involving them in our review as we go forward to talk 
about potential remedies.
    Mr. Cole. Thank you, and thank you for doing this.
    Yield back, Mr. Chairman.
    Mr. Calvert. Thank you.
    One point that both Mr. Cole and Mr. Simpson, noticed when 
we were out there looking at these various properties, that 
seemed to be a consistent problem was site preparation, not 
just on the schools and the detention facilities but on the 
housing. Apparently nobody ever heard of civil engineering 
before or soil testing and that type of thing, because if you 
build on a bad site, that could cause a lot of these problems 
you are talking about. If you have a shifting foundation, that 
can cause leaks and the rest. But that is why we need to get to 
the bottom of this.
    Ms. Emrey-Arras. And one of those schools, if I may say so, 
was built on a swamp.
    Mr. Calvert. That is great. That is great. Yeah, we noticed 
that one of the schools was built next to a flood control 
channel. It just does not seem like good site planning.
    Mr. Kilmer.

                  HUMAN CAPITAL AND WORKFORCE PLANNING

    Mr. Kilmer. Thanks, Mr. Chairman.
    Thanks for your testimony, as troubling as it is. One of 
the things that popped out to me in your testimony was the 
notion that 40 percent of BIA regional facility positions are 
currently vacant including engineers and architects and 
facilities managers. I get the financial challenges, but, you 
know, I guess I echo Ms. McCollum's comment. It seems like 
there would be some benefit in exploring ways to connect the 
Bureau's need with postsecondary institutions that are trying 
to train tribal members or, you know, work study programs, and 
I would certainly invite you to comment on that.
    Moreover, you had recommended that BIA revise its strategic 
workforce plan to ensure BIA is getting the administrative 
support that they need to be successful, and unfortunately, 
that plan has not been revised. To what extent has GAO explored 
BIA's talent management practices, everything from recruitment 
to retention to training to see what--to see that what they 
have got actually meets needs?
    Ms. Emrey-Arras. Those are really helpful points. To go to 
your earlier point, we will definitely explore the issue in 
terms of the links with higher-education institutions to see if 
there are opportunities there.
    In terms of the larger talent management or human capital 
examination, to my knowledge, we have not done that in recent 
years. We have touched on it in some of our prior work on 
management challenges, but we have not done an overall human 
capital evaluation. If that is something that the subcommittee 
would be interested in, we would be happy to do additional 
work.
    Mr. Kilmer. Thanks. Your report also highlights what seems 
to be positive developments resulting from a collaborative 
effort among tribes in Oklahoma to manage their facilities. I 
know GAO intends to continue reviewing that approach to see 
what lessons can be learned from it, but do you have a sense of 
how to compare the funding that BIA provides for those sorts of 
efforts through fee reimbursements as compared with the funding 
it makes available for regional offices to hire and to retain 
quality staff?
    Ms. Emrey-Arras. Not at this time. It is something we can 
certainly look into.
    Mr. Kilmer. Okay. Thank you. Thanks, Mr. Chairman.
    Mr. Calvert. Thank you.
    Mr. Simpson. Could I ask one quick question?
    Mr. Calvert. Ms. McCollum.
    Ms. McCollum. Thank you, gentlemen.
    Mr. Calvert. Sure.
    Ms. McCollum. One of the other things, because we talked 
about many BIE schools being remote and problems getting bids. 
So I have two questions.
    One, is it possible to work with the Bureau to come up with 
a list and see if there is a pattern of really egregious 
contractors, and then not allow these people to bid on things 
anymore?
    And then my second question is about another obstacle that 
you point out in your report on page 10. Sometimes it is 
infrastructure that the school needs, water pressure, water 
pipes, electricity that is reliable. And I appreciate what Mr. 
Cole said. We are not here to shoot any of the messengers today 
because quite frankly, people are trying to fix this problem. 
So we appreciate this, and this is all in the spirit of us 
doing our part to help. But we need to know who is responsible? 
Is that a problem? Are you going to thread that together with 
electric and water and sewer that come into the school?
    Ms. Emrey-Arras. We have noted, as you point out, that 
these schools do face additional costs that a lot of public 
schools do not face. They have to often have their own water 
and sewer systems. They may need their own fire protection 
systems given their remote locations. That is something that we 
have observed and is something that is relatively outside of 
their control. So I think we will be looking to see how that 
factors into our findings as we go forward. We will think about 
how our recommendations would affect that issue as well.
    Mr. Simpson. I have just one quick question, if I could, 
Mr. Chairman. You may want to take a pass on this if you do not 
want to respond. It is a general question, not just about this, 
but the GAO. We ask you to do studies and to report on things 
and investigate things, my idea of how it works is that we ask 
you to go look at school construction and BIA or any other 
subject out there in government, and you make recommendations 
on certain things, from your findings. There may be a reason 
that an agency does something that you are unaware of that is 
perfectly legitimate. What is the reception that you get 
generally from the agencies that GAO reports on? I look at it 
as someone to help you, a fresh set of outside eyes to look at 
something. Or are you seen as they are here to bust our rear 
end? It makes a difference in how it works out.
    Ms. Emrey-Arras. Right. I do not know if I can speak 
globally for everyone in terms of what it feels like when they 
hear that GAO is coming to visit. I would say that some school 
officials, at least on this study, have been very receptive to 
our efforts and are very interested in us coming to see their 
facilities to talk about the concerns they have because they 
are very concerned about the environments that their students 
are experiencing, and they want people to know what is going 
on.
    Mr. Simpson. What about within the Department?
    Ms. Emrey-Arras. We have also had a lot of cooperation from 
the Department, and I would say the majority of our 
recommendations on this issue have been agreed to by the 
Department.
    Mr. Simpson. That is good to hear. Thank you.
    Mr. Calvert. Thank you. Ms. Emery-Arras, thank you for your 
testimony today, especially for GAO's ongoing work in this 
area. We will be happy to invite you back once the study is 
complete. It will be interesting reading.
    Ms. Emrey-Arras. I am happy to come back.
    Mr. Calvert. And we certainly want to thank our first 
panel, Mr. Washburn, Mr. Black and Mr. Roessel.
    As I said before, we all want to help you succeed. Our 
partnership overtures may cause considerable grief but we are 
sincere. We all have the same goal, and that is to help the 
children.
    So we thank you for your good work, and we are adjourned.
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    
</pre></body></html>
